APPENDIX

App. 1a

APPENDIX A
United States Court of Appeals
For the First Circuit

No. 19-2249
LUZ GONZÁLEZ-BERMÚDEZ,
Plaintiff, Appellee,
v.
ABBOTT LABORATORIES P.R. INC.; KIM PÉREZ,
Defendants, Appellants.
APPEAL FROM THE UNITED STATES DISTRICT
COURT FOR THE DISTRICT OF PUERTO RICO,
[Hon. Juan M. Pérez-Giménez, U.S. District Judge]
Before
Lynch, Thompson, and Kayatta,
Circuit Judges.
[Counsel omitted]

App. 2a

March 3, 2021

KAYATTA, Circuit Judge. After being demoted,
threatened with termination, and denied several promotions in 2013 and 2014, Luz González-Bermúdez
filed suit against her employer, Abbott Laboratories,
and her direct supervisor, Kim Pérez (collectively,
“Abbott”), alleging age discrimination and retaliation
under the Age Discrimination in Employment Act
(ADEA), 29 U.S.C. §§ 621–34; Puerto Rico Law 100,
P.R. Laws Ann. tit. 29, §§ 146–51; and Puerto Rico
Law 115, id. §§ 194–194b. After a six-day trial, the
jury found for González, awarding back pay in the
amount of $250,000 and an additional $4 million for
emotional distress. The district court upheld the liability verdict and entered judgment against Abbott on
all counts but reduced the damages to just over
$500,000 (to be doubled under Law 100, see id.
§ 146(a)(1)). On appeal, Abbott argues that the evidence was insufficient to support the jury’s verdict.
For the following reasons, we find that Abbott is entitled to judgment as a matter of law on González’s
ADEA claims and her corresponding claims under
Law 100 and Law 115. But because Abbott failed to
preserve its challenge to the jury’s separate finding
that Abbott retaliated against González for reporting
to the State Insurance Fund (SIF), in violation of Law
115, we decline to upset the jury’s verdict in that respect.

App. 3a
I.
We begin by briefly summarizing the facts, viewing
the record in the light most favorable to González and
drawing all reasonable inferences in her favor. See
Muñoz v. Sociedad Española de Auxilio Mutuo y Beneficiencia de P.R., 671 F.3d 49, 55 (1st Cir. 2012). González began working at Abbott Laboratories in 1984.
Over the next twenty-five years, she eventually became a National Sales Manager, which was designated as a Level 18 position on the Abbott Laboratories pay scale. In November 2010, Abbott underwent
a reorganization and eliminated González’s position,
as well as the positions of two other employees, Rocio
Oliver and Dennis Torres. All three employees accepted transfers to lower-level positions. As a result,
González assumed the role of Institutional Marketing
Manager, a newly created Level 17 position supervised by Kim Pérez. González does not challenge the
lawfulness of this transfer.
González’s transition to the new position was less
than smooth. She disliked Pérez’s style of supervision,
and in November 2011 she filed an internal complaint
against Pérez for harassment, which was ultimately
found unsubstantiated. In addition to getting used to
a new supervisor, González had to adjust to a new
workload: While she had previously supervised
twenty-eight employees in her role as a National Sales
Manager, she was expected to complete her tasks independently in her new Institutional Marketing Manager position. At trial, González admitted that she
was unable to timely perform all the duties of her new
position, resulting in a “partially achieved” performance rating for 2011 -- her first ever negative performance evaluation at Abbott. González’s duties were
subsequently redistributed at her request, and she

App. 4a
received an overall positive “achieved expectations”
rating for 2012. However, she still received a negative
“partially achieved” rating for two categories of tasks
relating to communication, organization, and meeting
deadlines.
On March 18, 2013, Abbott reassigned González to
a Level 15 Product Manager position supervised by
Pérez. At trial, Pérez testified that the reassignment
decision was made to reflect the duties González had
been performing since some of her responsibilities
from the Level 17 position were redistributed in 2012.
González, by contrast, testified that she believed she
was demoted in 2013 because of her age: She was fiftythree years old at the time, and the two other employees who had accepted lower-level positions as a result
of the 2010 reorganization, Oliver (age forty-four) and
Torres (age forty-one), were not similarly demoted.
Upon learning that she was being demoted on
March 18, 2013, González experienced symptoms of
anxiety and immediately reported to the company doctor. On the doctor’s advice, she reported to the SIF and
was placed on rest until July 10, 2013. But she returned to work just a few weeks later, cutting her
medical leave short, after receiving a letter from Abbott threatening to terminate her employment if she
did not report to work by April 8, 2013.
According to González’s 2013 mid-year performance evaluation, González continued to miss project
deadlines after returning to work. Nevertheless, González testified that based on her mid-year review, she
believed she was “on track” and achieving the expectations of her position. One month later, in mid-October 2013, González’s attorneys informed Pérez that
González intended to sue her for age discrimination,

App. 5a
based on the March 2013 demotion decision. Later
that month, González filed an administrative claim of
age discrimination. According to González’s testimony
at trial, her professional relationship with Pérez worsened after she filed her complaint of age discrimination. For example, González testified that Pérez deprived her of information she needed to participate in
a meeting held on October 30, 2013.
In November 2013, González became aware that a
Level 16 Senior Product Manager position had opened
up. She emailed Matt Harris, Abbott’s general manager in Puerto Rico, expressing her interest in the position and her belief that she had not been informed of
the opening out of retaliation for her complaint of age
discrimination. Unbeknownst to González, Abbott had
begun recruiting externally for the position via
LinkedIn in August 2013. After receiving González’s
email, Harris had the position posted internally so
that Abbott employees could compete with external
candidates. González subsequently submitted her
name for consideration. Meanwhile, the hiring committee designed the process by which they would select a candidate to fill the position. In doing so, the
members of the hiring committee -- Harris, Pérez, and
two members of Abbott’s human resources department -- discussed González’s discrimination complaint
among themselves and with counsel. After conducting
an initial review of the candidate slate, the hiring
committee selected three finalists -- González and two
external candidates.
In December 2013, the hiring committee interviewed González and the other two finalists for the
Senior Product Manager position. After the interviews, the hiring committee informed all three finalists that they would each be required to give a mock

App. 6a
sales presentation the following day. González had
never heard of such a requirement in an Abbott interview process. And she thought it was unnecessary for
her to fulfill such a requirement because she had given
similar presentations in the course of her employment
at Abbott to various individuals, including members of
the hiring committee. Concluding that the presentation requirement was imposed specifically to prevent
her promotion, González refused to participate. Despite her withdrawal from the presentation component of the selection process, González emailed one of
the members of the hiring committee two days later to
reiterate her interest in the position, at which point
she was informed that one of the other finalists -- who
had fulfilled the presentation requirement -- had already been hired.
In January 2014, González sought to be promoted
to a Level 18 Regional Sales Manager position that
had been posted internally. The following month, she
received her end-of-year evaluation for 2013. Pérez
had given her an overall negative, “partially achieved”
performance rating, rendering her ineligible for promotion in 2014 according to Abbott’s general policy or
practice. Pérez testified at trial that she gave González a negative evaluation because González had repeatedly missed deadlines and lost her composure
with colleagues when confronted about her untimely
work. González did not specifically dispute the contents of the evaluation but disagreed with Pérez’s
overall assessment of her performance and requested
that the human resources department conduct its own
review. In connection with that request, she asked
that her emails from 2013 be reinstated, but was informed that the emails had already been deleted and

App. 7a
could not be retrieved. Hearing this, González filed an
administrative complaint for retaliation.
While González’s request for review of her performance evaluation and her administrative complaints
were pending, Abbott determined that a different employee should be promoted to the Level 18 Regional
Sales Manager position. Because promoting that employee would leave a Level 16 Senior District Manager
position open, Abbott began looking for yet another
employee to promote. Harris directed the hiring committee to keep this news quiet, but González found out
about the Senior District Manager opening anyway
and emailed Harris in March 2013 asking to be considered. Harris flatly denied her request, stating that
she had failed to meet minimum expectations in several areas for the last three years. Ultimately, Abbott
preselected another employee for the Senior District
Manager position without requiring her to compete
with other candidates for the promotion.
In April 2014, the human resources department
developed a “Talent Management Review” document,
which listed developmental actions and future potential promotions for some Abbott employees. The document did not identify any developmental actions or potential promotions for González. Nor was González
placed on an official “performance improvement plan”
to help her raise her performance rating from a negative “partially achieved” in 2013 to a positive
“achieved expectations” in 2014. González nevertheless received a positive performance evaluation for
both 2014 and 2015, albeit from a new supervisor.

App. 8a
II.
We review de novo the district court’s denial of Abbott’s motion for judgment as a matter of law. See
Muñoz, 671 F.3d at 55. Reversal is appropriate only if,
based on the evidence in the record, “reasonable persons could not have reached the conclusion that the
jury embraced.” Id. (quoting Sanchez v. P.R. Oil Co.,
37 F.3d 712, 716 (1st Cir. 1994)).
A.
We begin with González’s claim of age discrimination. This claim is based solely on her demotion in
March 2013. The district court held that the jury could
have found age discrimination under both the ADEA
and Law 100 on a theory of disparate treatment, citing
evidence that two employees younger than the fiftythree-year-old González -- Rocio Oliver (age forty-four)
and Dennis Torres (age forty-one) -- were not demoted
in 2013.
This was error. “[I]n order to be probative of discriminatory animus, a claim of disparate treatment
‘must rest on proof that the proposed analogue is similarly situated in material respects.’” Vélez v. Thermo
King de P.R., Inc., 585 F.3d 441, 451 (1st Cir. 2009)
(quoting Perkins v. Brigham & Women’s Hosp., 78
F.3d 747, 752 (1st Cir. 1996)). Though the comparison
cases “need not be perfect replicas,” García v. BristolMyers Squibb Co., 535 F.3d 23, 31 (1st Cir. 2008)
(quoting Conward v. Cambridge Sch. Comm., 171 F.3d
12, 20 (1st Cir. 1999)), they must be similar enough
that “apples are compared to apples,” Cardona Jiménez v. Bancomercio de P.R., 174 F.3d 36, 42 (1st Cir.
1999) (alteration omitted) (quoting Dartmouth Rev. v.
Dartmouth Coll., 889 F.2d 13, 19 (1st Cir. 1989)).

App. 9a
No matter how generously one views the trial record, it is apparent that Oliver and Torres were not
similarly situated to González in several important respects. Although Oliver and Torres, like González,
saw their positions eliminated as a result of Abbott’s
reorganization three years earlier in 2010, this at
most shows that they were similarly situated to González in one respect in 2010. For the next three years,
Oliver and Torres occupied lower positions, performed
different duties, and reported to different supervisors
than did González. See García, 535 F.3d at 32–33
(finding two employees not similarly situated where
they held different positions and had different responsibilities); Rodríguez-Cuervos v. Wal-Mart Stores,
Inc., 181 F.3d 15, 20–21 (1st Cir. 1999) (finding two
employees not similarly situated where the employees
had different supervisors and worked under different
circumstances). Moreover, there is no evidence in the
record regarding Oliver and Torres’s job performance
between 2010 and 2013, which would be necessary for
González to establish that Abbott discriminated
against her by demoting her without also demoting
Oliver and Torres. See Alvarez-Fonseca v. Pepsi Cola
of P.R. Bottling Co., 152 F.3d 17, 26 (1st Cir. 1998)
(rejecting a disparate treatment claim where two employees had different performance records). In sum, if
Oliver and Torres were apples in 2013, González was
not even a fruit.
Without this unsuitable comparator evidence,
González is left with no evidence that in any way suggests that she was demoted in March 2013 because of
age discrimination. At oral argument, counsel could
cite none. In her brief, González tries to rely on the
fact that months later, after she asserted her claim
that the March 2013 demotion was discriminatory,

App. 10a
Pérez mentioned the claim while discussing the selection process for the Senior Product Manager position.
But an employer’s awareness that a discrimination
claim has been made hardly provides evidence that
the claim is valid. Otherwise, there would necessarily
be evidence of discrimination in every case of claimed
discrimination.1
The district court speculated that perhaps Pérez
had designed the Level 17 job to which González was
transferred in the 2010 reorganization to be so difficult that González would fail in it. But there is no evidence to support this rather remarkable speculation,
and even González did not challenge her transfer to
the new position in 2010. See Brandt v. Fitzpatrick,
957 F.3d 67, 75 (1st Cir. 2020) (explaining that a
plaintiff cannot avoid judgment as a matter of law in
an employment discrimination case based on “rank
conjecture,” “improbable inferences,” and “unsupported speculation” (first quoting Pina v. Children’s
Place, 740 F.3d 785, 795 (1st Cir. 2014); then quoting
Ray v. Ropes & Gray LLP, 799 F.3d 99, 116–17 (1st
Cir. 2015))).
Nor is there evidence showing that Abbott told any
material lies that might in context have been viewed
as attempts to conceal a discriminatory motive. The
district court found that the jury could have reasonably believed Abbott “had something to hide,” citing
only the rather trivial disagreement among Abbott
witnesses about whether González’s 2013 demotion
should be characterized as a “demotion” or a
By contrast, awareness of a claim is certainly relevant (indeed necessary) to establishing a retaliatory motive for a subsequent adverse employment action. Medina-Rivera v. MVM, Inc.,
713 F.3d 132, 139 (1st Cir. 2013).
1

App. 11a
“transfer.” This evidence does not support an inference of discrimination. See Zapata-Matos v. Reckitt &
Colman, Inc., 277 F.3d 40, 45 (1st Cir. 2002) (explaining that courts must weigh the evidence “case by
case,” asking “not whether the explanation was false,
but whether discrimination was the cause” of the adverse employment action).
There is evidence that González and Pérez had a
difficult professional relationship from the get-go,
leading González to file an unsubstantiated harassment claim against Pérez back in 2011. The district
court, too, found Pérez to be “haughty” while on the
stand at trial. But that stands far removed from proving discrimination. If anything, it suggests that the
two simply did not get along.
González falls back on a claim of waiver, asserting
that Abbott failed to preserve its challenge to the sufficiency of the evidence on the age discrimination
claim concerning the March 2013 demotion. Abbott
moved for judgment as a matter of law pursuant to
Rule 50(a) at the close of the evidence, arguing that
there was “no direct evidence of discrimination” and
not “a scintilla of evidence” that the elimination of
González’s position was “associated” with any “lies.”
But in staking out that position, Abbott did not specifically mention and refute the comparator evidence
that González relied on in attempting to prove age discrimination. Therefore, reasons González, Abbott
waived the right to make any arguments concerning
that evidence.
We disagree. A party certainly must move for
judgment as a matter of law under Rule 50(a) at the
close of the evidence in order to preserve fully the ability to press a renewed motion for judgment as a matter

App. 12a
of law under Rule 50(b) after the verdict. See Osorio v.
One World Techs., Inc., 659 F.3d 81, 87 (1st Cir. 2011).
Here, Abbott indisputably filed a timely motion under
Rule 50(a) at the close of the evidence and specifically
asserted that there was no evidence to support the age
discrimination claim. Our caselaw does not as a general matter require more specificity. See id. at 88
(“[Rule 50(a)] does not require technical precision in
stating the grounds of the motion.” (alteration in original) (quoting Lynch v. City of Boston, 180 F.3d 1, 13
n.9 (1st Cir. 1999))). Otherwise, Rule 50(a) motions -often made while the jury awaits argument and instructions -- would necessarily turn into lengthy analyses of every possible piece of evidence in the other
party’s possible favor. In this very case, the district
court told counsel to “make it very short because I
know what the evidence is. So just make it short.”
When Abbott later filed its Rule 50(b) motion, which
specifically pointed out the insufficiency of González’s
comparator evidence, the district court expressed no
surprise and found no waiver. Finally, the record suggests that no more precision was necessary to avoid
prejudice to González. There is, in short, no reason to
find that Abbott lost the opportunity to explain on appeal why it was correct in timely asserting that there
was no evidence of age discrimination in the March
2013 demotion.
Finding no waiver and no evidence that González
was demoted in March 2013 because of her age, we
conclude that the evidence at trial was not sufficient
to support a verdict against Abbott for age discrimination under the ADEA. And while González correctly
points out that Law 100 shifts the burden of proof to
the employer on the issue of discrimination if the challenged employment action is unjust, see Alvarez-

App. 13a
Fonseca, 152 F.3d at 27, she has not put forth any evidence of unjustness in her demotion. Even if she had,
Abbott established a total absence of evidence that its
actions were motivated by González’s age.2 See Baralt
v. Nationwide Mut. Ins. Co., 251 F.3d 10, 17–21 (1st
Cir. 2001) (rejecting the plaintiffs’ Law 100 claim because the record was “bereft of indicia of discriminatory intent”).
B.
We turn next to González’s retaliation claims under the ADEA and Law 115. Both statutes prohibit an
employer from taking adverse employment action
against an employee because of her protected activity.
See Rivera-Rivera v. Medina & Medina, Inc., 898 F.3d
77, 94, 97 (1st Cir. 2018). The district court held that
the evidence at trial was sufficient for the jury to find
Abbott liable for retaliating against González on three
separate occasions. We address each in turn.
1.
At trial, González argued that Abbott retaliated
against her in violation of Law 115 by threatening her
with termination after she reported to the SIF. Recall
that after González was informed of her demotion in
March 2013, she reported to the SIF and went on medical leave. Approximately one to two weeks later, she
received a letter from Abbott stating that if she did not
cut her medical leave short and return to work, Abbott
Because the jury could not reasonably have found that Abbott demoted González because of her age, we need not decide
whether Kim Pérez (González’s supervisor) could have been held
personally liable for age discrimination under Law 100.
2

App. 14a
would terminate her employment. Presumably based
on that threat of termination, the jury found that Abbott retaliated against González for reporting to the
SIF, which is undisputedly protected activity for purposes of Law 115. The district court upheld this aspect
of the jury’s verdict, finding that Abbott had waived
any objection in its Rule 50(a) motion.
On appeal, Abbott suggests that the SIF claim
could not support a finding of retaliation under Law
115 because a threat of termination is not an adverse
employment action. But it provides no support for this
proposition, and it does not attempt to explain why the
contrary authorities cited by the district court are inapplicable. And insofar as Abbott argues that its letter
threatening to terminate González’s employment was
authorized by Puerto Rico law and thus could not constitute unlawful retaliation under Law 115, it does not
adequately develop that argument on appeal. Nor
does it develop any argument as to why the district
court’s Rule 50(a) waiver ruling was wrong. Rather, it
simply states that it “strongly disagree[s]” with the
district court’s logic. We therefore deem Abbott’s contentions regarding González’s SIF claim waived for
lack of sufficient argumentation, see United States v.
Zannino, 895 F.2d 1, 17 (1st Cir. 1990), and affirm the
district court’s decision to the extent that it upholds
the jury’s verdict on that claim under Law 115.
2.
González’s second theory of retaliation arises out
of Abbott’s refusal to promote her to the Senior Product Manager position in December 2013, following her
complaint of age discrimination against Pérez in October 2013. The district court held that the jury could

App. 15a
have believed that the selection process for this position was intentionally stacked against González and
that her non-promotion was therefore retaliatory.
In a retaliatory failure-to-promote case, a plaintiff
must ordinarily show, among other things, that “she
applied for a particular position ... for which she was
qualified.” Velez v. Janssen Ortho, LLC, 467 F.3d 802,
807 (1st Cir. 2006). No reasonable jury could find that
González has met this threshold burden. The undisputed evidence in the record shows that González refused to participate in the mock-presentation component of the application process. As such, she voluntarily forfeited her eligibility for promotion to the Senior
Product Manager position. Cf. Zabala-De Jesus v.
Sanofi-Aventis P.R., Inc., 959 F.3d 423, 430–31 (1st
Cir. 2020) (holding that an employer did not discriminate against the plaintiff by failing to hire him for a
position for which he did not apply); Love v. Alamance
Cnty. Bd. of Educ., 757 F.2d 1504, 1510 (4th Cir. 1985)
(rejecting a claim of discriminatory non-promotion
where the employee withdrew her application).
Of course, if an employer makes it clear that completing the application process is futile on account of a
potential applicant’s recent complaint of age discrimination, then the law may require only that the plaintiff show that she would have otherwise applied for
and obtained the job. Cf. Int’l Bhd. of Teamsters v.
United States, 431 U.S. 324, 365 (1977) (“If an employer should announce his policy of discrimination by
a sign reading ‘Whites Only’ ... , his victims would not
be limited to the few who ignored the sign and subjected themselves to personal rebuffs.”). We might also
imagine an extreme case in which an employer unlawfully made it impossible or dangerous for a person to
complete the application process.

App. 16a
This is not such a case. González only argues that
the sales presentation was not a usual part of Abbott’s
hiring process. That is beside the point. It was plainly
job-related, and it was required equally of all the finalists who were selected to interview for the position.
Perhaps she would have done well. Perhaps not. We
do not know only because she did not try. As a general
rule, it is not for the plaintiff to predict the employer’s
hiring decision and then claim to be the victim of that
predicted decision. See Brown v. Coach Stores, Inc.,
163 F.3d 706, 711 (2d Cir. 1998) (“It would be unthinkable to routinely permit non-applicant plaintiffs in individual suits to recover ... based on what amounts to
mere speculation that they would have been rejected
for discriminatory reasons had they applied.” (quoting
1 Lex K. Larson, Employment Discrimination
§ 8.02[2], at 8-30-8-31 (2d ed. 1997))); see also Hoffman-García v. Metrohealth, Inc., 918 F.3d 227, 230
(1st Cir. 2019) (describing the plaintiff’s failure to apply for the position at issue as a “fatal defect”).
González also suggests that her failure to complete
the application process for the Senior Product Manager position is not dispositive because Abbott had already retaliated against her by requiring her to apply
in the first place, given that other Abbott employees
were offered promotions without having to compete
with external candidates. However, the undisputed
evidence in the record shows that Abbott began soliciting external candidates for the Senior Product Manager position in August 2013, well before González engaged in protected activity by filing her age discrimination complaint against Pérez in October 2013. So
Abbott’s failure to offer González the Senior Product
Manager position outright could not have been a retaliatory response to her October 2013 complaint of

App. 17a
age discrimination.3 See Morón-Barradas v. Dep’t of
Educ., 488 F.3d 472, 481 (1st Cir. 2007) (“It is impossible for [an employer] to have retaliated against [an
employee] before she engaged in protected activity.”).
3.
Finally, the district court held that the jury could
have reasonably found Abbott liable for retaliating
against González in violation of the ADEA and Law
115 by giving her a “partially achieved” performance
evaluation for 2013 and then denying her two promotions in early 2014. On appeal, Abbott argues that the
record lacked sufficient evidence for a reasonable jury
to find that either the 2013 performance evaluation or
the 2014 non-promotions were motivated by retaliatory animus rather than legitimate business judgments.
a.
González’s claim that her worse performance evaluation for 2013 was retaliatory rested primarily on
chronology: She testified that she received a favorable
rating from Pérez at her mid-year evaluation in September 2013, then filed her claim of age discrimination against Pérez in October 2013, and then received
the less favorable end-of-year review from Pérez in
February 2014. So, she reasons, the “drop” from midyear to end-of-year must have been a retaliatory response to her October claim.
Having determined that González’s failure to complete the
application process for the Senior Product Manager position in
December 2013 bars her corresponding retaliation claim, we
need not consider her other arguments for why the jury could
have found retaliation.
3

App. 18a
Chronology alone can sometimes support an inference of improper motive, but only where the circumstances make such an inference reasonable. See Colburn v. Parker Hannifin/Nichols Portland Div., 429
F.3d 325, 337–38 (1st Cir. 2005). The immediate problem with González’s reasoning is that she had also
filed an internal complaint against Pérez in 2011, before the 2013 mid-year review. Yet, says González,
that was a good and fair review. So we question the
reasonableness of any inference that the lesser end-ofyear review was necessarily the result of González’s
October 2013 claim against Pérez, and ask whether
something else accounts for the lower review.
The record answers that question in the affirmative. It contains undisputed evidence that González’s
performance worsened after her mid-year evaluation
had been completed. According to the mid-year evaluation, she missed only three deadlines in the first
eight months of 2013 -- one on January 15, one on July
15, and one on August 1. The end-of-year evaluation
indicates that González missed at least three more
deadlines over just the next four months -- including
one on September 30, one in mid-October, and one on
November 5 -- and failed altogether to complete one of
the late projects that had been discussed at her midyear evaluation. These facts are not disputed by González, and they buttress the unreasonableness of any
inference of retaliation arising from the chronology
she relies on. See id. at 336–38 (finding that the timing of the plaintiff’s termination raised no inference of
retaliation because, during the period between his
protected conduct and his termination, his employer
determined that he had lied about his reasons for being absent from work on two occasions); Mesnick v.

App. 19a
Gen. Elec. Co., 950 F.2d 816, 828 (1st Cir. 1991) (similar).
The district court nevertheless suggested that the
jury reasonably could have disbelieved Abbott’s
missed-deadlines argument because Abbott had
deemed González a finalist for promotion to the Senior
Product Manager position in December 2013, just
days before the end of the yearlong period on which
her 2013 performance evaluation was based. In the
district court’s view, this evidence implied that González’s performance was sufficiently competent in
2013 to qualify her for promotion and therefore suggested that her negative evaluation must have been
motivated by retaliatory animus rather than her poor
performance. But undisputed trial testimony indicates that González was included in the pool of finalists for that position based on her positive performance evaluation for 2012, which was her most recent
performance evaluation at the time, rather than on
her performance in 2013. In short, there was no inconsistency between González’s partial success in seeking
a promotion based on her 2012 performance and her
subsequent receipt of a negative rating for her 2013
performance.4
The district court also identified other actions that
it viewed as incompatible with Abbott’s contention
that González’s poorer evaluation was justified by her
poorer performance. Specifically, the district court
noted that Abbott had not placed González on a “performance improvement plan” or formally identified
Moreover, that partial success of being selected as one of the
three finalists out of more than one hundred applicants came after González filed her charge of age discrimination. This only reinforces our conclusion that Abbott did not retaliate against her.
4

App. 20a
“developmental actions” for her to take in 2014. But it
is undisputed that Abbott only instituted performance
improvement plans for employees who had received
two consecutive negative performance evaluations,
not for employees like González who had received only
one. And while several witnesses at trial offered different reasons for Abbott’s failure to identify developmental actions for González, documentary evidence
admitted at trial indisputably indicates that Abbott
did not list developmental actions for every employee,
or even for every employee whose performance needed
improvement.
Finally, the district court suggested that the jury
nevertheless could have found Abbott liable for retaliation based on her 2013 performance evaluation because the jury reasonably could have regarded González’s poorer performance as the result of “sabotage[ ]”
by Pérez, based on González’s testimony that Pérez
had excluded her from meetings and deprived her of
information essential to the performance of her duties.
But González’s actual testimony indicates only that
she complained about being deprived of information
with respect to a single meeting on October 30, 2013,
regarding a single project, which does not explain the
multiple missed deadlines listed in her end-of-year
evaluation. And there is no evidence in the record that
González was excluded from meetings -- only that she
felt “sidelined” during the October 30 meeting just
mentioned.
In sum, it is apparent from the record that González repeatedly missed deadlines throughout 2013, and
that her job performance worsened after she received
critical feedback regarding her late work. The evidence cited by the district court and González, viewed
collectively, does not suggest otherwise. More

App. 21a
generally, it matters not whether González or Abbott
is correct in characterizing the quality of her performance. Rather, the question is whether Abbott falsely
claimed that it regarded her performance as poorer
and, if so, whether the jury could reasonably infer that
the real reason for the poorer performance rating was
retaliation. Brandt, 957 F.3d at 82. Given that González’s performance indisputably worsened to some extent between the September review and the end-ofyear review, no reasonable jury could infer that Abbott’s less favorable characterization of that performance, by itself, implied a retaliatory motive. See Carreras v. Sajo, García & Partners, 596 F.3d 25, 37 (1st
Cir. 2010) (rejecting an employee’s retaliation claim
because “[t]he evidence was consistent on the essential point, i.e., that [his] work was untimely and therefore unsatisfactory”).
b.
We quickly dispose of González’s remaining retaliation claim, which arises out of Abbott’s refusal to promote her to either Regional Sales Manager or Senior
District Manager in early 2014. It is undisputed that,
during the relevant time period, Abbott ordinarily did
not promote employees who had received a “partially
achieved” rating for the preceding year. Witnesses at
trial, including González herself, consistently testified
that this was the reason González was not promoted
in 2014. It is true that the trial record contains discrepancies regarding whether this general rule was a
“policy” or a mere “practice” at Abbott; whether González was “considered” for the promotions she sought
before she was ultimately rejected; and whether Abbott relied on alleged performance shortcomings from
2011 and 2012 as well as from 2013 when deciding not
to promote her. But such debates about tangential

App. 22a
characterizations are, as a matter of law, insufficient
to prove retaliation. See Carreras, 596 F.3d at 37.
III.
For the foregoing reasons, we affirm the judgment
of the district court in part, reverse in part, and remand for a new trial on the sole issue of damages resulting from Abbott’s April 2013 letter threatening to
terminate González’s employment after she reported
to the SIF, which the jury found to be unlawful retaliation.5 We award no costs.

Having concluded that González’s other claims of discrimination and retaliation lack adequate support in the record, we
deny as moot Abbott’s alternative request for a new trial on those
claims. And, having concluded that a new trial as to damages is
appropriate, we need not con-sider Abbott’s alternative request
for further remittitur.
5

App. 23a

APPENDIX B
United States Court of Appeals
For the First Circuit
NO. 19-2249
LUZ GONZÁLEZ-BERMÚDEZ,
Plaintiff, Appellee,
v.
ABBOTT LABORATORIES P.R. INC.; KIM PÉREZ,
Defendants, Appellants.
JUDGMENT
Entered: March 3, 2021
This cause came on to be heard on appeal from the
United States District Court for the District of Puerto
Rico and was argued by counsel.
Upon consideration whereof, it is now here ordered, adjudged and decreed as follows: The judgment
of the district court is affirmed in part and reversed in
part, and the matter is remanded for a new trial consistent with the opinion issued this day. No costs are
awarded.

App. 24a
By the Court:
Maria R. Hamilton, Clerk
[cc’s omitted]

App. 25a
______
APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF PUERTO RICO
LUZ GONZALEZ-BERMUDEZ,
Plaintiff,

CIVIL NO.
14-1620 (PG)

v.
ABBOTT LABORATORIES
P.R. INC., ET. AL.,
Defendants.
OMNIBUS OPINION AND ORDER
Plaintiff Luz Gonzalez-Bermudez (hereinafter
“Plaintiff” or “Gonzalez”) filed this action pursuant to
the Age Discrimination in Employment Act (“ADEA”
or “the Act”), 29 U.S.C. §§ 621-634, against her
employer Abbott Laboratories PR Inc. (“Abbott” or
“the Company”) and her supervisor Kim Perez
(hereinafter “Perez”). The Plaintiff also raised
supplemental state law claims of age discrimination
under Puerto Rico’s antidiscrimination statute, Law
No. 100 of June 30, 1959 (“Law No. 100”), P.R. Laws
Ann. tit. 29, § 146, et seq., as well as claims of
retaliation under Puerto Rico’s anti-retaliation
statute, Law No. 115 of December 20, 1991 (“Law No.

App. 26a
115”), P.R. Laws Ann. tit. 29, § 194a. The case
proceeded to trial and the jury found in favor of
Plaintiff, awarding her $4,000,000.00 ($3,000,000.00
against Abbott; $1,000,000.00 against Perez) in
compensatory damages and $250,000.00 in back pay.
See Verdict, Docket No. 138. Pursuant to the doubling
provisions of the applicable local statutes, the court
entered judgment in the amount of $8,500,000 in both
pack-pay and emotional damages, plus an additional
$250,000 in liquidated damages. See Docket No. 150.
Defendants filed several post-judgment motions
seeking various remedies. The court already denied
defendants’ motion for judgment as a matter of law
under Rule 50(b) of the Federal Rules of Civil
Procedure. See Opinion and Order, Docket No. 187.
Therein, the court held that defendants did not meet
their burden of showing that the evidence presented
at trial, taken in the light most favorable to Gonzalez,
was so overwhelmingly inconsistent with the verdict
that no reasonable jury could conclude that
defendants discriminated and retaliated against
Plaintiff. Id. Pending now before the court are: (1) a
motion for new trial or alternatively for remittitur,
under Rules 50(b), 59(a) and 59(e) (Docket No. 164);
(2) a motion for relief from judgment or order under
Rule 60 and/or motion to alter or amend judgment
under Rule 59(e) (Docket No. 165). For the reasons
that follow, the court GRANTS IN PART AND
DENIES IN PART the defendants’ requests.

App. 27a
I. STANDARDS OF REVIEW
A. Rule 59 – Motion for New Trial / Motion to
Alter Judgment / Motion for Remittitur
Rule 50(b) of the Federal Rules of Civil Procedure
provides that if the court does not grant a motion for
judgment as a matter of law made under Rule 50(a),
“the movant may file a renewed motion for judgment
as a matter of law and may include an alternative or
joint request for a new trial under Rule 59.” Fed. R.
Civ. P. 50. Pursuant to Rule 59(a)(1)(A), the court may
grant a new trial “after a jury trial, for any reason for
which a new trial has heretofore been granted in an
action at law in federal court; ...” Fed. R. Civ. P.
59(a)(1)(A). “A trial court may ‘set aside a jury’s
verdict and order a new trial only if the verdict is
against the demonstrable weight of the credible
evidence or results in a blatant miscarriage of
justice.’” Sindi v. El-Moslimany, 896 F.3d 1, 13 (1st
Cir. 2018) (citing Sanchez v. P.R. Oil Co., 37 F.3d 712,
717 (1st Cir. 1994)).
Alternatively, Rule 59(e) permits a motion “to alter
or amend a judgment[.]” Fed. R. Civ. P. 59(e). “A party
may ask a court to amend its judgment under Rule
59(e) of the Federal Rules of Civil Procedure based on
newly discovered material evidence or an intervening
change in the law, or because the court committed a
manifest error of law or fact.” Casco, Inc. v. John
Deere Constr. & Forestry Co., No. CV 13-1325 (PAD),
2017 WL 4226367, at *2 (D.P.R. Mar. 30, 2017) (citing
Bogosian v. Woloohojian Realty Corp., 323 F.3d 55, 72
(1st Cir. 2003); Aybar v. Crispin-Reyes, 118 F.3d 10,
16 (1st Cir. 1997)). When a party moves for remittitur
pursuant to Rule 59(e), “[i]t is within the district

App. 28a
court’s discretion ‘to order a remittitur if such an
action is warranted in light of the evidence adduced at
trial.’” Climent-Garcia v. Autoridad de Transporte
Maritimo y Las Islas Municipio, 754 F.3d 17, 21 (1st
Cir. 2014) (citing Trainor v. HEI Hospitality, LLC, 699
F.3d 19, 29 (1st Cir.2012)). “When a movant attacks
an award of damages as excessive, a court may remit
the award only if ‘the award exceeds any rational
appraisal or estimate of the damages that could be
based upon the evidence before it.’ ” Sindi, 896 F.3d at
13 (citing Trainor, 699 F.3d at 29).
B. Rule 60 – Motion for Relief from Judgment
Rule 60(b) provides that a court may relieve a
party from a final judgment, order, or proceeding for
the following reasons:
(1) mistake, inadvertence, surprise, or excusable
neglect;
(2) newly discovered evidence that, with
reasonable diligence, could not have been
discovered in time to move for a new trial under
Rule 59(b);
(3) fraud (whether previously called intrinsic or
extrinsic), misrepresentation, or misconduct by
an opposing party;
(4) the judgment is void;
(5) the judgment has been satisfied, released, or
discharged; it is based on an earlier judgment
that has been reversed or vacated; or applying
it prospectively is no longer equitable; or
(6) any other reason that justifies relief.

App. 29a
Fed. R. Civ. P. 60 (b). “Rule 60(b) grants federal courts
the power to vacate judgments ‘whenever such action
is appropriate to accomplish justice.’” Bouret–
Echevarria v. Caribbean Aviation Maint. Corp., 784
F.3d 37, 41 (1st Cir.2015) (quoting Local No. 59 v.
Superline Transp. Co., 953 F.2d 17, 19 [1st
Cir.1992])). “Success under that rule requires more
than merely casting doubt on the correctness of the
underlying judgment.” Fisher v. Kadant, Inc., 589
F.3d 505, 512 (1st Cir. 2009) (citing Karak v. Bursaw
Oil Corp., 288 F.3d 15, 19 (1st Cir.2002))). Rather,
“[r]elief under Rule 60(b) is ‘extraordinary in nature’
and is therefore ‘granted sparingly.’” Caisse v. DuBois,
346 F.3d 213, 215 (1st Cir. 2003) (citing Karak, 288
F.3d at 19)). A party seeking relief under Rule 60(b)
must demonstrate “at a bare minimum, that his
motion is timely; that exceptional circumstances exist,
favoring extraordinary relief; that if the judgment is
set aside, he has the right stuff to mount a potentially
meritorious claim or defense; and that no unfair
prejudice will accrue to the opposing parties should
the motion be granted.” Fisher, 589 F.3d at 512.
II. DISCUSSION
A. Insufficiency of the Evidence
“A district court’s power to grant a motion for a
new trial is much broader than its power to grant a
[motion for judgment as a matter of law].” Jennings v.
Jones, 587 F.3d 430, 436 (1st Cir. 2009). “Under Rule
59, ‘[t]rial judges have more leeway to grant new trials
than to set aside verdicts based on insufficiency of the
evidence under Rule 50. They may consider their view
of the credibility of the witnesses in doing so, but must

App. 30a
be careful not to invade the jury’s province.” OliverasZapata v. Univision Puerto Rico, Inc., 939 F. Supp. 2d
82, 84 (D.P.R. 2012), (citing Valentin–Almeyda v.
Municipality of Aguadilla, 447 F.3d 85, 103 (1st
Cir.2006)). Despite this broad authority, the First
Circuit Court of Appeals “[has] often emphasized that
a ‘district judge cannot displace a jury’s verdict merely
because he disagrees with it’ or because ‘a contrary
verdict may have been equally ... supportable.’”
Jennings, 587 F.3d at 436 (citing Ahern v. Scholz, 85
F.3d 774, 780 (1st Cir.1996)).
In their motion, Defendants move for a new trial
claiming the evidence was not sufficient to sustain a
verdict of age discrimination and retaliation. See
Docket No. 164 at page 24. The court disagrees for the
reasons already expressed in the court’s Opinion and
Order (Docket No. 187), incorporated by reference
herein. Contrary to defendants’ assertions, the
evidence on record strongly supported the jury’s
verdict. As such, the court declines to set aside the
jury’s verdict and order a new trial. Defendants’
motion for a new trial on insufficiency of the evidence
grounds is thus DENIED.
B. Prejudicial Errors
In addition to their claim that the evidence was
insufficient to support the verdict, defendants also
argue that the cumulative effect of the errors
committed during trial proceedings mandates a new
trial. The court will discuss each alleged error in turn.
Court’s Interrogation of Adames
During her case in chief, Plaintiff’s counsel
extensively questioned Luz Miriam Adames

App. 31a
(“Adames”), Abbott’s Human Resources Director,
about an email Plaintiff received on March 19, 2014
regarding her performance. The court also asked
Adames some questions about the email. The email in
question was sent by Matt Harris (“Harris”), Abbott’s
General Manager in Puerto Rico and the Caribbean at
the time. In this email, Harris told Plaintiff that she
had failed to meet the minimum expectations of
several key job competencies during the “last three
years,” even though Plaintiff had been a finalist for
promotion just some months before he sent this email.
Because of this discrepancy, the court expressed
confusion after Adames responded to the questions
about the Company’s promotion and performance
evaluation processes. See Docket No. 126 at pages 6972; see also Opinion and Order, Docket No. 187 at
page 24.
In their motion, defendants complain that the
court caused them prejudice by “extensively” asking
Adames questions on the subject, by reiterating
Plaintiff’s counsel’s “loaded” questions and by openly
expressing “confusion” after she finished testifying.
See Docket No. 164 at page 3. As a result, defendants
suggest that the court exceeded its power’s limitations
and claim that the court’s intervention unfairly
disadvantaged them.
In response, Plaintiff argues that defendants
waived or forfeited any challenge to the court’s
questioning of the witness by failing to timely object.
Plaintiff also responded that the court’s attempt to
clarify Adames’ testimony was within “the acceptable
range of judicial behavior.” See Docket No. 170 at
page 4. However, in their reply, defendants clarify
that they did not raise this issue as an independent
ground for a new trial, “but rather to give context to

App. 32a
why counsel’s subsequent improper and unethical
comments during closing arguments about Mr. Harris
having ‘lied,’ and the Court’s lax treatment of the
same, were particularly prejudicial to Defendants’
case.” Docket No. 177 at page 10.
Per the foregoing, the court finds that, not only did
defendants fail to timely object to the court’s conduct
during trial, but also voluntarily abandoned this claim
of prejudice in their reply memo (Docket No. 177). The
court will thus now move on to their argument
regarding the accusations of mendacity against
Harris.
Plaintiff’s Counsel’s Lying Accusations Against
Harris
Defendants argue that attorney for Plaintiff
engaged in prejudicial misconduct during closing
arguments when he accused Harris of lying. See
Docket No. 164 at pages 5-7. Despite timely objecting
to the characterization of Harris’ credibility,
defendants also complain that the court denied their
strong objections and failed to admonish Plaintiff’s
counsel. Defendants stress that these statements
were particularly harmful because attorney for
Plaintiff made them during his rebuttal argument,
after which they did not have an opportunity to reply.
The relevant portion of the rebuttal argument in the
trial transcript reads as follows:
MR. GONZALEZ: ... Ladies and gentlemen of the
jury, since I sat down after completing my opening
statement -- closing argument, one thing hasn’t
changed; they haven’t produced a document,
contemporary document, that proves that what
they were saying is correct. Not one. Not one. I

App. 33a
have four that I want to talk to you about. The first
one is his statement was that Ms. Gonzalez had a
bad performance for two years. Is that what Mr.
Harris says? Why do you have to lie? Why do you
have to lie?
MR. CASELLAS:
Objection.

Objection,

Your

Honor.

THE COURT: Denied.
MR. GONZALEZ: Why do you have to lie when
giving a manual to an employee? Their system,
Abbott’s system, says that if you “Achieve
expectations,” you have nothing to worry about,
and that is not what Mr. Harris is saying there.
Docket No. 152 at pages 105-106.
Additionally, Defendants claim that the curative
instruction the court agreed to give the jury after their
renewed objection1 was “bland” and “amounted to no

Defendants’ renewed objection in the trial transcript reads
as follows:
1

MR. CASELLAS: Whether a witness is lying or telling the
truth, that’s the function of the jury. I submit that it was a
very prejudicial statement for counsel to stand here and tell
that a witness is lying on the stand without any foundation
on the record that the witness has admitted to saying something that’s not correct. That argument by itself is prejudicial, and I request a contemporaneous instruction to the jury
to disregard that statement specifically made by counsel during closing, and to instruct the jury that the credibility of all
the witnesses is for the jury to decide. The Court overruled
my objection. I think there is already a – the jury has been
contaminated by counsel’s statement that this witness lied,
and that’s a material issue for the jury of credibility in this
case, and it would be prejudicial if this jury is allowed

App. 34a
curative instruction at all.” Docket No. 164 at page 10.
The curative instruction the court gave the jury after
defendants reiterated their objection was the
following:
THE COURT: All right. Should we go ahead then
with the instructions?
MR. CASELLAS: Your Honor, will there be a
ruling on my motion for a cautionary
instruction?
THE COURT: Yes, there will be a ruling.
...
(WHEREUPON, the following further proceedings
were had in open court in the presence and hearing
of the jury:)
THE COURT: All right. Now I am going to give you
the instructions, and you will hear from the
instructions that I give you -- and I bring this up
because there was an argument to the effect
that one of the witnesses lied, but as you will
hear from my instructions, the credibility of
the witnesses is up for you to decide. And if
you, in your consideration of the evidence, you
come to a conclusion differently than what was
stated in the closing arguments, it’s your
recollection that prevails, not whatever it was
mentioned by the attorneys. So you will be judging
the credibility of all the witnesses in this case.
Docket No. 152 at pages 110-111 (emphasis added).
Despite the instruction, defendants contend that the
to make a verdict without a cautionary instruction in
that regard.
Docket No. 152 at pages 108-109 (emphasis ours).

App. 35a
prejudice the accusations caused them warrants a
new trial.
In her opposition, Plaintiff points out that
although the court originally denied defendants’
objection, it later did exactly as Plaintiff requested: it
gave a timely and curative instruction to the jury. See
Docket No. at page 34. Plaintiff contends that
defendants are now precluded from raising an
untimely objection because they did not object to the
court’s curative instruction when given and did not
request a mistrial before the jury was discharged. See
Docket No. 170 at pages 22-23, 34.
The court will address the merits of parties’
arguments in turn.
Firstly, the court notes that in support of their
request for a new trial, defendants rely heavily on the
First Circuit Court of Appeals’ holding in Polansky v.
CNA Ins. Co., 852 F.2d 626, 627 (1st Cir. 1988),2 where
In Polansky, both the Trustee (Glenn Polansky) for a trust
that owned an apartment building and the Trust itself (Londonderry Estates Realty Trust) filed breach of contract suit against
the insurer (CNA Insurance Company) that had insured against
damage to the building. The insurer had refused to reimburse
Trustee for the damages the building sustained in a fire on New
Year’s Day of 1983, in which five people died. The contract also
insured Polansky against liability to third parties for personal
injuries. CNA refused to reimburse Polansky, claiming that the
policy was void because Polansky had set the fire deliberately,
had filed a fraudulent claim of damages, and had impeded CNA’s
investigation of the conflagration through deception. CNA believed that Polansky had set the fire to collect the insurance proceeds and then rehabilitate the apartments. The jury found in
favor of plaintiffs and CNA appealed. The First Circuit held that
defendant CNA was entitled to a new trial due to the errors
caused by the misconduct of plaintiff’s counsel at trial. See Polansky v. CNA Ins. Co., 852 F.2d 626 (1st Cir. 1988).
2

App. 36a
the Court found that the errors caused by the
misconduct of plaintiff’s counsel at trial warranted a
new trial. In Polansky, the Court cited six instances in
which plaintiff’s counsel, throughout his closing
argument, “was unable to keep his opinions and
personal beliefs to himself.” Id. at 627. Despite
opposing counsel’s four objections, “the court stated
simply that it would inform the jury that argument of
counsel is not evidence ....” Id. at 628. The Court stated
that “[c]ourts have long recognized that statements of
counsel’s opinions or personal beliefs have no place in
a closing argument of a criminal or civil trial.” Id. As
a result, it found that counsel’s statements violated
various applicable rules of professional conduct and
that the trial court erred “by not dealing promptly
with counsel’s remarks, upon timely objection by
opposing counsel, and informing offending counsel
that his expression of personal beliefs and opinions
would not be tolerated by the court.” Id. But the First
Circuit’s finding of error is limited to the
circumstances in Polansky, where the lower court had
simply given a blanket instruction that was not
directed at the offending counsel. To that effect, the
First Circuit specified that “[a]lone, a blanket
instruction from the court that argument of counsel is
not evidence will not rectify a violation of this rule.”
Id. The Court added that “[w]e will be particularly
reluctant to condone such behavior of counsel when,
as here, there has been timely objection, no
provocation by the opposition, and no ‘timely curative
instruction directed particularly to [counsel’s]
comments.’” Id. (citing United States v. Young, 470
U.S. 1, 8 (1985)).
In contrast, the court here reconsidered its original
denial of defendants’ objection and granted their

App. 37a
request for a curative instruction. The same was given
immediately following the sidebar at the end of
rebuttal. As can be gleaned from the trial transcript,
in so doing, the court made specific reference to
plaintiff’s counsel’s comment that one of the witnesses
had lied. These important factual differences render
Polansky inapposite to the situation at hand,
particularly because the instruction given here was
both curative and timely.
Alternatively, the court must point out that
defendants did not object to the cautionary instruction
after it was given. The record shows that after closing
arguments, their specific request to the court was
granted as requested. After the court addressed the
matter with the jury, defendants did not complain
that the charged instruction was “bland” or not
forceful enough until the filing of their post-judgment
motions. They waited to complain about the
insufficiency of the cautionary instruction after the
verdict was rendered and they lost the case. Their
silence, however, rendered them at a huge selfinduced disadvantage in light of the applicable rules3
and caselaw.
To that effect, the First Circuit has held that
“silence after instructions ordinarily constitutes a
“Under the procedure outlined in Rule 51, before the trial
court charges the jury it must inform the parties of its proposed
instructions and receive any objections.... An objection made at
that time ‘preserves the underlying issue for appeal.’” Booker v.
Massachusetts Dep’t of Pub. Health, 612 F.3d 34, 40–41 (1st Cir.
2010) (citing Fed.R.Civ.P. 51(b); Surprenant v. Rivas, 424 F.3d 5,
15 (1st Cir.2005)). “The requirements of Rule 51 ‘are not to be
taken lightly’ and ‘there is a high price to be paid for noncompliance.’” Booker, 612 F.3d at 41 (citing DeCaro v. Hasbro, Inc., 580
F.3d 55, 60 (1st Cir.2009)).
3

App. 38a
forfeiture of any objections ....” See Muniz v. Rovira,
373 F.3d 1, 6-7 (1st Cir. 2004) (citing Putnam Res. v.
Pateman, 958 F.2d 448, 456 (1st Cir.1992)). In Muniz
v. Rovira, the defendant argued on appeal “that the
district court erred in failing to give a stronger
instruction concerning the jury’s obligation to render
a verdict solely on the basis of the evidence and
uncontaminated by undue passion, prejudice, or
sympathy.” 373 F.3d at 6. The defendant, however,
had not requested such an instruction at the charge
conference or objected to the charge as given. As a
result, the Court held that defendant procedurally
defaulted on his claim. Id. (citing Fed.R.Civ.P. 51;
Moore v. Murphy, 47 F.3d 8, 11 (1st Cir.1995) (holding
that a “failure to object to [jury] instructions at the
time, and in the manner, designated by Rule 51 is
treated as a procedural default”)).
Here, defendants requested a cautionary
instruction at sidebar. “The ‘purpose of a sidebar
objection is to inform the judge exactly what he got
wrong and what he should do to remedy the incipient
harm.’” Booker v. Massachusetts Dep’t of Pub. Health,
612 F.3d 34, 42 (1st Cir. 2010) (holding that employee
forfeited objection that jury instruction misstated
legal standard applicable to her retaliation claim by
not objecting after hearing the final instruction given
to jury) (citing DeCaro v. Hasbro, Inc., 580 F.3d 55, 61
(1st Cir.2009)). The instruction that defendants
requested and that addressed their concern was
indeed given without objection to the charge. “By
failing to object to the ... instruction ... after the
charge, [defendants] failed to inform the court that
[they] believed the instruction was still problematic,
specify the grounds for [their] objection, or give the
court an opportunity to correct any error.” Booker, 612

App. 39a
F.3d at 42. Pursuant to the foregoing, the court finds
that the defendants forfeited their objection to this
remedial jury instruction.
Notwithstanding, “Rule 51 sets forth a procedure
for parties to request jury instructions and to object to
jury instructions as given.” Long v. Abbott, No. 2:15CV-00291-JAW, 2017 WL 2787605, at *3 (D. Me. June
27, 2017) (citing Fed. R. Civ. P. 51(d)(2) (“A court may
consider a plain error in the instructions that has not
been preserved as required by Rule 51(d)(1) if the
error affects substantial rights.”)); see also United
States v. Brandao, 448 F.Supp.2d 311 (D.Mass.2006)
(it is appropriate for district courts to apply plain error
review to post-trial objections concerning jury
instructions because of district courts’ appellate role
in these circumstances) aff’d, 539 F.3d 44 (1st Cir.
2008). “Under plain error review, we will consider a
forfeited objection only if: (1) an error was committed;
(2) the error was ‘plain’ (i.e. obvious and clear under
current law); (3) the error was prejudicial (i.e. affected
substantial rights); and (4) review is needed to
prevent a miscarriage of justice.” Aguayo v.
Rodriguez, No. 14-1059 (MEL), 2016 WL 3522259,
at *3 (D.P.R. June 21, 2016), aff’d sub nom. MejiasAguayo v. Doreste-Rodriguez, 863 F.3d 50 (1st Cir.
2017). “The requirement that the error is likely to
alter the outcome is particularly important in this
context because ‘[a]n erroneous jury instruction
necessitates a new trial only if the error could have
affected the result of the jury’s deliberations.’ ” ColonMillin v. Sears Roebuck De Puerto Rico, Inc., 455 F.3d
30, 41 (1st Cir. 2006) (citing Allen v. Chance Mfg. Co.,
873 F.2d 465, 469 (1st Cir.1989)). “The standard is
high, and ‘it is rare indeed for a panel to find plain
error in a civil case.’” Long, 2017 WL 2787605, at *3

App. 40a
(citing Diaz-Fonseca v. Puerto Rico, 451 F.3d 13, 36
(1st Cir. 2006)).
After careful review of the trial record, the court
finds no indication that the accusation lodged against
Harris in rebuttal arguments influenced the final
outcome of the trial. If defendants really believe that
the jury found in favor of Plaintiff simply because
opposing counsel said this witness was lying,
defendants sorely disregard the weight of the evidence
as a whole. See Opinion and Order, Docket No. 187.
The court’s findings in its Opinion and Order denying
defendants’ motion for judgment as a matter of law
overwhelmingly demonstrate that even if plaintiff’s
attorney engaged in misconduct, it could not have
affected the jury’s verdict. Hence, no prejudice ensued
from Plaintiff’s attorney’s comments.
Pursuant to the foregoing, defendants’ request for
a new trial based on the prejudice caused by the
accusations against Harris’ credibility and the
purported insufficiency of this court’s curative jury
instruction is DENIED.
Other Claims
Objected)

of

Improper

Comments

(Not

The same holding goes for defendants’ other claims
of improper conduct on the part of Plaintiff’s attorney.
These instances are itemized in footnote 2 of
defendants’ motion for new trial. See Docket 164 at
page 7 n. 2. Therein, defendants list some remarks
made during opening and closing arguments, which
they now claim constituted misconduct and were
unduly prejudicial. Their explanation for not objecting
during trial is simply that it “would have been filled
with constant interruptions had Defendants objected

App. 41a
to each and every one” of these instances. See Docket
No. 164 at page 7 n. 2. Thus, the claims of error are
admittedly unpreserved.
“Failure to timely object to an attorney’s
misconduct will frequently result in the denial of a
motion for new trial, but such denials typically occur
in cases where a party did not raise the objection at all
until after the jury had returned a verdict.” Fonten
Corp. v. Ocean Spray Cranberries, Inc., 469 F.3d 18,
21 (1st Cir. 2006).
In general, the law ministers to the vigilant, not
to those who sleep upon perceptible rights.
Consequently, a litigant who deems himself
aggrieved by what he considers to be an
improper occurrence in the course of trial or an
erroneous ruling by the trial judge ordinarily
must object then and there, or forfeit any right
to complain at a later time. The policy reasons
behind the raise-or-waive rule are rock solid:
calling a looming error to the trial court’s
attention affords an opportunity to correct the
problem before irreparable harm occurs. Then,
too,
the
raise-or-waive
rule
prevents
sandbagging; for instance, it precludes a party
from making a tactical decision to refrain from
objecting, and subsequently, should the case
turn sour, assigning error (or, even worse,
planting an error and nurturing the seed as
insurance against an infelicitous result).
United States v. Taylor, 54 F.3d 967, 972 (1st Cir.
1995).
This court is reluctant to view defendants’
argument as anything more than an unfounded, post
hoc attempt to dodge responsibility for their strategic

App. 42a
decision to avoid “constant interruptions” during trial.
“In any event, [defendants] did not lodge a
contemporaneous objection to [plaintiff’s] closing, and
the allowance of the statements certainly did not rise
to the level of plain error.” Baker v. Goldman, Sachs
& Co., 771 F.3d 37, 58 n. 16 (1st Cir. 2014) (citing
Portugues–Santana v. Rekomdiv Int’l Inc., 725 F.3d
17, 26 (1st Cir.2013) (where party fails to object to
statements made in closing, claim of improper
argument reviewed for plain error)). As a result, the
court DENIES defendants’ claims of prejudicial
attorney misconduct for statements they failed to
object to.
Plaintiff’s Cruise Trip
Defendants raised another claim of attorney
misconduct on account of a statement Plaintiff’s
counsel made during his rebuttal argument regarding
a cruise ship Plaintiff took during her second medical
leave after reporting to the State Insurance Fund
(SIF). See Docket No. 164 at pages 8-9. But again,
defendants fail to show prejudice.
One of Plaintiff’s claims in this case was related to
a letter Abbott sent Plaintiff on April 1, 2013, after she
reported to the SIF for a second time. In the letter, the
Company informed her that if she did not report to
work by April 8th, Abbott would terminate her
employment. During Plaintiff’s cross-examination,
she admitted that she went on a one-week trip on a
cruise ship during her medical leave in March of 2013.
See Docket No. 130 at pages 127-128. Subsequently at
trial, defendants’ attorney made reference to this trip
during his closing argument:

App. 43a
And do you remember what the plaintiff was
doing while on medical leave? She took a oneweek cruise while on medical leave. She was
enjoying a one-week cruise. Is it wrong that the
employer is going to try to reach out to her;
Report to work, Come back to work? You have
been out for the State Insurance Fund already.
This is the second time.
Docket No. 152 at pages 94-95. While addressing the
jurors, defendants’ counsel later questioned: “I ask
you this: Is a person who celebrates every year at
Abbott’s Christmas parties and took a one-week cruise
while on medical leave worthy of any compensation for
emotional distress?” Docket No. 152 at page 104.
Plaintiff’s counsel responded to these statements in
his rebuttal, which prompted defendants’ attorney to
object:
MR. GONZALEZ: ... The case is not based on
stories. The case is not based on interpretations.
What if the psychiatrist at the State Insurance
Fund told her to go on a cruise to relax?
MR. CASELLAS: Objection; there is no foundation
for that on the record.
THE COURT: Yes, there is testimony on the
record; her testimony.
MR. GONZALEZ: So again -- and I am not taking
any more time. Whatever your decision, do it on
the evidence. Thank you very much.
Docket No. 152 at page 108.
Outside the presence of the jury, while discussing
the issue of the accusations laid against Harris, the
court also addressed Plaintiff’s counsel’s statements
regarding the cruise ship trip. To this, defendants’

App. 44a
attorney responded: “I didn’t raise a point about that
right now. I am more concerned about what counsel
said about the credibility of our witness [Harris].”
Docket No. 152 at page 110. After this discussion with
counsel, the court reminded the jury that it was their
recollection of the evidence that ultimately prevailed.4
See Docket No. 152 at pages 111, 115.
In their post-judgment motion, defendants
complain that both opposing counsel’s and the court’s
misstatements regarding the cruise trip were unfairly
prejudicial because they were not based on the
evidence presented. According to defendants, “[t]he
The court notes that prior to closing arguments it had already instructed the jury that:
4

The closing arguments are not evidence in the case. Each attorney will argue to you the way that they think the evidence
-- what the evidence shows, and the inferences that you may
draw from facts which have been proven. But if the attorneys
say something is a fact that you think or you remember that
is differently, it’s your recollection that counts, not the attorneys -- not what the attorneys tell you what they think.
Docket No. 152 at page 68. Thereafter, the court specified:
Certain things are not evidence. The arguments and the
statements of the lawyers are not evidence. The lawyers
are not witnesses. What they say in their opening statements and in their closing arguments and at other
times is intended to help you interpret the evidence,
but it is not evidence. If the facts as you remember them
from the evidence differ from the way the lawyers have
stated them to you, your memory is the one that controls. The
questions and the objections of the lawyers are not evidence.
The lawyers have a duty to their client to object when they
believe a question is improper under the rules of evidence,
and you should not be influenced by the objections or
by my rulings on the objections.
Docket No. 152 at page 115.

App. 45a
jury had an undisputed factual basis from which to
infer that the cruise was a joy ride taken by a plaintiff
abusing her medical leave privileges, that is, until
Plaintiff’s counsel purported to debunk the inference
with inadmissible evidence.” Docket No. 164 at page
8. Defendants now argue that despite the court’s
previous ruling that statements from Plaintiff’s
physicians were hearsay,5 the court mistakenly
confirmed Plaintiff’s lawyer’s mischaracterization of
the evidence in the presence of the jury. Defendants
contend that Plaintiff’s counsel’s misstatement of the
evidence should have instead been stricken from the
record after their timely objection.
In her opposition, Plaintiff concedes that the record
contains no evidence that Gonzalez’s physician
recommended that she take a cruise ship in order to
relax. See Docket No. 170 at page 36. However,
Plaintiff disagrees with Abbott’s argument that this
misstatement was so harmful as to warrant a new
trial. See Docket No. 170 at page 36. According to
5

The hearsay ruling was as follows

BY MR. GONZALEZ:
Q. Tell us what happened at the State Insurance Fund in
terms of the treatment that you were supposed to receive....
In 2013. In March of 2013.
A. The doctor suggested -MR. CASELLAS: Objection, Your Honor; Rule 701(a) would
not permit this lay witness to give a statement about a diagnosis, if any, by a physician or any other health professional.
Also, the statement about what the State Insurance Fund
doctor may have told her is inadmissible hearsay.
THE COURT: That’s correct, but she can testify as to what
she felt.
Docket No. 130 at pages 7-8.

App. 46a
Plaintiff, the impact of an isolated reference to
evidence not in the record is de minimis when
compared to “the waves of evidence” in support of the
verdict. See Docket No. 170 at page 14 n. 38.
The court agrees with Plaintiff: counsel’s brief
reference to a fact of such little significance is not the
type of trial error that amounts to a miscarriage of
justice. “The trial court may order a new trial if ‘the
verdict is against the clear weight of the evidence, is
based upon evidence that is false, or resulted from
some trial error and amounts to a clear miscarriage of
justice.’” CardiAQ Valve Techs., Inc. v. Neovasc Inc.,
No. 14-CV-12405-ADB, 2016 WL 6465411, at *10 (D.
Mass. Oct. 31, 2016) (citing Payton v. Abbott Labs, 780
F.2d 147, 152 (1st Cir. 1985), aff’d, 708 F. App’x 654
(Fed. Cir. 2017)). Here, neither the misstatement of
the evidence or the denial of the objection thereto
changed the trial’s outcome or amounted to a
miscarriage of justice given the weight of the evidence
in Plaintiff’s favor. Although there was no evidentiary
basis on record for Plaintiff’s counsel’s suggestion and
for this court’s subsequent assertion, the undersigned
concludes, nonetheless, that this misstatement, “in
the context of the substantial circumstantial evidence
supporting the jury’s verdict, did not prejudice
[defendants] ....” United States v. Hughes, 211 F.3d
676, 687 (1st Cir. 2000) (citing United States v.
Rodriguez–Cardona, 924 F.2d 1148, 1153–54 (1st
Cir.1991) (no plain error where improper remarks in
government’s closing statement did not affect the
outcome of the trial given the strength of the
government’s case against the defendant)).
The argument that had it not been for this
misstatement, the jury would have believed that
Plaintiff abused her medical leave by going on a “joy

App. 47a
ride” and found in defendants’ favor is not only
farfetched, but also wishful thinking. As the court sees
it, there is not a snowball’s chance in hell that, absent
the purported misstatement, the jury would have
found in favor of defendants. On the contrary, “the
record reveals that the jury’s verdict could hardly have
been the result of passion inspired by the brief
remarks of the [plaintiff’s counsel] but rather was
based upon lengthy testimony [and] vigorous
argument ....” United States v. Maccini, 721 F.2d 840,
847 (1st Cir. 1983) (citing United States v. Capone,
683 F.2d 582, 587 (1st Cir. 1982)).
At any rate, under the circumstances of this case,
the jury instructions given were sufficient to correct
the effect of both Plaintiff’s counsel’s unfounded
suggestion during his rebuttal and this court’s denial
of defendants’ objection. See United States v.
MacDonald & Watson Waste Oil Co., 933 F.2d 35, 60
n. 31 (1st Cir. 1991) (finding that government’s
counsel “marginal” misstatements of facts during
closing argument were harmless error, especially
given the court’s instructions that statements by the
lawyers are not evidence); United States v. Maccini,
721 F.2d 840, 847 (1st Cir. 1983) (“Additionally, the
impact of the prosecutor’s misstatements was
lessened, if not completely obliterated, by the trial
judge’s strong and pointed, curative instructions.”). As
set forth supra, the court instructed the jury on three
separate occasions that their recollection of the
evidence prevailed over attorneys’ arguments or
statements. Additionally, the court apprised them
that they should not be influenced by the court’s
rulings on objections. Hence, any error in admitting
the statement about her cruise ship’s medical
justification does not rise to the level of plain error.

App. 48a
See United States v. Fernandez, 94 F.3d 640 (1st Cir.
1996) (finding that prosecutor’s misstatements of
evidence did not rise to level of plain error given
misstatement’s brevity and isolation and judge’s later
instruction to the jurors that counsel’s argument did
not constitute evidence, but that their recollection of
the facts controlled); United States v. Flaherty, 668
F.2d 566 (1st Cir. 1981) (arguing evidence not
presented is harmless error if the judge, on objection,
instructs the jury that closing arguments are not
evidence and that the jury’s recollections control, and
if the absent evidence does not weigh heavily on the
other evidence).
Pursuant to the foregoing, the court DENIES
defendants’ request for a new trial on account of the
misstatement regarding the cruise ship the Plaintiff
took during her medical leave.
Elimination
Instruction

of

Statute

of

Limitations

Jury

Another issue related to the jury instructions is the
subject of a claim of error. In essence, defendants
complain that the court mistakenly eliminated a jury
instruction that specified that any adverse
employment action that took place before January 1,
2013 was time-barred by the applicable statute of
limitations (SOL). According to defendants, the ruling
was inconsistent with the court’s Order finding that
Plaintiff had waived pre-January 1, 2013 claims, as
well as with the discussions held during the charge
conference. Defendants argue that the court’s “refusal
to charge the jury with the SOL instruction was an
error of law and a manifest abuse of discretion because
it impermissibly allowed the jury to impose liability
and award compensation for time-barred and

App. 49a
allegedly adverse employment actions or claims preJanuary 1, 2013.” Docket No. 164 at pages 14-15.
Plaintiff opposes this argument on two grounds: that
defendants’ claim is unsubstantiated and that
pursuant to the totality of the record, it was clear to
the jury that the Plaintiff was only seeking
compensation for her demotion in March of 2013 and
for the retaliation that took place thereafter. See
Docket No. 170 at page 27. The court agrees with
Plaintiff.
As to the applicable standard of review in these
situations, the First Circuit has held that “the judge
is not obligated to instruct on every particular that
conceivably might be of interest to the jury ....” RosaRivera v. Dorado Health, Inc., 787 F.3d 614, 620 (1st
Cir. 2015). Rather, “[a] trial court is obliged to inform
the jury about the applicable law, but, within wide
limits, the method and manner in which the judge
carries out this obligation is left to his or her
discretion.” Elliott v. S.D. Warren Co., 134 F.3d 1, 6
(1st Cir. 1998). “Consequently, though both sides have
a perfect right—indeed, a duty—to advise the judge
what type of instructions they believe are fitting,
neither is entitled to dictate the turn of phrase the
judge should use to acquaint lay jurors with the
applicable law.” Elliott, 134 F.3d at 6 (1st Cir. 1998)
(citing United States v. McGill, 953 F.2d 10, 12 (1st
Cir.1992) (warning that no litigant has a license “to
put words in the judge’s mouth”)).
Now, “the real test is whether as a whole ‘the
instructions adequately illuminate the law applicable
to the controlling issues in the case without unduly
complicating matters or misleading the jury.’” RosaRivera, 787 F.3d at 620 (citing United States v.
DeStefano, 59 F.3d 1, 3 (1st Cir.1995)). “A refusal to

App. 50a
give a particular instruction constitutes reversible
error only if the requested instruction was (1) correct
as a matter of substantive law, (2) not substantially
incorporated into the charge as rendered, and (3)
integral to an important point in the case.” Estate of
Keatinge v. Biddle, 316 F.3d 7, 17 (1st Cir. 2002)
(citing Elliott, 134 F.3d at 6).
Here, after defendants objected to the court’s
refusal to charge the SOL instruction, the court
explained that it did not read it because it deemed it
would confuse the jury. See Docket No. 152 at page
134. In this court’s discretion, the proffered
instructions conveyed the thrust of the applicable law
and the record was already clear as to the which were
Plaintiff’s actionable claims. As explained below, the
totality of the trial record gives context to the court’s
stance.
First of all, both the attorneys’ statements and the
jury instructions established that Plaintiff’s demotion
in March of 2013 was the only basis for the age
discrimination claim. To begin, Plaintiff’s attorney
stated during opening statements that “[i]n
[Plaintiff’s] complaint, Mrs. Gonzalez alleges that
those defendants unlawfully discriminated against
her due to her age when they demoted her ....” Docket
No. 154 at page 4 (emphasis added). Regarding the
demotion, defendants’ attorney stated as follows
during closing arguments: “[f]urther, there’s no
evidence of any retaliation. The change to Grade Level
15 became effective in March of 2013,”6 to which
Plaintiff’s counsel objected: “[o]bjection, Your Honor;
that is not Plaintiff’s theory. There is no retaliation
6

Docket No. 152 at page 93.

App. 51a
with the demotion. Exclusively age discrimination,
Your Honor.”7
The jury instructions also shed light on the age
discrimination issue. The instruction on age
discrimination stated that once the Plaintiff has
established her prima facie case, which included
proving “that she was the subject of adverse
employment actions by the defendants, for example,
demotion..., she is entitled to a rebuttable
presumption of age-based discrimination; in other
words, that the adverse job action, that is, demotion,
was caused by her age.” Docket No. 152 at page 119
(emphasis added); Jury Instructions, Docket No. 132
at page 12. The retaliation instruction, which made
reference to the age discrimination claim, stated that
“even if you do not find that the defendants
discriminated against Ms. Gonzalez on account of her
age on her demotion claim, you may still find that
the defendants retaliated against her for engaging in
protected conduct.” Docket No. 152 at page 120;
Docket No. 132 at page 13 (emphasis added). Finally,
the Law No. 100 instruction stated, in relevant part,
that:
In order to trigger the presumption that her
demotion was discriminatory, Ms. Gonzalez
has to establish, first, that she was discriminated, that is, demoted, or that the
defendants failed to select her for the positions
to which she applied; second, that the demotion
was without just cause; and third, introduce
evidence of the mode of discrimination, in this
case age, connected to the demotion.
7

Docket No. 152 at page 92-93.

App. 52a
See Docket 152 at pages 123-124; Docket 132 at page
18 (emphasis added). It cannot be questioned then,
that the only actionable age discrimination claim (the
demotion) was substantially incorporated and
specified in the charge to the jury.
As to the claims of retaliation, the record was also
unequivocal from the very beginning of the jury trial
as to when these actionable instances took place.
Throughout the trial, parties’ attorneys made clear to
the jury that the retaliation claims were limited to the
adverse employment actions that took place after
Plaintiff’s demotion in March of 2013.
The first instance of protected conduct took place
when Gonzalez reported to the SIF in March of 2013.
Plaintiff’s closing argument specified that her claim of
retaliation for reporting to the SIF in March of 2013
stemmed from the letter she received in April of 2013
threatening her with termination. See Docket No. 152
at pages 76-77, 85. During defendants’ turn, their
attorney also clarified that: “Plaintiff is now claiming
that her reporting to the State Insurance Fund in
March of 2013 was retaliation.” Docket No. 152 at
page 94.
Thereafter, Plaintiff engaged in protected conduct
when her attorneys sent letters to defendants and
when she filed her administrative complaints.
Plaintiff’s attorney explained during closing arguments that Gonzalez had engaged in protected
conduct on two instances: when her attorneys sent
Kim Perez and Matt Harris a letter complaining of age
discrimination and when she filed an administrative
claim before the Department of Labor’s AntiDiscrimination Unit. See Docket No. 152 at page 77.
To that effect, defendants’ attorney stated in his

App. 53a
closing argument that “[c]oncerning retaliation, the
letters threatening litigation by the lawyers were in
October of 2013. There was a charge at the Equal
Employment Opportunity Commission the year later.”
Docket No. 152 at page 94.
Subsequent to these instances of protected
conduct, defendants rejected Plaintiff for promotion in
December of 2013 and 2014, and gave her a negative
performance evaluation during this time frame. To
that effect, Plaintiff’s attorney specified during
opening statements that “Mrs. Gonzalez ... alleges
that she was subsequently retaliated against for
having engaged in protected conduct when she was
rejected for several positions to which she applied
within Abbott and when she was given a negative
work performance evaluation.” Docket No. 154 at
pages 4-5 (emphasis added). The record was thus clear
that the protected conduct took place in 2013 and that
the retaliatory adverse employment actions took place
thereafter, well within the statute of limitations
period. Hence, all acts of retaliation attached to
Plaintiff’s protected conduct were timely. As such, the
lack of the SOL instruction could not have had any
effect on the jury’s appraisal of the retaliation claim.
Pursuant to the foregoing, the court finds that it
did not err by not including the SOL instruction: the
instructions and the record were clear as to the
relevant charges. “Ultimately, a trial judge has wide
latitude in deciding how to best communicate
complicated rules to the jury,” Rosa-Rivera, 787 F.3d
at 620, and the court here did not abuse this
discretion.
In the alternative, “[a] district court’s refusal to
grant a proposed jury instruction only constitutes

App. 54a
reversible error if it was prejudicial when evaluating
the record as a whole.” McDonald v. Town of
Brookline, 863 F.3d 57, 64 (1st Cir. 2017) (citing
McKinnon v. Skil Corp., 638 F.2d 270, 274 (1st Cir.
1981) (“As long as the judge’s instruction properly
apprises the jury of the applicable law, failure to give
the exact instruction requested does not prejudice the
objecting party.”)). Even though defendants contend
that the sizeable award the jury gave Plaintiff
demonstrates that she was compensated for events
that were time barred, their argument is mere
conjecture and lacks support. On the contrary, the
court believes the opposite. The bulk of defendants’
discrimination and retaliation against Plaintiff took
place within the statute of limitations period: (1) the
demotion in March of 2013; (2) the threat of
termination in April of 2013 after reporting to the SIF
a second time; (3) her exclusion from meetings and
withholding of necessary information to perform her
duties during 2013; (4) the rejection for promotion in
December of 2013; (5) the purportedly unwarranted
negative performance review for 2013; (6) the
determination to not interview her for promotion in
January of 2014 after having just been a finalist for
promotion; and, (7) the lack of consideration for
promotion in March of 2014. That is, whatever
happened before January of 2013 is peanuts when
compared to what happened thereafter. In sum,
defendants’ speculative argument affords them no
relief and they have failed to establish prejudice.8
8 See Giorgio v. Duxbury, No. CV 12-11171-LTS, 2016 WL
1229041, at *8 (D. Mass. Mar. 28, 2016) (“Duxbury has ‘pointed
to nothing, other than the amount of the award, that might indicate to us that the verdict was the product of undue passion.’ ...

App. 55a
Finally, within the context of this claim of error,
defendants also explained that they did not object to
the verdict form (to presumably include dates)
because the court had agreed to charge the jury with
the SOL instruction. See Docket No. 164 at page 13.
However, after objecting to the court’s omission to give
out the SOL jury instruction, defendants did not object
to or challenge the content of the verdict form. At the
time of the objection to the elimination of the SOL
instruction, the verdict form had already been
distributed to all parties, reviewed and approved. So,
after objecting, defendants were well aware that
“[n]one of the interrogatories in the Verdict Form had
a time restriction. None was circumscribed to alleged
adverse employment acts that were not time-barred.”9
However, the ‘size of the jury’s award does not prove the verdict
was the product of undue passion.’ ... Accordingly, there is no basis upon which to conclude that the jury’s verdict was the result
of undue passion or unfair prejudice.”); Gutierrez-Rodriguez v.
Cartagena, 882 F.2d 553 (1st Cir. 1989) (finding jury verdict of
$4,500,000 compensatory damages and $600,000 punitive damages against various police officers in civil rights deprivation case
was not influenced by passion and prejudice simply because of
size of award).
The court notes that prior to and during the trial, both parties had the opportunity to submit proposed jury instructions and
proposed verdict forms. Much like the final verdict form approved, defendants’ proposed verdict form (Docket No 120), filed
before the parties’ charge conference, also did not include any
time restriction. At the time of defendants’ docket filing, the court
had yet to agree to charge the jury with the SOL instruction.
Hence, defendants’ argument that they did not object to the final
version of the verdict form because the court had agreed to include the SOL instruction is hardly convincing. The truth of the
matter is that they never sought to include such language in the
first place.
9

App. 56a
Docket No. 164 at page 14. They waited until after the
jury returned an unfavorable verdict to raise this
objection for the very first time in their motion for new
trial. Therefore, the court agrees with Plaintiff10 that
defendants failed to raise a timely objection to the
verdict form. See Azimi v. Jordan’s Meats, Inc., 456
F.3d 228 (1st Cir. 2006) (finding that pursuant to Fed.
R. Civ. P. 51, employee failed to timely raise punitive
damages awards issue where he did not object to jury
instructions or to special verdict form until he filed
motion for new trial).
Notwithstanding, “[f]ailures to object, unless a
true waiver is involved, are [mere forfeitures that are]
almost always subject to review for plain error.” DiazFonseca, 451 F.3d at 35 (citing Chestnut v. City of
Lowell, 305 F.3d 18, 20 (1st Cir.2002)). But even plain
error review would not help defendants when it is
hardly plain that the court erred in choosing not to
charge the jury with an instruction on an issue that
was clear considering the totality of the record and
when no prejudice has been shown. See Quiles v.
Kilson, 346 F. Supp. 2d 376, 379 (D. Mass. 2004), aff’d,
426 F.3d 486 (1st Cir. 2005) (denying plaintiffs’ motion
for a new trial on grounds that verdict form was in
error because it failed to limit scope of claim where
plaintiffs failed to timely object after jury instructions
were delivered and plaintiffs failed to establish that
verdict was in error and resulted in clear miscarriage
of justice).
Based on the foregoing, the court concludes that
the refusal to give the instruction requested by
defendants is not error and no prejudice was caused
10

See Docket No. 170 at page 5 n. 12.

App. 57a
by the omission. Accordingly, the court finds that the
instructions given to the jury in this case were proper.
The defendants’ motion is DENIED on those grounds.
Evidence of Spoliation
Defendants also raise claims of error as to some of
the court’s evidentiary rulings before and during trial.
In their motion, defendants first argue that the court
erred by allowing Plaintiff to introduce evidence to
prove that defendants spoliated her e-mails after a
litigation hold should have been in place at Abbott.
See Docket No. 164 at pages 15-16. According to
defendants, even though the jury was not charged
with an adverse inference instruction, the evidence of
destruction itself amounted to a sanction and was
both inflammatory and unduly prejudicial. See id. In
other words, according to defendants, merely
questioning witnesses about the lost emails and the
legal hold, or lack thereof, was a sanction.
Defendants cite two cases in support of their
position that the discovery sanction was unwarranted.
The first is Booker v. Massachusetts Dept. of Health,
612 F. 3d 34 (1st Cir. 2010). In Booker, the plaintiff
contended that “the court erred in refusing to instruct
the jurors that they could draw an adverse inference
if they found that defendants destroyed documents
relevant to Booker’s claims.” Booker, 612 F.3d at 45.
The plaintiff had submitted a proposed jury instruction on the spoliation of evidence, and during trial,
witnesses were questioned about their deletion of
email correspondence concerning Booker. Notwithstanding, the court refused to give the requested
instruction finding defendants had not engaged in the
“deliberate spoliation of evidence” that merited such

App. 58a
an instruction. Booker objected and appealed, but the
First Circuit affirmed and held that the district court
had not abused its discretion “in finding that she
failed to lay an adequate foundation for a spoliation
instruction.” Id. at 46.
The second case cited by defendants is Virtual
Studios, Inc. v. Stanton Carpet, 2016 WL 5339601
(N.D. Ga. 2016). In Virtual Studios, the district court
found that plaintiff had a duty to preserve
electronically stored information and “failed to take
reasonable steps to preserve the e-mails at issue.” Id.
at *10. The court concluded that sanctions were
warranted because the loss of the e-mails was
prejudicial to defendant insofar as the e-mails at issue
would have been “helpful in evaluating the merits of
the Parties’ positions.” Id. However, the court declined
to impose sanctions under Rule 37(e)(2)11 of the
Rule 37(e)(2) of the Federal Rules of Civil Procedure states
as follows:
11

(e) Failure to Preserve Electronically Stored Information. If
electronically stored information that should have been preserved in the anticipation or conduct of litigation is lost because a party failed to take reasonable steps to preserve it,
and it cannot be restored or replaced through additional discovery, the court:
(1) upon finding prejudice to another party from loss of
the information, may order measures no greater than
necessary to cure the prejudice; or
(2) only upon finding that the party acted with the intent
to deprive another party of the information’s use in the
litigation may:
(A) presume that the lost information was unfavorable to
the party;
(B) instruct the jury that it may or must presume the information was unfavorable to the party; or

App. 59a
Federal Rules of Civil Procedure because defendant
had not shown that plaintiff acted in bad faith or with
the requisite intent. Id. at *11. Instead, the court
found the evidence indicated that the plaintiff was
only negligent or careless, which was insufficient to
allow the court to give an adverse jury instruction
against it. Id. As a result, the court decided to impose
sanctions under Rule 37(e)(1) instead, concluding
“that the appropriate sanction [was] to allow
[defendant] to introduce evidence concerning the loss
of the e-mails and to make an argument to the jury
concerning the effect of the loss of the e-mails.” Id.
Contrary to defendants’ contention, a reading of
these cases actually supports this court’s ruling on the
matter. In its Opinion and Order, this court held that
Abbott had a duty to preserve Plaintiff’s emails and
that she was prejudiced by Abbott’s failure to do so.
See Docket No. 106 at page 38. This failure, whether
for carelessness or bad faith, warranted sanctions.
However, the undersigned was unable to grant the
Plaintiff’s specific request for an adverse inference
instruction to the jury because of the lack of evidence
at the summary judgment stage that Abbott had acted
with the requisite “intent to deprive” under Rule
37(e)(2). Id. Hence, the court decided to allow evidence
to that effect during trial. Specifically, this court held
that “[t]he matter .. be revisited at trial and
determined upon completion of the presentation of
evidence.” Id.

(C) dismiss the action or enter a default judgment.
Fed. R. Civ. P. 37(e)(2).

App. 60a
During trial, Adames testified about the
Company’s legal hold policy and the issue of the lost
emails. Adames admitted that she could not produce
the emails Plaintiff had requested in order to
challenge the negative performance review she
received for 2013. See Docket No. 125 at page 60.
Adames also testified that while she understood that
the litigation hold applied to her own e-mails, she was
not sure how Abbott’s legal department applied the
policy in regard to Gonzalez’s emails. See Docket No.
126 at pages 22-23. Notwithstanding, Adames
believed that Gonzalez could have saved the emails
herself. See Docket No. 126 at page 67.
Plaintiff also testified about the deleted e-mails
during her direct examination. She claimed these
messages detailed her achievements and her efforts to
complete projects. At the time Plaintiff requested
them, defendants had rejected her for promotion to an
available vacancy because she was purportedly not
meeting expectations. According to Plaintiff, however,
these messages would have allowed her to properly
refute the performance rating she received. See
Docket No. 130 at pages 59-60. Attorney for
defendants did not object during this line of
questioning. On the contrary, during cross
examination, defendants’ counsel went into detail
about the failed litigation hold and, in turn, attempted
to place the blame of the lost emails onto Plaintiff by
suggesting that she failed to preserve those emails
herself. Id. at 128-130.
As stated by Plaintiff in her opposition, Gonzalez
“decided not to seek an adverse inference instruction
regarding the spoliation issue.” Docket No. 170 at
pages 37-38 n. 71. Yet defendants still complain.
Despite their failure to object and the testimony they

App. 61a
themselves elicited during Plaintiff’s cross-examination, they now complain that the court erroneously
allowed proof on the destruction of these e-mails.
Worse yet, in support of their argument, defendants
cite a case that precisely supports the undersigned’s
evidentiary ruling: that when a party fails to preserve
evidence when litigation is anticipated, and this
negligence or carelessness causes prejudice to the
other party, the court may allow the prejudiced party
to introduce evidence about this loss and make an
argument to the jury concerning the effect of this loss.
See Virtual Studios, 2016 WL 5339601, at *11. The
court is thus at a loss to understand how the cases
defendants cite support the opposite of what this court
held. Nevertheless, the court will not do their legwork.
“It is not enough merely to mention a possible
argument in the most skeletal way, leaving the court
to do counsel’s work, create the ossature for the
argument, and put flesh on its bones.” United States
v. Zannino, 895 F.2d 1, 17 (1st Cir. 1990). “[A] litigant
has an obligation to spell out its arguments squarely
and distinctly,’ or else forever hold its peace.” Id. The
court finds that defendants failed to meet this burden
with regards to the issue of spoliation. Accordingly,
the defendants’ motion is DENIED on the grounds
that the court erred in allowing evidence of spoliation
to be introduced at trial.
Admission in Evidence of Plaintiff’s Lawyer’s
Letter
Defendants argue that the court erred by allowing
three exhibits to be introduced into evidence, namely:
(1) Plaintiff’s notice of age discrimination charge sent
to Harris and Perez by Plaintiff’s attorney and dated
October 15, 2013 (Plaintiff’s Exhibit 8); (2) an e-mail

App. 62a
dated March 11, 2014, written by Plaintiff and sent to
Harris and Perez complaining of age discrimination
and retaliation (Plaintiff’s Exhibit 20); and, (3) an email dated November 18, 2013, sent by Harris to
Adames with Plaintiff’s letter of November 18, 2013
attached, in which Plaintiff informed Harris that she
knew a vacancy was only announced externally and
stating she felt discriminated and retaliated against
by not having been informed (Plaintiff’s Exhibit 30).
During trial, defendants objected to the admissibility
of these documents because they purportedly
contained
“unsubstantiated
statements
and
conclusions of law made by counsel and plaintiff of
‘discrimination’ concerning the ‘illegality’ of
Defendants’ actions. They were inadmissible hearsay
and improper lay opinions or should have been
excluded as not probative or unfairly prejudicial.”
Docket No. 164 at page 16. Defendants argue that the
court’s error was prejudicial when coupled with the
court’s other errors. Id.
In support of their claim, defendants cited the
rules of evidence, as well as Polansky, 852 F.2d at 629.
In the cited portion of the case, the First Circuit
simply held that Polansky’s attorney’s remarks during
opening and closing statements referring to the
decedents’ families’ claims against the insurer were
“completely irrelevant” to the claims being tried before
the jury because “[t]hese families were not parties to
the suit and this argument was made for clearly
inflammatory purposes.” Polansky, 852 F.2d at 629.
The court is mystified as to how Polansky’s holding
supports defendants’ argument that the documentary
evidence in question should have been deemed
inadmissible. Defendants simply do not explain. And
if defendants attempt to imply that this evidence was

App. 63a
unduly inflammatory, the facts of Polansky are clearly
inapposite, and thus, useless for comparison purposes.
Once again, the court feels the need to stress that
“[t]he court will not do counsel’s work,” GonzalezBermudez v. Abbott Labs. PR Inc., 214 F. Supp. 3d
130, 156 (D.P.R. 2016), and independently find
grounds for their argument or make connections
where there obviously are none.
What is more, contrary to defendants’ argument,
this court has previously deemed that comparable
exhibits are admissible in evidence. One of such cases
is Colon-Fontanez v. Municipality of San Juan, 671 F.
Supp. 2d 300, 312 (D.P.R. 2009), aff’d, 660 F.3d 17 (1st
Cir. 2011), where this court summarily dismissed a
municipal employee’s complaint against the
Municipality of San Juan and others, alleging
defendants discriminated and retaliated against her
on the basis of her disability in violation of the
Americans with Disabilities Act (ADA), as well as
other federal and state statutes. One of the documents
the court considered was a letter that the Municipality
sent to plaintiff, in which it denied her request for
advance sick leave and noted her pattern of
absenteeism. The plaintiff objected to the admissibility of this letter “without citing any authority,
on the basis that the letter constitutes inadmissible
hearsay.” Id. at 312 n. 16 (emphasis added). Instead,
the court agreed with the defendant and held “that the
letter is admissible because it is a business record,
allowed under Federal Rule of Evidence 803(6)
‘Records of Regularly Conducted Activity.’ In addition,
the letter is relevant not for the truth of the matter
asserted, but for its effect on the recipient.” Id.
Another such example is Rodriguez-Garcia v.
Municipality of Caguas, 495 F.3d 1 (1st Cir. 2007),

App. 64a
where the plaintiff, a career municipal employee,
appealed the district court’s dismissal of her claim of
political discrimination and retaliation against the
municipality, its mayor, and its vice mayor. Among
other things, the First Circuit reviewed the district
court’s limited admission into evidence of some letters
exchanged between the plaintiff and defendants. One
of these letters sent by “[plaintiff’s] attorney to the
mayor’s office served the purpose of giving the
defendants notice of a claim.” Id. at 11. A second letter
from plaintiff’s attorney to the mayor reiterated
plaintiff’s request for a transfer, and a third letter
announced his intention to file a lawsuit. See id. at 12.
Upon review of a motion in limine, the district court
had “allowed the Letters into evidence, but only ‘for
the limited purpose of negating defendants’ contention that plaintiff herself requested a transfer.’” Id. at
7. The Court of Appeals reversed the district court’s
determination and stated that “[plaintiff] should have
been permitted to use the Letters as evidence that the
mayor personally had notice of her claims, an
indispensable element of her theory of liability, rather
than simply as evidence that she had not requested a
transfer ....” Id. at 12 (1st Cir. 2007).
The same rulings hold here: the exhibits in
question were properly admitted into evidence as both
business records and proof of defendants’ knowledge
that Plaintiff engaged in protected conduct and
believed she was the victim of illegal discrimination
and retaliation. This knowledge was a crucial element
of Gonzalez’s case. See Torres-Medina v. Dep’t of the
Army, No. CV 15-2085 (BJM), 2018 WL 3155001, at
*3 (D.P.R. June 25, 2018) (“Causality assumes a link
between the decision-maker, the protected activity,
and the adverse action. The link consists of

App. 65a
knowledge. To that end, the retaliating party must be
aware of the protected activity that he is believed to
be retaliating against.”) (citations omitted).
Defendants’ argument is not only without legal
merit, but also accommodating. Curiously, they do not
seek to exclude documents containing language that
would be deemed similarly conclusory under their line
of reasoning, but that instead, supports their theory of
the case. Plaintiff noted this lack of consistency on
defendants’ part, responding that Abbott’s argument
is “bogus” because other exhibits contain “unsubstantiated statements” that would have to be excluded on
the very grounds defendants now raise to challenge
the admission of other exhibits. See Docket No. 170 at
page 9 n. 22. For example, Plaintiff’s Exhibit 21
(Harris’ email response to Plaintiff denying any
discrimination or retaliation against her and
explaining that her poor performance accounted for
lack of promotion) is an example of Harris’ own
conclusory statements as to the absence of discrimination and retaliation against Plaintiff and her lack of
qualifications for promotion. If Plaintiff’s counsel’s
letter and her e-mail complaints could not be admitted
into evidence for fear that a jury would believe the
truth of the matter asserted, then by the same token,
Harris’ email conclusorily stating that Plaintiff was
not discriminated against and was unqualified for
promotion should have also been stricken on the same
grounds. Yet, defendants conveniently disregard the
content of Harris’ e-mail for purposes of their claim of
error. Defendants’ contradictory stance thus prompts
the court to remind their attorneys of a well-known
idiom: “counsel in glass houses ought not throw
stones.” Serra v. Quantum Servicing, Corp., 747 F.3d
37, 40 n. 2 (1st Cir. 2014).

App. 66a
Pursuant to the foregoing, the court DENIES the
defendants’ claim that the court erred by allowing the
admission into evidence of the exhibits listed supra.
Cumulative Effect
Defendants also request that the court order a new
trial based on the cumulative error doctrine. “In
assessing whether reversal is warranted under the
cumulative-error doctrine, this court evaluates
whether
‘[i]ndividual
errors,
insufficient
in
themselves to necessitate a new trial, may in the
aggregate have a more debilitating effect.’” United
States v. Candelario-Santana, 834 F.3d 8, 26 (1st Cir.
2016) (citing United States v. Laureano–Perez, 797
F.3d 45, 79 (1st Cir. 2015)). “Of course, ‘[a]bsent any
particularized error, there can be no cumulative
error.’” Candelario-Santana, 834 F.3d at 26 (citing
Williams v. Drake, 146 F.3d 44, 49 (1st Cir. 1998)).
In the case at hand, there were either no such
errors or they were not deemed prejudicial. As such,
the court finds the cumulative error argument to be
meritless. See Granfield v. CSX Transp., Inc., 597
F.3d 474, 492 n. 14 (1st Cir. 2010) (declining to order
a new trial based on the cumulative error doctrine
where district court committed no errors).
B. Back Pay Award
Remittitur
The jury awarded Plaintiff $250,000 in back pay.
See Verdict, Docket No. 138 at page 2. In their motion,
defendants argue that the court should vacate the
back pay award because there was no evidentiary
support for this amount. See Docket No. 164 at page

App. 67a
21. Alternatively, defendants contend that the back
pay award is excessive and “must be remitted to no
more than $79,134.57, which is the maximum amount
awardable for back-pay that could be sustained on the
admissible evidence.” Id. Per defendants’ calculation,
this amount is “the differential between her current
salary since March 2013 at the grade level 15 position,
and her salary at the grade level 18(I) position that
ceased to exist in March 2013.” See id. at page 19 n.
11. In other words, the annual differential between
both grades ($26,378.19) multiplied times three (3)
years (2013-2016) yields the suggested amount. Id.
In her response, the Plaintiff “agrees with Abbott
that her back pay amounted to $26,378.19 per year.”
Docket No. 170 at page 38. However, she disagrees
with “the length of time during which the back pay
should be calculated. Gonzalez’s back-pay from March
18, 2013 until October 31, 2016 amounts to 43 ½
months at a monthly rate of $2,198.18 ($26,378.19 ÷
12) for a total of $95,620.83.” Id. at pages 38-39.
Despite Plaintiff’s concession, defendants insist in
their reply that no evidentiary support existed for an
award of back pay. See Docket No. 177 at pages 12-13.
“With respect to economic damages such as
backpay, ‘the jury is free to select the highest figures
for which there is adequate evidentiary support.’”
Oliveras-Zapata, 939 F. Supp. 2d at 85 (citing
Mercado-Berrios v. Cancel-Alegria, 611 F.3d 18, 29
(1st Cir.2010)). Here, Plaintiff testified that after her
demotion from a grade 18 to a grade 15 in March of
2013, she no longer had stock options available,12 her

12

Docket No. 129 at page 14.

App. 68a
base salary was reduced by approximately $10,000,13
her prospective salary increases were frozen because
she was capped in that lower grade,14 the company car
was a lower level car,15 and her incentive bonus
decreased by half or more.16 In addition to Plaintiff’s
testimony, Plaintiff’s Exhibit 29 contains the figures
defendants used to calculate their suggested salary
differential. See id. at page 19 nn. 10 & 11. In light of
the foregoing, the court finds that there was sufficient
support on the record for the jury to find that a back
pay award was warranted.
Although a back pay award was appropriate, the
court agrees with defendants that the amount of the
award was excessive. “When a movant attacks an
award of damages as excessive, a court may remit the
award only if ‘the award exceeds any rational
appraisal or estimate of the damages that could be
based upon the evidence before it.’” Sindi v. ElMoslimany, 896 F.3d 1, 13 (1st Cir. 2018) (citing
Trainor v. HEI Hosp., LLC, 699 F.3d 19, 29 (1st Cir.
2012)). Thus, the court GRANTS IN PART and
DENIES IN PART defendants’ request that the back
pay award be remitted to an amount supported by the
evidence. The back pay award is hereby reduced to
$95,620.83, which is the monthly differential of
$2,198.18, corresponding to the forty three and a half
(43½) months between her demotion in March of 2013
until entry of judgment in October of 2016.

13

Docket No. 129 at page 22.

14

Docket No. 129 at pages 23-24.

15

Docket No. 130 at pages 71-72.

16

Docket No. 130 at page 72.

App. 69a
No Doubling Under Local Law
The jury in this case made a finding of willfulness.
See Verdict, Docket No. 138 at page 2. “Willfulness is
an issue in ADEA cases because the statute entitles a
prevailing plaintiff to doubled backpay in situations
involving ‘willful violations.’” Sanchez v. Puerto Rico
Oil Co., 37 F.3d 712, 721 (1st Cir. 1994) (citing 29
U.S.C. § 626(b)). Before entering judgment, Plaintiff
moved the court to enter an award of liquidated
damages equal to the back pay award and to double
the back pay award in the compensatory damages
calculation under local law. See Docket No. Docket No.
143. The court granted this request (Docket No. 149)
and entered judgment accordingly (Docket No. 150).
In a separate motion for relief from judgment or to
alter or amend judgment (Docket No. 165), defendants
argue that the court erred by essentially tripling the
back pay award. In her response, Plaintiff simply
made reference to the arguments set forth in her
original request that these damages be tripled when a
finding of willfulness exists. See Docket No. 170 at
page 1 n. 1.
The main ground for defendants’ argument is this
district court’s holding in Pratt v. Premier Salons,
Inc., 181 F. Supp. 3d 158 (D.P.R. 2015), where a jury
found in favor of employees, awarded back pay and
emotional damages, and found that defendants acted
willfully in discriminating against employees on the
basis of their age. Like here, the back pay award was
not exclusively limited to the ADEA claim. See id. at
160 n. 2. After the plaintiffs in Pratt17 moved to amend
17 The court notes that the plaintiffs in Pratt were represented by the same attorneys as Gonzalez. Hence, Plaintiff’s

App. 70a
the judgment, Judge Pedro A. Delgado ruled that the
employees were entitled to twice the amount the jury
had awarded for back pay under the liquidated
damages provision of the ADEA, but not to an
additional doubling of this amount under Puerto
Rico’s Law 100. See id. at 161. The court did not
believe it was “feasible to bypass the Puerto Rico
Supreme Court’s description of Law No. 100,” and its
most recent decisions unequivocally characterizing
the local statute’s doubling mechanism as punitive. Id.
at 160 (citing Ramirez Ferrer v. Conagra Foods PR,
175 P.R. Dec. 799, 816, 826, 2009 WL 1066079 (2009);
Guardiola Alvarez v. Depto. de la Familia, 175 P.R.
Dec 668, 681–682, 2009 WL 806563 (2009); Cruz
Roche v. De Jusus, 182 P.R. Dec. 313, 327, 2011 WL
2611136 (2011); Belk Arce v. Martinez, 146 D.P.R.
215, 240 (1998); Lopez Vicil v. ITT Intermedia, 142
P.R. Dec. 857, 1997 WL 189488 (1997)). Accordingly,
the court imposed punitive liability by awarding back
pay and liquidated damages for the same amount
under the ADEA, but denied the request for an
additional doubling of the base back pay award to
increase that liability under Law No. 100. Pratt, 181
F. Supp. 3d at 161. The court’s objective was precisely
“to prevent the double recovery that plaintiffs
request.” Id. at 160 n. 2.
The undersigned finds the conclusion in Pratt to be
well-reasoned an on-point, and thus, GRANTS
defendants’ request (Docket No. 165). The Plaintiff’s
attorneys are thoroughly familiar with Judge Pedro A. Delgado’s
holding. The court will refrain from discussing whether it believes that Gonzalez’s attorneys purposely misled the court in
their original motion (Docket No. 143) by omitting any reference
to this case. Nevertheless, attorneys are strongly cautioned
against this practice going forward.

App. 71a
award will include back pay and liquidated damages
for the same amount, but the amount of the back pay
award will not be included in the doubled
compensatory damages calculation under the local
statutes.
C. Remittitur of Compensatory Damages
The jury in this case awarded Plaintiff $4,000,000
in compensatory damages ($3,000,000 - Abbott;
$1,000,000 - Kim Perez), before doubling under the
local statutes. See Verdict, Docket No. 138. In their
motion, defendants argue that the jury’s compensatory damages award must be vacated, or alternatively
remitted, because it was excessive and disproportionate to the proven injury. See Docket No. 164 at pages
22-24. Defendants characterize the evidence
regarding the nature of Plaintiff’s suffering and
medical conditions as meager, noting that “Plaintiff
did not offer in evidence any medical records or
medical expenses, nor did she offer medical expert
testimony to buttress her claim of mental anguish.” Id.
at page 22. Defendants also point out that, in contrast,
she admitted she took a one-week cruise during her
medical leave, and attended the Company’s holiday
parties and kick off meetings, where she had a good
time. As a mitigating factor, defendants contend that
although she may have feared for her job, defendants
never terminated her from her employment. Id. at
page 24. In short, defendants contend that Gonzalez’s
testimony regarding her emotional damages was too
general and unspecific, and as such, did not warrant
such a large award. Defendants suggest that the court
remit “the total award to no more than $100,000 total
($90,000 - Abbott; $10,000 - Mrs. Perez), which is the

App. 72a
highest amount of damages for emotional distress for
which there is adequate evidentiary support.” Id. at
page 24 (citing Koster v. Trans World Airlines, Inc.,
181 F.3d 24, 36 (1st Cir. 1999) (affirming remittitur
from $716,000 to $250,000 in age discrimination case
with evidence of anxiety, insomnia, damaged family
life and heartburn, but no evidence that plaintiff ever
sought medical treatment)).
In response, Plaintiff references several cases
where the jury awarded large sums to the employeeplaintiff. See Docket No. 170 at pages 39-42. Plaintiff
argues that the sum is warranted because, among
other things, she was the victim of not one, but six
different adverse employment actions in less than two
years. See Docket No. 170 at page 42. Finally,
Gonzalez restates the emotional injuries suffered
through the years, such as: the lack of job security, the
lack of upward mobility, the negative impact on her
self-esteem, the rejection she has suffered, and the
fear of continuing to work with Kim Perez as General
Manager. Id. at 43. In sum, Gonzalez concludes that
the court should not alter the jury’s award.
As previously set forth, “a district court has
discretion to order a remittitur if such an action is
warranted in light of the evidence adduced at trial.”
Trainor, 699 F.3d at 29. “Remittitur is a practice used
in connection with civil cases tried by jury, whereby
the court may grant the plaintiff an election to remit
a stated portion of the amount awarded as damages,
or submit to a new trial.” Santos Arrieta v. Hosp. Del
Maestro, Inc., No. CV 15-3114 (MEL), 2019 WL
4060466, at *12 (D.P.R. Aug. 28, 2019) (citations
omitted).

App. 73a
In the case at hand, the defendants complain about
the award’s excessiveness, arguing that the sum is not
consonant with the evidence. The First Circuit has
“noted that ‘the obstacles which stand in the path of’
such claims of excessiveness ‘are formidable ones.’ ”
Smith v. Kmart Corp., 177 F.3d 19, 30 (1st Cir. 1999)
(citing Wagenmann v. Adams, 829 F.2d 196, 215 (1st
Cir.1987)). “Translating legal damage into money
damages is a matter peculiarly within a jury’s ken,
especially in cases involving intangible, non-economic
losses ....” Travers v. Flight Servs. & Sys., Inc., 808
F.3d 525, 540 (1st Cir. 2015) (citations and quotation
marks omitted). Hence, the court “will not disturb an
award of damages because it is extremely generous or
because we think the damages are considerably less.”
Muñoz v. Sociedad Española De Auxilio Mutuo y
Beneficiencia De Puerto Rico, 671 F.3d 49, 61 (1st Cir.
2012) (citing Koster, 181 F.3d at 34). “Remittitur is
called for where an award is ‘grossly excessive,
inordinate, shocking to the conscience of the court, or
so high that it would be a denial of justice to permit it
to stand.’” Tuli v. Brigham & Women’s Hosp., 656 F.3d
33, 44 (1st Cir. 2011) (citing Acevedo–Garcia v.
Monroig, 351 F.3d 547, 566 (1st Cir.2003)). “In
reviewing an award of damages, the district court is
obliged to review the evidence in the light most
favorable to the prevailing party ....” Wortley v.
Camplin, 333 F.3d 284, 297 (1st Cir. 2003).
In this case, the evidence supporting the award for
compensatory damages consisted of Gonzalez’s own
testimony. During trial, Gonzalez testified that when
she was informed of her demotion she suddenly felt
her chest tighten and other symptoms of anxiety. See
Docket No. 130 at page 5. She immediately saw the
Company doctor, who referred her to the State

App. 74a
Insurance Fund. Id. at 6. She was placed on rest, but
this period was cut short when she received a letter
from the Company stating that if she did not return to
work shortly, she would lose her job. Id. at pages 8-9.
She reported to the SIF’s doctor and requested to be
sent back to work even though she still “did not feel
well” because she “could not be left without a job.” Id.
at page 9. After Gonzalez returned to Abbott, she
experienced a myriad of work-related discriminatory
and retaliatory incidents that took seven days of trial
to address. A summary of these events can be found in
the court’s Opinion and Order of October 30, 2018
(Docket No. 187), and is hereby incorporated by
reference.
It stemmed from Gonzalez’s testimony that on top
of the anxiety that the news of her demotion caused,
she also endured additional pain and suffering.
Plaintiff spoke about the humiliation she felt when
she was a finalist for promotion along with two
individuals with no experience at Abbott18 and when
Kim Perez wanted her to attend a seminar for
beginners, even though she had been in the Company
for more than thirty years.19 Plaintiff also testified
that she endured a pattern of hostility against her, felt
discriminated against, and feared losing her job.20
Gonzalez also admitted at trial that she was still in
treatment with her psychiatrist.21 Although she did
not present any medical testimony to bolster her claim
of emotional damages, it has long been held that “such
testimony although helpful is not required to show
18

Docket No. 130 at page 50.

19

Docket No. 130 at pages 120-121.

20

Docket No. 130 at pages 72-73.

21

Docket No. 130 at page 134.

App. 75a
emotional harm ....” Tuli, 656 F.3d at 45 (citing Koster,
181 F.3d at 35).
The question here boils down to whether remittitur
of the jury’s $4 million compensatory damages award
should be granted. Having heard the evidence, the
court finds that the award Plaintiff received was
excessively generous, even when she suffered
emotional damages for some years. The court
recognizes that a “jury’s assessment of the appropriate
damages award is entitled to great deference,”22 but
the trial evidence does not support such a large award,
particularly where Plaintiff did not detail her
symptoms, did not lose her job, and admitted to feeling
more “comfortable” and “at ease” since working under
her new supervisor.23
The court must now determine the appropriate
amount, an exercise in which “[a]wards in comparable
cases are instructive.” Aponte-Rivera v. DHL Sols.
(USA), Inc., 650 F.3d 803, 811 (1st Cir. 2011). In
addition to the cases defendants and plaintiff cited for
guidance, the court independently examined
remittitur issues and damages awards upheld in the
employment discrimination and retaliation context in
our Circuit. See McPadden v. Wal-Mart Stores E.,
L.P., No. 14-CV-475-SM, 2016 WL 4991488, at *3
(D.N.H. Sept. 16, 2016) (finding jury award of
$500,000.00 in compensatory damages for workplace
discrimination claims was generous and substantial
but not grossly disproportionate to plaintiff’s
emotional injuries and mental suffering after being
Guzman v. Boeing Co., 366 F. Supp. 3d 219, 228 (D. Mass.
2019) (citing Monteagudo v. Asociacion de Empleados del Estado
Libre Asociado, 554 F.3d 164, 174 (1st Cir. 2009)).
22

23

Docket No. 130 at page 70.

App. 76a
fired); Oliveras-Zapata, 939 F. Supp. 2d 82 (D.P.R.
2012) (remitting “grossly disproportionate” award of
$1,100,000 in compensatory damages to $500,000,
where former employee filed claims alleging violations
of the ADEA, Title VII, and Puerto Rico law, and
evidence of compensatory damages consisted entirely
of his own often conclusory testimony asserting
emotional distress and economic hardship, but he did
not seek any medical or psychological help); Wirshing
v. Banco Santander de Puerto Rico, 254 F. Supp. 3d
271, 276 (D.P.R. 2015) (finding jury’s $351,018.34
compensatory damages award was commensurate
with noneconomic damages awards that have been
upheld in the employment discrimination context);
Monteagudo v. Asociacion de Empleados del Estado
Libre Asociado de Puerto Rico, 554 F.3d 164 (1st Cir.
2009) (finding that jury’s award of $333,000 in
compensatory damages to employee for her sexual
harassment claims against employer, under Title VII
and Puerto Rico laws, was neither grossly excessive as
would shock conscience of Court of Appeals, nor
exaggeratedly high, precluding remittitur of damages
award, since award was proportionate to harm
suffered by employee and commensurate with noneconomic compensatory damage awards in other Title
VII
and
employment
discrimination
cases);
McDonough v. City of Quincy, 452 F.3d 8, 22 (1st
Cir.2006) (upholding $300,000 award where “bulk of
the award” was for emotional distress in the form of
humiliation, damage to reputation, and strained
family relations); Rodriguez–Torres v. Caribbean
Forms Mfg., Inc., 399 F.3d 52, 64 (1st Cir.2005)
(affirming $250,000 emotional distress award where
plaintiff testified that employment discrimination
caused her marriage to suffer and a depression “for

App. 77a
quite some time” even though testimony was
unsupported by expert medical evidence).
“It goes without saying that ‘converting feelings
such as pain, suffering, and mental anguish into
dollars is not an exact science’....” Guzman v. Boeing
Co., 366 F. Supp. 3d 219, 228 (D. Mass. 2019) (citing
Correa v. Hosp. San Francisco, 69 F.3d 1184, 1198 (1st
Cir. 1995)). But after careful review of the record and
analogous cases, the court GRANTS IN PART the
defendants motion requesting remittitur and hereby
finds that $450,000 ($400,000 against Abbott; $50,000
against Kim Perez)24 is the maximum award that can
be justified based on the facts of this case. The
$450,000 award, if accepted by Plaintiff, is then
doubled to $900,000.00 pursuant to the Puerto Rico
statutes. If Plaintiff refuses to remit, a new trial will
be held on all issues, not only the issue of damages.25
III. CONCLUSION
Pursuant to the foregoing, the court hereby
GRANTS IN PART and DENIES IN PART the
defendants’ “Motion and Memorandum of Law for a
Although defendants submit that the award against Kim
Perez is unsupported by the evidence, see Docket No. 164 at page
24, the court disagrees. Gonzalez’s workplace complaints began
when Kim Perez became her direct supervisor and the court will
not disturb the jury’s finding of liability.
24

A new trial on all issues is warranted because “given the
nature of the claims raised by Plaintiff, her damage claims are so
intertwined with her underlying claims regarding liability that a
retrial on solely damages would result in juror confusion too substantial to overcome with instructions and caveats from the
court.” Nieves v. Municipality of Aguadilla, No. 3:13-CV-01132
JAF, 2015 WL 3932461, at *11 (D.P.R. June 26, 2015).
25

App. 78a
New Trial” (Docket No. 164) and GRANTS the
defendants’ “Motion for Relief from a Judgment or
Order under Rule 60 and/or Motion to Alter or Amend
Judgment under Rules 59(e)” (Docket No. 165). The
court remitted the back pay award to $$95,620.83.
The court also remitted the compensatory damages
award against Abbott to $400,000 and against Kim
Perez to $50,000, both of which are doubled pursuant
to local law. The total award is as follows:
Back Pay
$95,620.83
Liquidated Damages
$95,620.83
Compensatory Damages (Abbott) $800,000.00
Compensatory Damages (Perez)
$100,000.00
____________________________________________
Total
$1,091,241.66
Plaintiff shall inform the court within 30 days of
entry of this order if she will remit to the amount
ordered above. If Plaintiff refuses to remit, the court
will order a new trial be held.
IT IS SO ORDERED.
In San Juan, Puerto Rico, September 30, 2019.
S/ JUAN M. PÉREZ-GIMÉNEZ
JUAN M. PEREZ-GIMENEZ
SENIOR U.S. DISTRICT JUDGE

App. 79a

APPENDIX D
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF PUERTO RICO
LUZ GONZALEZ-BERMUDEZ,
Plaintiff,

CIVIL NO.
14-1620 (PG)

v.
ABBOTT LABORATORIES
P.R. INC., ET. AL.,
Defendants.
OPINION AND ORDER
Plaintiff Luz Gonzalez-Bermudez (hereinafter
“Plaintiff” or “Gonzalez”) filed this action pursuant to
the Age Discrimination in Employment Act (“ADEA”
or “the Act”), 29 U.S.C. §§ 621-634, against her
employer Abbott Laboratories PR Inc. (“Abbott” or
“the Company”) and her supervisor Kim Perez
(hereinafter
“Perez”).
Plaintiff
also
raised
supplemental state law claims of age discrimination
under Puerto Rico’s antidiscrimination statute, Law
No. 100 of June 30, 1959 (“Law No. 100”), P.R. Laws
Ann. tit. 29, § 146, et seq., as well as claims of
retaliation under Puerto Rico’s anti-retaliation
statute, Law No. 115 of December 20, 1991 (“Law No.

App. 80a
115”), P.R. Laws Ann. tit. 29, § 194a. After denying
defendants’ motion for summary judgment, a jury
trial was held. At the end of Plaintiff’s case in chief,
and again before the case went to the jury, defendants
moved for judgment as a matter of law under Rule
50(a)(1) of the Federal Rules of Civil Procedure. On
both occasions, the court kept the motions under
advisement. After deliberating, the jury found in favor
of Plaintiff and awarded her $4,000,000.00
($3,000,000.00 against Abbott; $1,000,000.00 against
Perez) in compensatory damages and $250,000.00 in
back pay. See Docket No. 138. Pursuant to the
doubling provisions of the applicable statutes, the
court entered judgment in the amount of $8,250,000
in both back-pay and emotional damages, plus
$250,000 in liquidated damages. See Docket No. 150.
Defendants filed several post-judgment motions
seeking various remedies, namely: (1) a renewed
motion for judgment as a matter of law pursuant to
Rule 50(b) of the Federal Rules of Civil Procedure
(Docket No. 163); (2) a motion for new trial or
alternatively for remittitur, under Rules 50(b), 59(a)
and 59(e) (Docket No. 164); (3) a motion for relief from
judgment or order under Rule 60 and/or motion to
alter or amend judgment under Rule 59(e) (Docket No.
165). Below, the court will address the arguments
defendants raised in their motion for judgment as a
matter of law under Rule 50(b). For the reasons that
follow, the court DENIES defendants’ request.
I. STANDARD OF REVIEW
Rule 50(b) – Motion for Judgment as a Matter of Law
Pursuant to Rule 50(a) of the Federal Rules of Civil
Procedure, if a party has been fully heard on an issue
during a jury trial and a reasonable jury would not

App. 81a
have a legally sufficient evidentiary basis to find for
the party on that issue, an opposing party may file a
motion for judgment as a matter of law at any time
before the case is submitted to the jury. Fed. R. Civ. P.
50(a). Rule 50(b) provides that, if the court does not
grant the motion, a party may renew a motion for
judgment as a matter of law “[n]o later than 28 days
after the entry of judgment — or if the motion
addresses a jury issue not decided by a verdict, no
later than 28 days after the jury was discharged.” Fed.
R. Civ. P. 50(b). The movant may file the renewed Rule
50(b) motion and may include an alternative or joint
request for a new trial under Rule 59. “In ruling on the
renewed motion, the court may: (1) allow judgment on
the verdict, if the jury returned a verdict; (2) order a
new trial; or (3) direct the entry of judgment as a
matter of law.” Id. As a procedural matter, the party
renewing a motion for judgement as a matter of law
pursuant to Rule 50(b) “is required to have moved for
judgment as a matter of law at the close of all
evidence.” Ginorio v. Contreras, No. CV 03-2317 (PG),
2008 WL 11424136, at *2 (D.P.R. June 13, 2008), aff’d
sub nom. Guillemard-Ginorio v. Contreras-Gomez,
585 F.3d 508 (1st Cir. 2009) (citing Keisling v. SERJobs for Progress, Inc., 19 F.3d 755, 758 (1st Cir.
1994)). “In addition, this motion must include every
claim upon which the party bases its request for
judgment as a matter of law. Failure to do so is a ‘fatal
omission.’” Ginorio, 2008 WL 11424136 at *2 (citing
Sanchez v. Puerto Rico Oil Company, 37 F.3d 712, 723
(1st Cir. 1994)).1

1 “A party may renew its motion no later than 10 days after
the entry of judgment. ... However, only those grounds specified

App. 82a
In examining a Rule 50 motion, “[o]ur review is
weighted toward preservation of the jury verdict ....”
N. Laminate Sales, Inc. v. Davis, 403 F.3d 14, 26 (1st
Cir. 2005). “[A] jury’s verdict must be upheld unless
the facts and inferences, viewed in the light most
favorable to the verdict, point so strongly and
overwhelmingly in favor of the movant that a
reasonable jury could not have [returned the verdict].”
Astro-Med, Inc. v. Nihon Kohden Am., Inc., 591 F.3d
1, 13 (1st Cir. 2009) (quotation marks omitted) (citing
Borges Colon v. Roman–Abreu, 438 F.3d 1, 14 (1st
Cir.2006)). “[W]e view the facts in the light most
favorable to the verdict, deferring ‘to the jury’s
discernible resolution of disputed factual issues.’”
Ciolino v. Gikas, 861 F.3d 296, 299 (1st Cir. 2017)
(quoting Raiche v. Pietroski, 623 F.3d 30, 35 (1st Cir.
2010)). “[W]hen a party challenges a jury verdict, it is
not our position to evaluate the credibility of witnesses
or the weight of the evidence.” Long v. Fairbank
Reconstruction Corp., 701 F.3d 1, 4 (1st Cir. 2012)
(citing Attrezzi, LLC v. Maytag Corp., 436 F.3d 32, 37
(1st Cir.2006)).
II. DISCUSSION
As follows, the court will discuss each of the
arguments defendants raised in their renewed motion
pursuant to Rule 50(b) in turn.
1. Age Discrimination – Demotion of March
2013
Plaintiff filed age discrimination claims under both
ADEA and Law No. 100. The ADEA makes it unlawful
at the close of all the evidence, and no others, are preserved for
review.” Ginorio, 2008 WL 11424136 at *2 n.3 (citing Correa v.
Hospital San Francisco, 69 F.3d 1184, 1192 (1st Cir. 1995)).

App. 83a
for an employer to “fail or refuse to hire or to discharge
any individual or otherwise discriminate against any
individual with respect to his compensation, terms,
conditions, or privileges of employment, because of
such individual’s age.” Velez v. Thermo King de
Puerto Rico, Inc., 585 F.3d 441, 446 (1st Cir. 2009)
(quoting 29 U.S.C. § 623(a)(1)). A plaintiff must
“establish that age was the ‘but-for’ cause of the
employer’s adverse action.” Gross v. FBL Fin. Servs.,
Inc., 129 S.Ct. 2343, 2351 (2009). “Law 100 bans
employment age discrimination. ... [O]n the merits,
claims under both statutes ‘are coterminous.’”
Morales-Guadalupe v. Oriental Bank & Tr., No. 161535 (GAG), 2018 WL 1116544, at *8 (D.P.R. Feb. 26,
2018) (citing Davila v. Corporacion De Puerto Rico
Para La Difusion Publica, 498 F.3d 9, 18 (1st Cir.
2007)).
Plaintiff’s age discrimination claim stems from a
demotion she suffered in March of 2013. As follows,
the court will summarize some relevant background
information for context.
Gonzalez began to work at Abbott in November of
1984 as a medical sales representative with a
specialty in nutrition in a Level 122 position. See
Docket No. 129 at p. 4. Within fifteen years, she moved
up the ranks to a Level 14 position and eventually
became a Senior Sales Rep. See id. at pp. 5-6. On or
about 2005, she became a Product Manager (Level 15).
See id. at pp. 6-7. She subsequently became a District
Manager, then a Pediatric Unit Manager (Level 17),
and then a National Sales Manager (Level 17-18). See
Exempt and non-exempt positions at Abbott are assigned
levels. Exempt employees’ levels are in numbers. See Docket No.
125 at pp. 4-5.
2

App. 84a
id. at pp. 8-10. As the latter, she supervised twentyeight (28) employees, among them other supervisors
and sales reps. See id. at p. 10. Before 2011, Plaintiff
had always obtained ratings of Achieved Expectations
(“AE”) or Exceeded Expectations (“EE”) in her performance evaluations. See id. at pp. 11-12.
In November of 2010, Abbott underwent a
reorganization (“the Reorganization”), as a result of
which the Company eliminated the positions of three
employees in its Nutrition Division, namely: Plaintiff,
Rocio Oliver (“Oliver”) and Dennis Torres (“Torres”).
See Docket No. 125 at pp. 46-48. At the time of the
Reorganization, Plaintiff was a National Sales
Manager (Level 18) and supervised both Oliver and
Torres. See Docket No. 129 at pp. 9-10, 12. Instead of
terminating their employment, the Company placed
these three employees in lower-level positions.3 See
Docket No. 125 at pp. 47-48. Notwithstanding, these
employees were notified that they would continue to
receive the compensation of the positions they held
prior to the Reorganization for an interim period of
two years. See id. at p. 48.
As a result of the Reorganization, co-defendant
Kim Perez became Plaintiff’s supervisor as of January
10, 2011, see Docket No. 129 at p. 14, and Gonzalez
was named HCP Institutional Marketing Manager,
which was a Level 17 position, see id. at pp. 15-16.
The employees affected by the Reorganization had a duty to
apply to other positions during this two-year period, but none of
them did. See Docket No. 126 at p. 34; Docket No. 155 at p. 3;
Docket No. 129 at p. 19. Gonzalez testified that she did not apply
to any position because the Company did not announce vacancies
in any position that was graded above the one that she was occupying during this time. See id.
3

App. 85a
Towards the end of 2011, Gonzalez filed a workplace
harassment complaint against Kim Perez. Abbott’s
Human Resources department investigated in
accordance with the Company’s policies. See Docket
No. 125 at pp. 9-11. After investigating Plaintiff’s
allegations, the Company determined that Kim Perez
had not engaged in any wrongdoing, with which
Plaintiff disagreed. See Docket No. 130 at pp. 124-125.
On December 8, 2011, Plaintiff left on sick leave until
June 8, 2012. See Docket No. 155 at p. 60.
After the two-year interim period ended in March
of 2013, Gonzalez was informed that going forward,
she would occupy a Product Manager Level 15
position. See Docket No. 125 at p. 58. That is, between
the time of the Reorganization up until March of 2013,
the Company decreased Gonzalez’s positions three
grade levels. Her income was reduced and because she
was placed at the upper end of the Level 15 salary
range, her salary was capped (“frozen”) and despite a
good performance, she was unable to receive any
salary increases or raises. See Docket No. 129 at pp.
22-23.
In their Rule 50(b) motion, defendants first argue
that Plaintiff failed to establish a prima facie case of
age discrimination or that age was the “but-for”
reason for her readjustment to a lower-level position
in March of 2013. In support of their request,
defendants argue the following: (1) that she did not
suffer an adverse employment action because she
voluntarily accepted the demotion to avoid a layoff
when she agreed to the terms of the Reorganization,
Docket No. 163 at p. 4; (2) that she is not similarlysituated to Oliver and Torres because “they were
serving in different jobs with different responsibilities, had different supervisors and were not compa-

App. 86a
rable to Plaintiff in any way,” id. at pp. 5-6; (3) that
Plaintiff “was not meeting Abbott’s legitimate or
sensible business expectations and the requirements
for her performance” while occupying the Level 17
position during the interim period, id. at pp. 5-6; and,
(4) that Plaintiff failed to show that age was the “butfor” reason her position was adjusted downward, id. at
pp. 7-9.
As a threshold matter, Plaintiff argues in her
opposition that applying the McDonnell Douglas4
burden-shifting framework at this stage is futile
because once a case has been tried on the merits, the
analysis should be confined to the ultimate question
of discrimination and retaliation. See Docket No. 170.
In support, Plaintiff cites Sanchez v. Puerto Rico Oil
Co., in which the First Circuit Court of Appeals held
that “when, as now, an employment discrimination
action has been submitted to a jury, the burdenshifting framework has fulfilled its function, and
backtracking serves no useful purpose.” 37 F.3d 712,
720 (1st Cir. 1994).
The court agrees with Plaintiff’s argument. “To
focus on the existence of a prima facie case after a
discrimination case has been fully tried on the merits
is to ‘unnecessarily evade[ ] the ultimate question of
discrimination vel non.’” Id. (citing United States
Postal Serv. Bd. of Govs. v. Aikens, 460 U.S. 711, 713–
14 (1983)). “This is because, at that stage, McDonnell
Douglas has served its purpose, and the evaluation of
a post-trial motion assesses whether the plaintiff met
his overall burden of establishing discrimination.” Aly
4

McDonnell Douglas Corp. v. Green, 411 U.S. 792 (1973).

App. 87a
v. Mohegan Council, Boy Scouts of Am., 711 F.3d 34,
47 (1st Cir. 2013) (citing Sanchez, 37 F.3d at 720). See
also Oliveras-Zapata v. Univision Puerto Rico, Inc.,
939 F.Supp.2d 82, 84 (D.P.R. 2012) (“[Defendant]
spills a great deal of ink in its 102–page motion
arguing that [plaintiff] failed to establish a prima facie
case, which, as the First Circuit has noted, is not the
correct focus at this juncture.”). As a result, the court
will confine its review to the ultimate question of
discrimination.
Plaintiff also opposes defendants’ Rule 50(b)
motion on the grounds that defendants ignored the
applicable standard of review by failing to present the
facts in the light most favorable to the verdict,
focusing exclusively instead on the evidence that
supported their theory of the case, which the jury
clearly rejected. See Docket No. 170 at pp. 20-22. As
set forth supra, the court must “examine the evidence
in the light most favorable to the nonmovant and will
grant the motion only when the evidence points so
strongly and overwhelmingly in favor of the moving
party that no reasonable jury could have returned a
verdict adverse to that party.” Alejandro-Ortiz v.
Puerto Rico Elec. Power Auth. (PREPA), 756 F.3d 23,
26 (1st Cir. 2014) (citations and quotation marks
omitted). After review of defendants’ motion, the court
agrees that what the movants would have the court do
is weigh the evidence in their favor and substitute
defendants’ views for those of the jury without regard
to the significant amount of evidence to the contrary.
Regardless of how defendants framed their arguments, the court will address these in accordance with
the applicable law and standard of review, viewing the
facts in the light most favorable towards the
preservation of the verdict.

App. 88a
First, defendants claim that Gonzalez voluntarily
accepted her demotion to avoid a layoff and that the
terms of the Reorganization were explained to her.
Citing to Plaintiff’s testimony at trial, defendants
point out that she “knew that her salary and fringe
benefits could be lowered in the future corresponding
to the position that would become available” when the
two-year period ended. See Docket 163 at p. 4. In
contrast to what defendants posit, Plaintiff testified
that she understood that once the two-year period
ended, her salary and benefits would be readjusted to
the HCP Marketing Manager position (Level 17) she
was occupying. See Docket No. 129 at pp. 17-19. That
is, she understood that she would only suffer a
downward adjustment of just one level at the end of
the interim period. But such was not the case. Instead,
Human Resources Director Luz Miriam Adames
(“Adames”) and co-defendant Perez informed
Gonzalez that the position she was currently
occupying was being eliminated and that going
forward she would hold the position of Product
Manager, which was a Level 15 position. See id. at pp.
16-17. As a result of these news, Plaintiff testified that
she felt ill and anxious and was referred to the State
Insurance Fund (“SIF”) by the doctor that works at the
Company. See Docket No. 130 at pp. 5-6. From this
testimony, a reasonable jury could have concluded
that Plaintiff did not “accept” the demotion - as
defendants propose in their post-judgment motions –
because the prospect of having the position she was
occupying during the interim period be suddenly
eliminated is not something Gonzalez understood at
the time of the Reorganization. The court thus rejects
this argument in support of their request.

App. 89a
Defendants’ second argument is that Plaintiff was
not “comparable” or “similarly situated” to Torres and
Oliver, the other two employees that were impacted
by the Reorganization. According to defendants, these
two employees were not similarly-situated to Plaintiff
because they were performing other duties for
different supervisors and “were not comparable to
Plaintiff in any way,” Docket No. 163 at p. 5. In
addition, defendants argue that both of these
employees were within the same protected age group
as Plaintiff, thereby diminishing any indication of age
bias. See id.
The record in this case shows that subsequent to
the Reorganization, Oliver was assigned to a Level 14
position, but continued to receive the salary and
benefits of the Level 15 position she previously
occupied. In regard to Torres, the Company assigned
him to a Level 14 position, but he would continue to
receive the salary and benefits of the Level 16 position
he used to hold. See Docket No. 125 at p. 48. At the
end of the two-year term, both of these employees
were assigned to the position they were occupying
during this interim period and their salary and
benefits were adjusted to the Level 14 positions they
were respectively holding. However, as Plaintiff
points out, the positions they were holding as
incumbents were not eliminated and none of them
suffered an additional downward adjustment in
March of 2013. As a result, Plaintiff complains that
these employees were in fact treated differently, and
that age was the basis for this disparate treatment.
See Docket No. 170 at p. 25.
“[I]n order to be probative of discriminatory
animus, a claim of disparate treatment ‘must rest on
proof that the proposed analogue is similarly situated

App. 90a
in material respects.’” Velez, 585 F.3d at 451 (citing
Perkins v. Brigham & Women’s Hosp., 78 F.3d 747,
752 (1st Cir.1996)). “The test is whether a ‘prudent
person, looking objectively at the incidents, would
think them roughly equivalent and the protagonists
similarly situated.’” Perkins, 78 F.3d at 751 (citing
Dartmouth Review v. Dartmouth College, 889 F.2d 13,
19 (1st Cir.1989)). “While an exact correlation is not
necessary, the proponent must demonstrate that the
cases are fair congeners.” Velez, 585 F.3d at 451.
Contrary to defendants’ point of view, a reasonable
jury may have thought that both Oliver and Torres
were “comparable” to Plaintiff in the sense that they
were all “in the same boat” in terms of the
repercussions of the Reorganization on the status of
their employment at Abbott, as well as in regards to
the conditions of the offer that the Company made
them at the time of the Reorganization. Although
their employment situations were not identical,
having different posts and responsibilities, their
respective situations need not be a carbon copy of each
other for purposes of a disparate treatment claim.
Consequently, defendants’ argument loses a leg to
stand on in this regard. And even though both Torres
and Oliver were also within the protected age group
under the relevant age discrimination laws, it is a fact
that both of them were substantially younger than
Plaintiff: Torres was twelve (12) years younger,
whereas Oliver was nine (9) years younger. See
Docket No. 126 at pp. 3-5. “The First Circuit Court of
Appeals has not set a bright line rule as to age
difference that constitutes ‘significantly younger,’ but
has outlined that a three-year age difference is
insignificant while a seven-year age difference is
significant.” Lopez-Rosario v. Programa Seasonal

App. 91a
Head Start/Early Head Start de la Diocesis de
Mayaguez, 245 F.Supp.3d 360, 379 (D.P.R. 2017)
(citing Williams v. Raytheon Co., 220 F.3d 16, 20 (1st
Cir. 2000) (finding a three-year age difference between
plaintiff and similarly situated employee was “too
insignificant to support a prima facie case of age
discrimination”); Velez, 585 F.3d 441, 444, 450 n.5
(finding age differences of seven, twenty, and twentyeight years to be significant) ). Per the foregoing, the
court finds that sufficient evidence was presented at
trial for a reasonable jury to conclude that defendants
treated Gonzalez disparately to her younger counterparts when her post was adjusted downward at the
end of the two-year interim period.
Defendants next claim that Plaintiff was not
meeting Abbott’s legitimate performance expectations
by March of 2013. They point out that Gonzalez
received a PA rating in 2011 and that she admitted
during trial to not being able to comply with deadlines
and perform all of the duties of the HCP Marketing
Manager position. See Docket No. 163 at pp. 5-6. As a
result of these failures, her duties were redistributed
at Plaintiff’s request. See id. at p. 6.
It is an uncontested fact that co-defendant Kim
Perez was in charge of developing the job description
for the HCP Marketing Manager position to which
Gonzalez was assigned after the Reorganization. No
one had held this position before. See Docket No. 155
at pp. 31-33. Kim Perez testified in detail about this
new position’s broad duties and responsibilities. See
id. at pp. 34-36. During this testimony, the court noted
that as HCP Marketing Manager, Gonzalez supervised “nobody.” Id. at p. 34. In contrast, Plaintiff
testified that when she held the position of National
Sales Manager, she had twenty-eight (28) employees

App. 92a
under her supervision. See Docket No. 129 at pp. 9-10.
Therefore, a reasonable fact-finder could conclude
from these facts that Perez concocted a position with
a significant number of accountabilities, but Gonzalez
suddenly had no one to delegate on and assist her in
their fulfillment. Therefore, a sensible jury could have
deemed Plaintiff’s request to eliminate some of these
duties was warranted, and not a sign of deficient
performance. As a matter of fact, a reasonable jury
could have inferred that Perez set Plaintiff up for
failure by giving her unattainable goals without the
proper supporting staff.5
Moreover, given the Plaintiff’s track record at
Abbott, the jury was right to question defendants’
explanations for her demotion. From the time
Gonzalez became an Abbott employee in 1984 until
the Reorganization, Plaintiff had always obtained
ratings of Achieved Expectations (“AE”) or Exceeded
Expectations (“EE”) in her performance evaluations.
See Docket No. 129 at pp. 11-12. Plaintiff first received
a Partially Achieved (“PA”) rating for her job
performance in the year 2011, which was after Kim
Perez became her supervisor. See id. at p. 30. At any
rate, in March of 2013, her most recent job
See Antonucci v. Life Care Centers of Am., Inc., No. CIV.A.
06-108ML, 2008 WL 417675, at *9 (D.R.I. Feb. 13, 2008) (“Viewing these facts in the light most favorable to Plaintiff, [Plaintiff’s
supervisor] conceivably ratcheted up Plaintiff’s duties in an effort
to cause her to underperform.”); Zimmerman v. Direct Fed.
Credit Union, 121 F. Supp. 2d 133, 144 (D. Mass. 2000), aff’d, 262
F.3d 70 (1st Cir. 2001) (“It could reasonably be found that Zimmerman was unsuccessfully set up to fail by being assigned three
presentations to be delivered to the board of directors with minimal time to prepare and no management support.”).
5

App. 93a
performance evaluation was an AE (“Achieve
Expectations”),6 which dispels defendants’ theory that
Plaintiff was having competency issues immediately
prior to her demotion.
Finally, defendants contend that Plaintiff failed to
set forth proof that her age was the “but for” reason
for the “adjustment” to her position in March of 2013.
See Docket No. 163 at pp. 7-9. Although the court
already did away with the burden-shifting framework
of analysis at this stage, the court will discuss why
defendants’ argument is unavailing.
First of all, this court has already held that a
reasonable jury could have found enough evidence was
presented to support the conclusion that Plaintiff was
the victim of disparate treatment on the basis of age
when her position was adjusted downward. “Disparate treatment may be ‘competent proof that the
explanation given for the challenged employment
action was pretextual, provided the plaintiff-employee
can make a preliminary showing that others similarly
situated ... in all relevant respects were treated [more
advantageously] by the employer.’” Aly, 711 F.3d at 46
(citing Straughn v. Delta Air Lines, Inc., 250 F.3d 23,
43–44 (1st Cir.2001)). The evidence of disparate
treatment in this case may have caused the jury to
reasonably infer that defendants’ claims that
Gonzalez’s lackluster performance resulted in the
“elimination” of her Level 17 position were in fact
pretextual and not worthy of credence.
Second, the court finds that defendants’ relentless
denials that Gonzalez was “demoted” despite evidence
6

See Docket No. 125 at p. 111.

App. 94a
to the contrary support the premise that they had
something to hide. In order to give rise to an inference
of pretext, the First Circuit has consistently held that
“[w]eaknesses, implausibilities, inconsistencies, incoherencies, or contradictions in [defendant’s] proffer
can do the trick ....” Collazo-Rosado v. Univ. of Puerto
Rico, 765 F.3d 86, 93 (1st Cir. 2014) (internal citations
and quotation marks omitted). For example, Human
Resources Director Adames denied that Plaintiff was
“demoted” on at least three occasions during trial, see
Docket No. 125 at pp. 50, 56, 65, despite being shown
the defendants’ Answer to the Complaint admitting
Plaintiff’s allegations that she was demoted. See id. at
p. 71; Dockets No. 1, 13 at ¶¶ 93-96. On several
occasions, co-defendant Kim Perez also refused to
testify that Plaintiff was “demoted,” instead opting to
insist that Gonzalez’s position was “eliminated” or
that she was “transferred” to a Level 15 position. See
Docket 123 at p. 11; Docket No. 155 at pp. 110-11;
Docket No. 153 at pp. 3-4. This despite being shown a
document from Elizabeth Rios (“Rios”), an employee of
Abbott’s Talent Acquisition group, that stated that
Gonzalez had been demoted on March of 2013. See
Docket No. 153 at pp. 4-5. But the nail on that coffin
was hammered down by Abbott’s Senior Talent
Acquisition Manager, Taisgali Mendez (“Mendez”),
who testified that the document in question was
prepared by a careful and competent employee under
her supervision, namely, Rios; that it stated that
Plaintiff suffered a “demotion” on March 18, 2013;
and, that Abbott’s Human Resources Department
provided the information contained in this document.
See Docket No. 148 at pp. 10-12. In other words,
Adames and Kim Perez were both contradicted by

App. 95a
both their own co-worker and the documentary
evidence.
As it stems from the testimonies on record, Adames
and Kim Perez were members of Abbott’s top
management team and were both closely involved
with the decision-making processes that brought this
case to court. The demeanor of both of these witnesses
during these particular lines of questions was evasive
and haughty, as well as stubborn in the face of
business documents. “[T]the jury could well have
found [their] testimony at trial evasive, in conflict
with other evidence, and lacking credibility.” United
States v. Nichols, 820 F.2d 508, 512 (1st Cir. 1987).
“The jury can conclude that an employer who
fabricates a false explanation has something to hide;
that ‘something’ may well be discriminatory intent.”
Aka v. Washington Hosp. Ctr., 156 F.3d 1284, 1293
(D.C. Cir. 1998). “If the jury can infer that the
employer’s explanation is not only a mistaken one in
terms of the facts, but a lie, that should provide even
stronger evidence of discrimination.” Id.; see also St.
Mary’s Honor Ctr. v. Hicks, 509 U.S. 502, 511 (1993)
(“The factfinder’s disbelief of the reasons put forward
by the defendant (particularly if disbelief is
accompanied by a suspicion of mendacity) may,
together with the elements of the prima facie case,
suffice to show intentional discrimination.”). In light
of the foregoing, it is no wonder why the jury
disregarded defendants’ theory.
In the alternative, defendants state that “even if
the March 2013 adjustment constitutes an adverse
action, it was part of the November 2010 restructuring that resulted in the elimination of Plaintiff’s
Level 18 HCP Institutional Sales Manager position,
which she accepted and is time-barred.” Docket No.

App. 96a
163 at p. 4 (emphasis ours). In response, Plaintiff
pointed out in her opposition that this so-called
“readjustment,” “was never mentioned during trial.”
See Docket No. 170 at p. 7 n. 18. And because it is a
theory raised for the first time in their Rule 50(b)
motion, Plaintiff argues it must be deemed waived.
See id. The court agrees.
In contrast to what defendants posit in their postjudgment Rule 50(b) motion, the court notes that
during their first Rule 50(a), counsel for defendants
stated: “[f]irst of all, we gotta make clear that
everything that happened before January 1, 2013,
this Court has already ruled that is time barred.”
Docket No. 155 at p. 6 (emphasis ours). The so-called
“adjustment” to Plaintiff’s position took place in
March of 2013, two months after the cut-off date
defendants’ counsel deemed was “clear.” That is one
reason the court finds that defendants’ time-barred
argument holds no water.
The court also finds that this argument is
unavailing for the reasons Plaintiff state. During
defendants’ second Rule 50(a) motion at the close of
evidence, defendants’ counsel simply stated that
Plaintiff failed to prove that the elimination of her
HCP Institutional Marketing Manager position in
March of 2013 “was pretextual,” and, essentially, that
the functions of her position were eliminated at
Plaintiff’s request. See Docket No. 152 at p. 6. The
record shows that prior to the renewed Rule 50(b)
motion, defendants never argued that the
“adjustment” of March of 2013 was “part of” the
Reorganization, or that this claim was time barred.
“A Rule 50(b) motion for judgment as a matter of
law is ‘bounded by the movant’s earlier Rule 50(a)

App. 97a
motion.’” Cox v. Massachusetts Dep’t of Correction,
No. CV 13-10379-FDS, 2018 WL 1586019, at *3 (D.
Mass. Mar. 31, 2018) (citing Parker v. Gerrish, 547
F.3d 1, 12 (1st Cir. 2008). “The movant cannot use
such a motion as a vehicle to introduce a legal theory
not distinctly articulated in its close-of-evidence
motion for a directed verdict.” Monteagudo v.
Asociacion de Empleados del Estado Libre Asociado de
Puerto Rico, 554 F.3d 164, 171 (1st Cir. 2009) (citing
Correa v. Hosp. San Francisco, 69 F.3d 1184, 1196 (1st
Cir.1995)). See also Costa-Urena v. Segarra, 590 F.3d
18, 26 n.4 (1st Cir. 2009) (“It is well-established that
arguments not made in a motion for judgment as a
matter of law under Rule 50(a) cannot then be
advanced in a renewed motion for judgment as a
matter of law under Rule 50(b).”). Pursuant to the
relevant caselaw, the court must find that defendants
waived this argument as grounds for judgment under
Rule 50(b).7
7 In their reply, defendants justify their omission complaining that the undersigned cut them short, reason for which they
“cannot be faulted for any alleged failure to provide more details
since the Court foreclosed the opportunity to make their arguments with any specificity.” Docket No. 177 at p. 3 n.1. In support
of their argument, defendants cite Blockel v. J.C. Penny Co., Inc.,
337 F.3d 17, 25 (1st Cir. 2003). In Blockel, the First Circuit held
that defendant did not waive its arguments due to lack of specificity in its Rule 50(a) motion brought at close of evidence because
the motion was cut short by the district judge’s pronouncement
that motion was considered filed and denied. However, the exchange between counsel and the court was literally four lines. Id.
at 25 n.2. Here, defendants argued their Rule 50(a) motions at
the close of Plaintiff’s case in chief and at the close of evidence.
In stark contrast to Blockel, their arguments are compiled in a
combined total of fourteen pages of transcript. See Docket No.
155 at pp. 4-13; Docket No. 152 at pp. 4-8. Therefore, this court

App. 98a
At any rate, the record belies defendants’ new legal
theory insofar as the Company’s Human Resources
Director, Adames, testified that the elimination of
Gonzalez’s HCP Institutional Manager (Level 17)
position was not the result of a reorganization:
Q. And the elimination of the position 17, okay, in
March 2013, was not as a result of a
reorganization; would that be correct?
A. No.
Testimony of Luz Miriam Adames, Docket No. 125 at
p. 58.
After careful review of the motion, the record and
the applicable caselaw, the court agrees with Plaintiff
that defendants did not meet their burden in showing
that the evidence presented at trial, taken in the light
most favorable to Gonzalez, is so overwhelmingly
inconsistent with the verdict that no reasonable jury
could come to the conclusion that defendants discriminated against Plaintiff based on her age when she was
demoted in March of 2013. The Rule 50(b) motion is
finds that the case they cite in support of their argument is
clearly inapposite because the facts are not even remotely analogous. Nonetheless, the court finds Blockel relevant for its holding
that “it is incumbent upon a party to enunciate the specific basis
for a motion for judgment as a matter of law.” Blockel, 337 F.3d
at 25. Defendants’ failure to thoroughly argue their Rule 50(a)
motion can only be attributed to their three attorneys. “[A] client
is bound by the mistakes of his chosen counsel.” Rosado-Rios v.
Vazquez-Collazo, No. 14-1820 (PG), 2016 WL 2733122, at *4
(D.P.R. May 10, 2016) (citing Miranda-Lopez v. Figueroa-Sancha, 943 F. Supp. 2d 276, 279 (D.P.R. 2013)). “This case is a shining example of the oft-stated precept that ‘[t]he law ministers to
the vigilant not to those who sleep upon perceptible rights.’” Alamo-Hornedo v. Puig, 745 F.3d 578, 582-83 (1st Cir. 2014) (citing
Puleio v. Vose, 830 F.2d 1197, 1203 (1st Cir. 1987)).

App. 99a
thus DENIED as to the age discrimination (demotion)
claim.
2. Retaliation Claims
Plaintiff filed retaliation claims under both ADEA
and Law No. 115. In their Rule 50(b) motion,
defendants argue that no reasonable jury could have
found that defendants retaliated against Plaintiff for
engaging in protected conduct.
“In addition to prohibiting age discrimination, the
ADEA also protects individuals who invoke the
statute’s protections.” Ramirez Rodriguez v.
Boehringer Ingelheim Pharmaceuticals, Inc., 425 F.3d
67, 84 (1st Cir.2005) (citing 29 U.S.C. § 623(d)).
“Puerto Rico’s anti-retaliation statute – Law 115 – is
largely ‘symmetrical in scope,’ and has ‘parallel
evidentiary mechanisms,’ to the anti-retaliation
provisions in ... ADEA.” Rivera-Rivera v. Medina &
Medina, Inc., 898 F.3d 77, 97 (1st Cir. 2018) (internal
citations omitted). “Law 115 also prohibits retaliation
for seeking benefits with the State Insurance Fund.”
Rios v. Municipality of Guaynabo, No. CV 14-1703
(MEL), 2017 WL 3412083, at *3 n.5 (D.P.R. Aug. 9,
2017) (citing Santana-Colon v. Houghton Mifflin
Harcout Pub. Co., 81 F. Supp. 3d 129, 136 (D.P.R.
2014)).
Plaintiff’s retaliation claims stem from events that
followed her demotion. In March of 2013, when Perez
and Adames notified Plaintiff of the downgrade in the
position she occupied, Plaintiff asked Kim Perez if she
could be named Senior Product Manager (Level 16)
instead of Product Manager (Level 15). According to
Plaintiff, Perez responded that no such position was
available at the time. See Docket No. 129 at p. 21.
Plaintiff testified that she did not agree with Perez’s

App. 100a
response because “Senior” titles are simply tied to an
employee’s years of experience. See id. at p. 21. On the
other hand, Kim Perez’s position was that the upgrade
to “Senior” was based on qualifications and
experience; and in addition, the senior manager had
to supervise other employees. See Docket No. 153 at
p. 8.
After receiving these news, the Company doctor
referred Gonzalez to the SIF, where she was placed on
rest from March 19, 2013 to July 10, 2013. See Docket
No. 130 at pp. 8-9. Shortly after reporting to the SIF,
Abbott sent Plaintiff a certified letter dated April 1st,
2013, informing her that if she did not report to work
by April 8th, the Company would terminate her
employment. See Docket No. 125 at pp. 66-67; Docket
No. 130 at pp. 8-9. Out of fear that she would lose her
job, Plaintiff returned to work before the mandated
rest period was over. See Docket No. 130 at pp. 8-9.
On September 3, 2013, Kim Perez met with
Gonzalez to discuss her midyear review. After a
lengthy explanation of the report, Gonzalez testified
that she understood that she was “on track” in terms
of covering the expectations of her position up to that
date. See id. at pp. 11-12. Approximately a month
later, on October 15, 2013, Gonzalez’s attorneys sent
a letter to Kim Perez notifying her that Plaintiff would
sue her for age discrimination. See Docket No. 123 at
pp. 13-14; Plaintiff’s Exhibit 8. Matt Harris (“Harris”),
Abbott’s General Manager in Puerto Rico and the
Caribbean at the time,8 also received a copy of the
letter. See Docket No. 153 at p. 20. On October 29,
8

See Matt Harris Testimony, Docket No. 153 at pp. 38-39.

App. 101a
2013, Plaintiff then filed an administrative claim of
age discrimination before the Anti-Discrimination
Unit (“ADU”) at the Department of Labor. See Docket
No. 130 at p. 30. On October 31, 2013, Gonzalez also
sent Kim Perez an email complaining about being
sidelined from some meetings and not having access
to presentations. See Docket No. 123 at pp. 18-19;
Plaintiff’s Exhibit 10.
Pursuant to the Company’s policies, every
employee complaint must be investigated. See Docket
No. 126 at p. 15. In fact, pursuant to this policy, the
Company had investigated an internal complaint for
workplace harassment that Gonzalez had lodged
against Kim Perez in 2011. See id. at p. 15. Despite
the policy, Adames testified that an investigation was
not conducted at Abbott subsequent to Gonzalez’s age
discrimination claim at the ADU. See id. at pp. 14, 17.
Kim Perez did not order an investigation of Plaintiff’s
complaints either. See Docket No. 123 at pp. 16, 20. In
contrast, Harris testified that Abbott’s Legal
department in Chicago investigated Plaintiff’s claims.
See Docket No. 153 at p. 41. Harris sent a letter to
Gonzalez on November 20, 2013 – just twenty (20)
days after the administrative claim was filed –
categorically denying that Abbott had engaged in any
discriminatory or retaliatory practices. See id. at pp.
63-66; Plaintiff’s Exhibit 11. Yet, Harris admitted that
he was not part of this investigation and was unaware
of its conclusions (of fact and law). See Docket No. 153
at pp. 63-66.
Two weeks after filing her administrative claim at
the ADU, Plaintiff found out through a colleague at
Abbott that a Senior Product Manager position had
become available. See Docket No. 130 at pp. 30-31. On
November 18, 2013, Plaintiff sent a letter to Harris

App. 102a
informing him of her interest in the position and
stating the Kim Perez’s failure to inform her of this
vacancy constituted retaliation against her for having
complained of discrimination. See Plaintiff’s Exhibit
30. Harris responded on November 20, 2013, that the
position would be posted soon so both internal and
external candidates could apply. See Docket No. 130
at pp. 31-32.
According to Kim Perez, the position had not been
approved by Corporate until November of 2013. See
Docket No. 155 at p. 93. However, it was Mendez’s
testimony that Harris had already asked her to post
the Senior Product Manager position on LinkedIn
back in August 28, 2013, and that the hiring manager
for that position was Kim Perez. See Docket No. 148
at p. 15. Mendez also testified that Harris sent her the
requisition to post the Senior Product Manager on
November 22, 2013, six (6) days after Plaintiff emailed
Harris. See id. at p. 17. In the email Harris sent
Mendez, he also stated: “[i]t seems like we have a
good external candidate slate, and I would like to
have all interviews completed by December 20th.”
Docket No. 153 at p. 24 (emphasis ours); Plaintiff’s
Exhibit 12. According to Mendez, she understood that
they had a good group of external candidates for the
position from the resumes they had received. See
Docket No. 148 at pp. 19-20. However, it was
Plaintiff’s testimony that Harris’ email was not
aligned with the Company’s policy to give preference
to Abbott employees when filling vacancies. See
Docket No. 130 at p. 45. According to the testimonies
heard, the Company’s policy was to offer promotions
to qualified Abbott employees before external
candidates. See Adames, Docket No. 125 at pp. 37-38;

App. 103a
Gonzalez, Docket No. 130 at p. 32; Harris, Docket No.
153 at p. 7.
Mendez also testified that she became aware of
Gonzalez’s claim of age discrimination during
conversations about the selection process that she had
with Kim Perez as the position’s hiring manager. See
Docket No. 148 at pp. 17-18. Mendez agreed that this
information was irrelevant for purposes of the
recruitment process. See id. at pp. 18-19. Likewise,
Adames also admitted that she discussed Gonzalez’s
age discrimination claim with Perez during the month
of December when the selection process was taking
place. See Docket No. 125 at p. 99. Adames also
discussed Gonzalez’s age discrimination claim with
Harris and Mendez between October and December of
2013. See Docket No. 126 at p. 25. Nevertheless,
Adames admitted that she knew that an employee’s
intention to sue the Company for discrimination
and/or retaliation cannot be taken into account when
considering said employee as a candidate for
promotion. See id. at p. 12.
On December 9, 2013, Harris, Perez, Adames and
Mendez held a meeting to discuss the selection process
for the Senior Product Manager position. Although
they discussed the interview guide they would use for
the process, Adames’ notes of the meeting contain no
mention of the business case presentation they would
eventually required from the finalists. See Docket No.
148 at pp. 22-23; Docket No. 125 at p. 105. It also
stems from the notes of this meeting that its attendees
decided to set up a meeting with Abbott’s lawyers,
even though it was not standard operating procedure
to meet with attorneys when a position had to be filled.
See Docket No. 125 at pp. 105-106.

App. 104a
Kim Perez and Mendez interviewed Plaintiff for
the Senior Product Manager position on or about
December 18, 2013. See Docket No. 130 at p. 46. The
finalists for the Senior Product Manager position were
Gonzalez and two external candidates, Sandra
Figueroa and Glorimar Molina. See Docket No. 125 at
p. 100. Gonzalez became one of three finalists out of
114 applicants. See Docket No. 123 at p. 26. During
the course of this process, Kim Perez testified that she
never considered recusing herself from the selection
process even though Plaintiff, an applicant and a
finalist, had recently filed charges of age
discrimination against her. See id. at p. 21. Although
Plaintiff – an internal candidate – was a finalist for
the position, Adames testified that there was no one
“ready now” at Abbott between August 28, 2013 to
December 20, 2013 for the Senior Product Manager
position. See Docket No. 126 at p. 27.
After the interviews, the finalists were informed
that they had to make a presentation to a panel of
judges on the following day, that is, on December 19,
2013. See id. at p. 28. The panel consisted of Mendez,
Harris, Kim Perez and Mayra Graulau, a Human
Resources Manager at Abbott. See id. at pp. 25-26. To
that effect, Plaintiff testified that it was the first time
in thirty (30) years at Abbott that the Company
required presentations from finalists for a position.
See Docket No. 130 at pp. 46-47. According to Kim
Perez, it was Mendez’s idea to include a presentation
stage in the selection process in order to find the best
candidate. See Docket No. 155 at p. 96. It was a
technique that was previously used in Latin America,
one of the regions under Mendez’s responsibility. See
id. at p. 96.

App. 105a
Upon notification of this unprecedented requirement, Plaintiff testified that she understood that she
did not have a real opportunity to obtain the
promotion. According to Gonzalez, the process had
become a sham intended for her to believe she was
actually being considered, especially when most of the
panel judges were already aware of her presentation
skills. See Docket No. 130 at pp. 48-49. Gonzalez
testified that she felt humiliated in front of the other
two (2) candidates that had no experience at Abbott,
whereas she had demonstrated her skills for thirty
(30) years. As a result, she told the judges that “she
was uncomfortable with the process” and that she was
“withdrawing from the presentation process.” Id. at p.
50. Adames, however, understood that Gonzalez was
withdrawing from the whole application process. See
Docket No. 126 at p. 31.
On December 19, 2013, Mendez wrote Gonzalez an
email confirming her withdrawal from the selection
process. See Docket No. 130 at p. 51. The following
day, Plaintiff responded expressing her continued
interest in the position and explaining her reasons for
feeling uncomfortable with the presentation portion of
the evaluation. See id. at pp. 51-52. On that same day,
Mendez replied that they had already chosen another
candidate. See id. at p. 52. On December 19, 2013, the
day of the presentations, Glorimar Molina9 was
selected for the position of Senior Product Manager
and she was so notified on December 20, 2013. See
Docket No. 125 at p. 107. The Company then shut
In 2015, Glorimar Molina was thirty-three (33) years old
and Plaintiff was fifty-five (55) years of age. See Docket No. 126
at p. 3. A significant twenty-two (22) year difference.
9

App. 106a
down for the Holidays on December 20, 2013 until
January 7, 2014, and Plaintiff went on vacation. See
Docket No 153 at p. 75; Docket No. 130 at p. 52.
Accordingly, Plaintiff’s job performance evaluation
period for the year 2013 must have ended on
December 20th, the day after the presentations took
place. See Docket No. 123 at p. 22.
Upon return from the Holidays in January of 2014,
Plaintiff applied to the Regional Sales Manager (Level
18) position that was posted. See Docket No. 130 at p.
54. Harris was the hiring manager for this vacancy.
See Docket No. 153 at p. 44. A month later, on
February 27, 2014, Plaintiff received her performance
evaluation for the year 2013, in which she received a
rating of “Partially Achieved” expectations or “PA.”
See Docket No. 126 at p. 19. It is a Company practice
that if an Abbott employee obtains a PA in his/her job
performance evaluation, the employee is ineligible for
promotion. See Docket No. 153 at p. 46. To that effect,
the jury heard Adames testify that if an employee does
not achieve expectations during the Company’s
employee evaluation process, several repercussions
may ensue. These include the following: (1) the
employee may not receive salary increases; (2) the
employee may require an improvement plan; (3) the
employee’s incentive bonus and merit increase may be
impacted; and, (4) the employee cannot be considered
for promotion according to Company “policy.” Docket
No. 125 at pp. 17-20, 72-73. Indeed, Plaintiff believed
that she received a PA rating in her evaluation so that
she would not qualify for promotion in 2014. See
Docket No. 130 at p. 56.
Despite having received a Partially Achieved
rating for her performance in 2013, Adames testified
that Gonzalez was “considered” for the Regional Sales

App. 107a
Manager (Level 18) position that she applied to in
January of 2014. See Docket No. 125 at p. 73. Then
upon further questioning, Adames changed her tune
and stated that Gonzalez was “evaluated” for said
position. See id. at p. 74. The court then questioned
Adames on the subject, to which she answered that
Gonzalez had just “submitted her name for the
position.” Id. at p. 75. Subsequently, Adames testified
that Gonzalez was not considered for the Regional
Sales Manager position (Level 18) posted in January
of 2014 because Plaintiff failed to meet the minimum
expectations of several key job competencies during
the “last three years,” per an email Harris sent to
Gonzalez. See id. at p. 77; Docket No. 153 at p. 52.
Despite Adames’ testimony, in the Answers to
Interrogatories that Abbott submitted during the
course of discovery in this case and that Adames
signed (Docket No. 125 at p. 42), Gonzalez and
Francisco Vargas (“Vargas”) were listed as employees
who were “considered” for the position of Regional
Sales Manager despite the fact that both had obtained
a PA rating in their 2013 performance evaluations.
See Docket No. 125 at pp. 77-78.
The court notes, however, Plaintiff was a finalist
for promotion just one month before applying to the
Regional Sales Manager position, for which she was
deemed unqualified. At the time Plaintiff became a
finalist for the Senior Product Manager position in
December of 2013, Kim Perez already knew that
Gonzalez’s performance warranted a PA rating. See
Docket No. 153 at p. 28. But Kim Perez insisted that
she did not take Gonzalez’s 2013 performance into
account during the selection process for the Senior
Product Manager position because the Company’s
“recruiting policy” requires that only the prior year’s

App. 108a
performance rating be taken into account, see Docket
No. 123 at p. 23; Docket No. 155 at pp. 95-96, and
Gonzalez had obtained an Achieved Expectations
rating in 2012. See Docket No. 155 at pp. 62-63. In
fact, Kim Perez testified that she did not share her
concerns regarding Plaintiff’s current performance
with the other members of the selection committee.
See Docket No. 123 at p. 23.
Plaintiff disagreed with her evaluation rating and
in March of 2014, she requested that the Human
Resources department perform an investigation of her
results. See Docket No. 130 at pp. 56, 61. Gonzalez
also requested to meet with Kim Perez and Harris to
discuss her evaluation, and in order to challenge it,
she asked that her emails from 2013 be reinstated in
her account. See id. at pp. 58-60. According to
Plaintiff, the emails contained evidence that she had
achieved the goals of her position and completed her
assigned projects. See id. at pp. 59-60. However, the
Human Resources department responded that the
emails could not be retrieved because they had
already been deleted. See id. at p. 60.
Plaintiff filed a claim of retaliation before the
Equal
Employment
Opportunity
Commission
(“EEOC”),10 and while Plaintiff was attempting to
challenge her evaluation, Glamary Perez11 was
appointed to the Regional Sales Manager position. See
Docket No. 125 at p. 78. Plaintiff was not interviewed
for said post. See Docket No. 130 at p. 54. Although
10

See Docket No. 153 at p. 41.

In 2015, Glamary Perez was forty-one (41) years old and
Plaintiff was fifty-five (55) years of age. See Docket No. 126 at
pp. 3-4. That is a significant fourteen (14) year difference.
11

App. 109a
the process began as a competitive one, the Company
decided to directly appoint Glamary Perez to the
position. See Docket No. 126 at p. 4. Consequently, on
March 11, 2014, Gonzalez sent an email to Harris
requesting that she be appointed Senior District
Manager,12 which was the position Glamary Perez
would leave vacant upon promotion. See Docket No.
125 at pp. 78-79; Docket No. 130 at p. 62; Plaintiff’s
Exhibit 20. On March 19, 2014, Harris denied her
request responding that she had consistently failed to
meet Abbott’s minimum expectations in several areas
for the last three years. See Docket No. 130 at p. 67;
Docket No. 153 at p. 46; Plaintiff’s Exhibit 21. Instead,
Harris offered Vickybel Rosario13 the position of
Senior District Manager left vacant by Glamary
Perez. See Docket No. 125 at p. 79.
In his email response of March 19th, Harris never
told Plaintiff that the Senior District Manager
position had already been filled. See Docket No. 153
at pp. 94-95. However, there is evidence on record that
by March 4, 2014, a week before Gonzalez’s email to
Harris, the latter had written an email to Mendez and
Adames stating that he wanted to discuss the “backfill
succession caused by Glamary’s promotion,” that is,
the “Vicky move,” which he thought should to be taken
care of before actually announcing Glamary Perez’s
promotion. See id. at pp. 95-98; Plaintiff’s Exhibit 19.
Hence, the Senior District Manager vacancy was
Plaintiff had previously occupied the position of District
Manager (Level 16) for several years, see Docket No. 129 at p. 8,
Docket No. 130 at pp. 53-54; and, she had achieved expectations
as an employee in that position, see Docket No. 125 at p. 79.
12

In 2015, Vickybel Rosario was forty-three (43) years old
and Plaintiff was fifty-five (55) years of age. See Docket No. 126
at pp. 3, 5. That is a significant twelve (12) year difference.
13

App. 110a
never posted, and Plaintiff could never apply to it. See
Docket No. 130 at p. 67.
In March of 2014, Rocio Oliver, one of the other
employees affected by the Reorganization, was offered
the position of Senior District Manager (Level 16) for
which she did not have to compete. See Docket No. 126
at pp. 48, 50, 59. In addition, Dennis Torres, the other
employee affected by the Reorganization, was
promoted to Distribution Manager (Level 16) on
March 17, 2014. See id. at pp. 52, 60-61; Docket
No. 153 at p. 102. Plaintiff, who was their supervisor
before the Reorganization, remained at her Level 15
position.
In April of 2014, the Company finalized a
document called the Talent Management Review
(“TMR”) to be sent to corporate. See Docket No. 153 at
p. 122; Plaintiff’s Exhibit 39. The TMR “is a formal
process used to discuss leadership capabilities,
strengths and gaps, create an action plan to ensure
talent needed will be available to achieve business
long range plans. It is the process of identifying and
developing individuals with the potential to compete
for defined leadership role.” Docket No. 153 at p. 112.
Harris and his immediate staff, including Kim Perez,
prepared the TMR. See id. at p. 113. In the document,
Gonzalez had no developmental actions listed; the
TMR just said “N/A” or “not available.” See id. at p.
122; Plaintiff’s Exhibit 39. Moreover, the document
reflected that there was no promotion timing for
Gonzalez or potential next moves. See Docket No. 153
at p. 123; Docket No. 125 at pp. 32, 38; Plaintiff’s
Exhibit 39. According to Adames, this information
was not included for Plaintiff because she had
obtained a PA in her performance evaluation for 2013.
See Docket No. 125 at p. 40. However, Francisco

App. 111a
Vargas,14 another Abbott employee who obtained a PA
for his performance in 2013, had promotion timing
and potential next moves listed for him in the TMR.
See Docket No. 125 at pp. 40-41. In addition, William
Palermo, another employee that needed to improve his
performance, also had developmental actions listed in
the TMR. See Docket No. 153 at pp. 132-133.
According to Harris, it was typical for every
employee to have developmental actions in the TMR.
See id. at p. 118. Later on in his testimony though, he
testified that the developmental actions for employees
holding Level 15 positions are not included in the
TMR. See Docket No. 152 at p. 120. However,
Francisco Vargas and Wilma Diaz,15 who were also in
Level 15 positions, had developmental actions and/or
potential next moves listed for them in the TMR. See
Docket No. 153 at pp. 128-129.
Finally, in May of 2014, Kim Perez became the
General Manager at Abbott upon Harris’ departure.
See Docket No. 130 at p. 68. Marisabel Aponte then
became Plaintiff’s supervisor in July of 2014. See id.
at p. 68. Gonzalez obtained an AE in her performance
evaluation for the years 2014 and 2015 under Aponte’s
supervision. See id. at pp. 69-70.

In 2015, Francisco Vargas was forty-three (43) years old
and Plaintiff was fifty-five (55) years of age. See Docket No. 153
at pp. 101-102. That is a significant twelve (12) year difference.
14

In 2015, Wilma Diaz was fifty-six (56) years old and had
held a Level 15 position for the last twelve years, that is, since
2004. See Docket No. 153 at p. 103.
15

App. 112a
a. Failure to Promote
Senior Product Manager Position
In their motion for judgment as a matter of law,
defendants argue that Plaintiff was not promoted for
the Senior Product Manager position because, unlike
the other candidates, she failed to give the
presentation that was required and voluntarily
withdrew from the selection process. See Docket No.
163 at pp. 12-14. In her opposition, Plaintiff argues
that the evidence justified the jury’s finding that her
withdrawal from the presentation “was reasonable in
light of the context in which it took place.” Docket No.
170 at p. 27. According to Plaintiff, the following
factors contributed to this context: (1) the search for
external candidates before making a vacancy
announcement internally; (2) deviation from
Company policy of favoring qualified internal
candidates; (3) Harris’ satisfaction with the “external
candidate slate” before she was interviewed for the
position; (4) panel of judges consisting of potential
targets of litigation by Gonzalez; (5) selection
committee’s discussions about Plaintiff’s intention to
sue during selection process; (6) discussion of selection
process with attorneys; (7) requiring a case
presentation for the first time; (8) not investigating
her 2013 claims of discrimination and retaliation
pursuant to Company policy; and, (9) Kim Perez’s
incredible assertions that she did not consider
Plaintiff’s 2013 performance during selection process.
See id.
The circumstances that comprise the overall
factual picture of this case and enabled to jury to reach
its verdict will now be discussed.

App. 113a
As set forth supra, before becoming a finalist for
the Senior Product Manager position in December of
2013, Plaintiff had asked Kim Perez in March to be
appointed to this position. At the time, Perez
responded that such position was unavailable, not
that Plaintiff wasn’t qualified for it. Only five (5)
months later, a vacancy for this position was posted
on LinkedIn in August of 2013. Yet, Plaintiff found out
through a colleague that the Company was looking
externally to fill a vacancy for the position she was
interested in because Kim Perez did not tell her
anything about it when they met to discuss Plaintiff’s
midyear review in September of 2013. See Docket No.
130 at p. 39. Plaintiff confronted Harris via letter with
this information claiming that the failure to inform
her of this opening constituted retaliation since at the
time, she had already filed her age discrimination
claims at the ADU. Harris responded that the
Company had not engaged in discrimination or
retaliation against her even though he testified not
knowing the results of the investigation the
Company’s legal department was conducting.
Therefore, his statements in his response letter were
premature and unsupported, to say the least.
And with regards to this investigation, Harris’
testimony to that effect was contradicted by Mendez,
who testified that the Human Resources department
did not conduct an investigation of Gonzalez’s claims.
Kim Perez also testified during trial that she did not
order an investigation of Plaintiff’s claims against her,
which also evinces a deviation from the Company’s
policy of investigating all employee complaints. The
First Circuit recognizes that “pretext can be
demonstrated through a showing that an employer
has deviated inexplicably from one of its standard

App. 114a
business practices.” Kouvchinov v. Parametric Tech.
Corp., 537 F.3d 62, 68 (1st Cir. 2008). The jury in this
case may have reasonably found this omission to be
evidence of pretext.
After receiving Gonzalez’s letter, Harris finally
ordered the vacancy be announced internally. His
email request to Mendez at Human Resources stated
that he was already pleased with the “external
candidate slate.” At the time of this email though, he
had not yet reviewed Plaintiff’s application or that of
any other Abbott employee. In other words, the battle
was lost even before it was fought.
During defendants’ case in chief, Harris tried to
explain the timing of the internal announcement
asserting that he had only obtained “budgetary
approval” for the position in November of 2013. See
Docket No. 153 at p. 43. However, the jury could have
reasonably disbelieved him and found that the
intention to announce the position internally never
existed until Plaintiff complained about the omission.
“[T]he irregular timing could have suggested to the
jury that a cover-up was afoot.” Muñoz v. Sociedad
Española De Auxilio Mutuo y Beneficiencia De Puerto
Rico, 671 F.3d 49, 57 (1st Cir. 2012). Viewing the facts
in the light most favorable to the verdict, the jury
plausibly inferred that the Senior Product Manager
had not been announced to prevent Plaintiff from
applying in retaliation for complaining of age
discrimination. The court is not permitted to secondguess the jury’s assessment.
To cinch the matter, the jury also heard testimony
that the members of the selection committee spoke
about Plaintiff’s discrimination claim among
themselves during the hiring process despite

App. 115a
admitting that this information should be irrelevant
for promotion purposes. Notwithstanding, they
decided to meet with the Company’s attorneys before
interviewing the candidates, which Adames acknowledged was out of the ordinary. The jury could also
have found that the timing of this legal consultation
was suggestive of the fact that Plaintiff’s claim against
defendants was an important consideration in the
selection process.
Subsequently, Plaintiff was interviewed by both
Mendez and Kim Perez. The latter’s testimony with
regards to this process may have been received with
skepticism by the jury members. First of all, although
Kim Perez was the object of Plaintiff’s discrimination
claims, she testified that she did not recuse herself
from the selection committee because she was the
hiring manager for the position. Second, Kim Perez
testified that she did not consider what she thought
was Plaintiff’s “deficient” job performance during the
current year because according to Company policy,
she could only take into account the employee’s
performance during the prior year. The jury in this
case could have found Kim Perez’s assertions under
oath to be hard to believe deeming it an almost
unsurmountable task to both remain impartial, as
well as put aside Plaintiff’s subpar performance
during the most recent months. Yet, she claimed being
able to do both.
“[P]roof that the defendant’s explanation is
unworthy of credence is ... one form of circumstantial
evidence that is probative of intentional discrimination.” Acevedo-Parrilla v. Novartis Ex-Lax, Inc., 696
F.3d 128, 141 (1st Cir. 2012) (citing Williams v.
Raytheon Co., 220 F.3d 16, 19 (1st Cir. 2000)). “An
explanation is unworthy of credence when is [sic]

App. 116a
suffers from ‘weaknesses, implausibilities, inconsistencies, incoherencies, or contradictions ...’ such that a
factfinder could ‘infer that the employer did not act for
the asserted non-discriminatory reasons.’” Hubbard v.
Tyco Integrated Cable Sys., Inc., 985 F.Supp.2d 207,
228–29 (D.N.H. 2013) (citing Santiago-Ramos v.
Centennial P.R. Wireless Corp., 217 F.3d 46, 56 (1st
Cir. 2000)). A reasonable jury could have easily
determined that her explanations for remaining in the
selection committee and for her approach to the
evaluation process were simply implausible, and thus,
a pretext for retaliation.
During the course of the selection process, Plaintiff
became a finalist along with two other external
candidates and was asked to make a case presentation
before a panel of judges. To Gonzalez, an Abbott
employee for over three decades, this additional
requirement was unheard of. What is more, Plaintiff
testified that most panel judges had seen her make
presentations during the course of her employment as
Product Manager. Therefore, they were familiar with
her skills. See Docket No. 130 at p. 49. Plaintiff also
knew that at least two of the judges, namely, Harris
and Kim Perez, were aware of her formal claims of
discrimination. Feeling uncomfortable and humiliated, Plaintiff decided to withdraw from the
presentation phase of the selection process because
she believed the process was a sham.
It is uncontested that the request for a business
case presentation was a departure from the ordinary
selection process. This may have led the jury to
conclude that defendants’ real objective was to
evaluate the external candidates’ presentation skills
because those were unknown to the judges. Such a
conclusion supports Plaintiff’s inference that she was

App. 117a
not being truly considered for promotion. As a result,
a reasonable jury could have found that her
withdrawal from the presentation phase of the
selection process was warranted since the
overwhelming circumstantial evidence showed that
her effort and continued participation would have
been futile, a finding that is not unheard of in the
universe of holdings in employment cases of several
other courts. See Miller v. Gruenberg, No. 1:16-CV856, 2017 WL 1227935, at *6–7 (E.D. Va. Mar. 31,
2017), aff’d as modified, 699 F. App’x 204 (4th Cir.
2017), cert. denied, 138 S. Ct. 2579 (2018) (withdrawal
of job application does not bar a plaintiff’s
discrimination claim of non-selection where there is
evidence the plaintiff was coerced into withdrawing
from application process); Simpson v. Beaver Dam
Cmty. Hosps., Inc., 780 F.3d 784 (7th Cir. 2015)
(physician’s withdrawal of his application did not bar
his race discrimination claims against hospital where
chief of staff’s warning indicated that it would have
been futile for physician to maintain his application);
Qu v. Bd. of Regents of Univ. of Minnesota, No. CIV.
08-1843 RHK/JSM, 2009 WL 2900334, at *7 (D. Minn.
Sept. 2, 2009)(the withdrawal of an employment
application might not undermine a plaintiff’s prima
facie case if his application would have been futile);
Lowery v. Circuit City Stores, Inc., 158 F.3d 742, 762–
63 (4th Cir.1998), rev’d on other grounds, 527 U.S.
1031 (1999) (finding that voluntary withdrawal does
not show prima facie case of discrimination where
there is no indication “it was futile to apply or that
[the employer] prevented her from applying”).
Pursuant to the foregoing, a reasonable jury could
have found that defendants’ purported non-retaliatory
reason for not selecting her was pretextual.

App. 118a
Defendants’ alternative argument in support of
their decision not to promote Plaintiff for the Senior
Product Manager position is that Glorimar Molina,
one of the external candidates, was more qualified
than Gonzalez. See Docket No. 163 at pp. 12-14. In
their motion, defendants contend that Molina had a
degree in business administration and a master’s
degree in marketing, versus Plaintiff, who did not
have any formal education in business administration
or any post graduate degrees. See id. at p. 13. In
addition, they claim that Molina had more relevant
work experience, particularly in the Caribbean
market. Id. In her opposition, Plaintiff first argues
that she should have been offered the position
pursuant to the Company’s policy of favoring qualified
internal employees when filling vacancies. In that
respect, Plaintiff argues that defendants deviated
once again from established policies in retaliation for
having engaged in protected conduct, and instead,
selected Glorimar Molina, who is substantially
younger than Gonzalez by twenty-two (22) years. See
Docket No. 170 at pp. 12-13.
“When an employer claims to have hired or
promoted one person over another on the basis of
qualifications, the question is not which of the
aspirants was better qualified, but, rather, whether
the employer’s stated reasons for selecting one over
the other were pretextual.” Rathbun v. Autozone, Inc.,
361 F.3d 62, 74 (1st Cir. 2004). “In line with the
business judgment rule, ‘[c]ourts may not sit as super
personnel departments, assessing the merits—or even
the rationality—of employers’ nondiscriminatory
business decisions.’” Deslauriers v. Napolitano, 738
F.Supp.2d 162, 179 (D. Me. 2010) (citing Mesnick v.
General Elec. Co., 950 F.2d 816, 825 (1st Cir.1991)).

App. 119a
“Qualifications are notoriously hard to judge and ...
more must be shown than that the employer made an
unwise personnel decision by promoting ‘X’ ahead of
‘Y.’” Rathbun, 361 F.3d at 74. Nevertheless, “there
may be situations in which the difference in
qualifications is so stark as to support an inference of
pretext.” Id. at 75. “Or, perhaps, there may be
situations in which a great number of individual
employment decisions, each of which arguably can be
justified as a business judgment, may in cumulation
present so one-sided a picture as to raise an inference
of pretext.” Id.
With regards to the candidates’ differences in
education, the court notes that Plaintiff’s degrees, or
lack thereof, had not previously prevented Abbott
from promoting her to a Level 18 position, in which
she supervised twenty-eight employees, including
other supervisors. Considering this information, the
jury may have reasonably afforded little credit to this
purported non-retaliatory reason for not having
selected Plaintiff for a Level 16 position. The jury may
have also discounted defendants’ grounds for their
choice because Molina only had eleven years of total
work experience vis-à-vis Plaintiff, who had almost
thirty years of experience at Abbott. Therefore, this
case is definitely not one in which the successful
applicant’s qualifications are so obviously superior to
those of Plaintiff as to undermine the legitimacy of her
claims. And in combination with both the age
difference and the suspicious circumstances
surrounding the selection process that were
previously-discussed, the jury may have hardly been
persuaded by defendants’ assertions that Molina
possessed superior qualifications. See St. Mary’s
Honor Ctr. v. Hicks, 509 U.S. 502, 511 (1993) (“The

App. 120a
factfinder’s disbelief of the reasons put forward by the
defendant (particularly if disbelief is accompanied by
a suspicion of mendacity) may, together with the
elements of the prima facie case, suffice to show
intentional discrimination.”).
Defendants’ “choice between the three candidates
was highly discretionary but: ‘Discretion may be
exercised in ways which are discriminatory or
retaliatory.’” Deslauriers v. Chertoff, No. CIV. 07-184B-W, 2009 WL 1032854, at *31 (D. Me. Apr. 16, 2009),
aff’d, 640 F. Supp. 2d 104 (D. Me. 2009) (citing
DeCaire v. Mukasey, 530 F.3d 1, 20 (1st Cir. 2008)).
Moreover, “the temporal proximity between the
[administrative] complaint and the decision not to
select [plaintiff] is a significant consideration.”
Chertoff, 2009 WL 1032854 at *31 (citations omitted).
See also Mesnick, 950 F.2d at 828 (finding that
evidence of temporal proximity of an employee’s
protected activity to an employer’s adverse action,
inter alia, is one source of circumstantial evidence
that, theoretically, can demonstrate retaliation). In
sum, the totality of the circumstances in this case may
have led a reasonable jury to conclude that
defendants’ non-retaliatory reasons to not promote
Gonzalez to the Senior Product Manager position were
merely a pretext for retaliation after complaining of
age discrimination.
Regional Sales Manager and Senior District Manager
Defendants also argue that Plaintiff was not
qualified for the Regional Sales Manager and the
Senior District Manager positions for which she was
not selected in early 2014. See Docket No. 163 at pp.
15-17. According to defendants, Plaintiff was rendered
ineligible for promotion because of the “Partially

App. 121a
Achieved” expectations rating she received in her
evaluation. Moreover, defendants argued that
Plaintiff lacked the relevant experience for the job
both in the Caribbean region and with the distributors
sector. In contrast, Glamary Perez, the selected
candidate, had a master’s degree in business
administration and an excellent track record in sales
at Abbott.
In
her
opposition,
Plaintiff
notes
the
inconsistencies regarding whether or not she was
“considered” for the position. See Docket No. 170 at p.
16. On the one hand, there is evidence on record, such
as Abbott’s Answers to Interrogatories, that Plaintiff
was “considered” for the Regional Sales Manager
position despite having received a PA rating.
However, Adames’ explanations shifted at trial having
first testified that Gonzalez was considered and
eventually denying it. In addition, Plaintiff also points
out that Abbott suddenly aborted the competitive
selection process for the position and appointed
Glamary Perez, who was fourteen (14) years younger
than Gonzalez and had less experience than her.
After learning of Glamary Perez’s promotion,
Plaintiff requested to be promoted to the position
Glamary would leave vacant, but once again, Plaintiff
was denied. According to defendants in their motion,
the Company offered Vickybel Rosario the position
because she was more qualified than Plaintiff, had
been identified as a key talent in the TMR process and
unlike Plaintiff, had excellent evaluations. See Docket
No. 163 at p. 17. In response, Plaintiff argues that she
was not promoted to this position in retaliation for
having engaged in protected conduct, and points to the
events that are temporally proximate to this selection
process as evidence of pretext.

App. 122a
First of all, Gonzalez points out that the Company
never informed her that Glamary Perez was selected
to the Regional Sales Manager position. After finding
out on her own, she sent an email to Harris on March
11, 2014 asking if she could be offered Glamary
Perez’s Senior District Manager position, which would
become vacant. See Docket No. 130 at p. 62; Plaintiff’s
Exhibit 20. On March 19, 2014, Harris responded that
she was not qualified for promotion having obtained
an unsatisfactory rating in her most recent evaluation
and informed her that for the last three years she had
demonstrated “several key job competency issues that
require significant improvement.” Plaintiff’s Exhibit
21. Defendants rely on this document to ground their
claim that Plaintiff failed to meet expectations.
However, Plaintiff rightfully indicates that Harris’
assertions therein are mistaken because in at least
one of those three years, namely, in 2012, she had
obtained an Achieved Expectations rating in her
performance evaluation.
Gonzalez also points out that pursuant to the
documentary evidence on record, another much
younger Abbott employee, namely, Vickybel Rosario,
had already been preselected for the Senior District
Manager position at the time of Harris’ email
response. On March 4, 2014, Harris had written an
email to Mendez and Adames requesting to “get
aligned” on the matter of the “backfill succession
caused by Glamary’s promotion” before making any
public announcements. See Plaintiff’s Exhibit 19.
According to this email, Vickybel Rosario, who is
twelve (12) years younger than Plaintiff, would be
offered the position Glamary left vacant before
announcing Glamary’s promotion. Harris sent this
email fifteen (15) days before responding to Plaintiff.

App. 123a
However, Harris stayed mum about these personnel
moves in his response to Plaintiff.
As can be gleaned from the record, Plaintiff was
given an unsatisfactory performance evaluation a
month after being selected as a finalist for promotion
at the end of 2013. This precluded her from qualifying
for promotion in 2014. According to defendants’
theory, Gonzalez went on vacation on December 20th,
2013, and when she returned from the Holidays, she
was suddenly not a qualified candidate for promotion
and had several competency issues that needed
immediate improvement, as per Harris’ email. And
while Plaintiff was attempting to challenge her 2013
performance evaluation to no avail, the Company
swiftly and surreptitiously preselected two much
younger employees to fill two vacancies that Gonzalez
was interested in without having these candidates
engage in a competitive process. And although
preselection alone does not violate ADEA when it’s
based on qualifications, courts have found that
“preselection is relevant to the employer’s motivations
and ‘operates to discredit the employer’s proffered
explanation for its employment decision.’” Napolitano,
738 F.Supp.2d at 181–82 (citing Goostree v. State of
Tennessee, 796 F.2d 854, 861 (6th Cir.1986) ). See also
Ham v. Washington Suburban Sanitary Comm’n, 158
Fed.Appx. 457, 470 (4th Cir.2005) (stating that
preselection can support a finding of pretext in
conjunction with other evidence); Coble v. Hot Springs
Sch. Dist. No. 6, 682 F.2d 721, 728–29 (8th Cir.1982)
(finding that evidence of preselection discredited the
school district’s proffered legitimate explanation)).
“[T]he significance of any given act of retaliation
will often depend upon the particular circumstances.
Context matters.” Burlington N. & Santa Fe Ry. Co. v.

App. 124a
White, 548 U.S. 53, 69 (2006). From the evidence as a
whole, the jury in this case could have reasonably and
sensibly found that defendants’ explanations were
less than forthcoming. The cumulative effect of
defendants’ irregularities in the promotional
processes, deviations from established policies,
shifting explanations, stealthy personnel moves,
contradictions and inconsistencies weighed heavily in
the minds of the jury. See Santiago-Ramos, 217 F.3d
at 56 (finding a plaintiff can establish pretext by
showing weaknesses, implausibilities, inconsistencies, incoherencies, or contradictions in the employer’s
proffered legitimate reasons such that a factfinder
could infer that the employer did not act for the
asserted non-discriminatory reasons). All told, the
evidence presented at trial was enough to support the
jury’s finding of retaliation.
Other circumstantial evidence points in a similar
direction. For one, not only were defendants selecting
substantially younger candidates for vacancies and
promotions, but there is also proof that in March of
2014, the other two employees affected by the
Reorganization, Oliver and Torres, were promoted to
Level 16 positions while Gonzalez, their former
supervisor, remained at a Level 15 position. A
reasonable jury could conclude from this evidence that
these employees were similarly-situated in the face of
the Reorganization but were treated differently
because of their age or because neither had filed
complaints of age discrimination against Kim Perez
and the Company. See Docket No. 153 at p. 6.
The record also reflects that the two employees
that were over 50 years of age (Wilma Diaz and
Gonzalez) were stuck at Level 15 positions, whereas
substantially younger employees were being selected

App. 125a
or promoted without having to apply or compete for
positions. A plaintiff may show that the employer’s
reason is a pretext for discrimination with evidence of
“statistical evidence showing disparate treatment by
the employer of members of the protected class.”
Mesnick, 950 F.2d at 824. Pursuant to the foregoing,
the jury also had sufficient statistical evidence to infer
pretext.
Finally, during trial, the Plaintiff stressed the fact
that the Company’s Talent Management Review
document for 2014 had neither “promotion timing” or
“potential moves” or “developmental actions” listed for
her. See Plaintiff’s Exhibit 39. A cursory review of this
document shows that this lack of information was a
departure from the usual practice. Moreover, the
reasons Adames and Harris gave for this lack of
information were all proven to be inconsistent, if not
false.
From the evidence presented at trial, the court
finds that defendants cannot properly argue that
there was a complete absence of evidence to support
the verdict. On the contrary, the evidence from which
the jury could have reasonably concluded that
defendants retaliated against the Plaintiff by failing
to promote her was overwhelming. Defendants’
motion for judgment as a matter of law is thus
DENIED.
b. “Partially Achieved” Performance
Evaluation
Defendants argue that they did not retaliate
against Plaintiff by giving her an unwarranted
“Partially Achieved” or PA rating in her 2013
performance evaluation. See Docket No. 163 at pp. 1415. First, they contend that Plaintiff herself admitted

App. 126a
that she did not meet deadlines and needed
improvement in her communication skills.16 See id.
Second, defendants set forth that pursuant to the
applicable law, the only relevant inquiry is whether
Abbott believed that Plaintiff was performing below
expectations, not whether she actually was
underperforming or whether Plaintiff subjectively
thought she was not. See id.
In response to this argument, Plaintiff pointed out
to portions of her trial testimony where she explained
how Kim Perez excluded her from meetings and kept
important information from her that was essential to
the performance of her duties. See Docket No. 170 at
p. 13; Docket No. 130 at pp. 42-45. The record reflects
that Kim Perez and Plaintiff often had differing
explanations for events that transpired during the
course of their working relationship as supervisor and
subordinate. Nevertheless, a reasonable jury could
have deemed Plaintiff’s account more credible than
Kim Perez’s and concluded that the latter sabotaged
Plaintiff’s ability to achieve expectations in retaliation
for Plaintiff having filed claims of age discrimination
against her.

In support of this argument, defendants refer to the jury
trial transcript where Plaintiff supposedly admitted having “no
evidence” that Kim Perez gave her “bad evaluations to discriminate or retaliate against her.” See Docket No. 163 at p. 15 (citing
Docket No. 130 at p. 106). According to defendants, this admission warrants “the dismissal of all the claims.” See Docket No.
163 at p. 15. However, the court found no such content in the
cited material. “The court will not do counsel’s work,” Diaz–Morales v. Rubio–Paredes, 170 F.Supp.3d 276, 289 (D.P.R. 2016),
and ferret the extensive record of this case to find this so-called
“admission.”
16

App. 127a
Some inconsistencies also stem from the way
Plaintiff’s supervisors handled her purported
performance shortcomings. The first has to do with
the implementation of the Company’s Performance
Improvement Plan (“PIP”). Adames testified that a
PIP is usually recommended when an employee
obtains a PA in his/her evaluation for two consecutive
years,17 and Harris’ email stated that Gonzalez had
been displaying competency issues for three
consecutive years.18 Despite supposedly displaying
sub-par performance for three years, Kim Perez did
not mention placing Plaintiff in an improvement plan
during her 2013 mid-year review in September of
2013. See Docket No. 130 at pp. 38-39. On the
contrary, Plaintiff testified that after this mid-year
evaluation, she believed she was “on track” to
receiving an “AE” (“Achieved Expectations”) in her
final performance evaluation. But after her formal
claim of age discrimination at the ADU just a month
later, everything took a “downward turn.” See Docket
No. 170 at pp. 14-16.
The fact remains though, that Gonzalez was never
placed on a PIP,19 and according to Plaintiff, neither
Harris or Kim Perez devised a plan to enable her to
improve her performance.20 On the other hand, the
defendants’ position is that they did not deviate from
Company policy with regards to their performance
evaluations of Gonzalez. According to defendants,
they did not place her on a PIP because she did not fail
to meet expectations for two consecutive years after
17

See Docket No. 125 at pp. 90-92.

18

See Docket No. 153 at p. 52.

19

See Docket No. 125 at p. 92.

20

See Docket No. 130 at p. 68.

App. 128a
having obtained a “satisfactory evaluation” in her
2012 performance review. See Docket No. 163 at pp.
21-22. However, this post hoc explanation is not
aligned with Harris’ statements in his March 2014
email to Plaintiff.
As to the corrective measures taken to help
Plaintiff improve, defendants contend that in 2012
they created an “action plan” for Plaintiff to achieve
goals “in the areas where she was having difficulties.”
See id. at p. 22. In support of this statement,
defendants refer to her 2012 performance evaluation,
which defendants admitted in the previous paragraph
was “satisfactory” and precluded the implementation
of a PIP. Id. at p. 21. That is, defendants’ use of
Gonzalez’s 2012 performance evaluation is twofold
and ambiguous. On the one hand, Gonzalez’s 2012
performance evaluation states she achieved
expectations and prevented the implementation of a
PIP, but this document is also the source of a
corrective program devised to aid her improve her
consistently deficient performance. Defendants
cannot have the cake and eat it too. A reasonable jury
could plausibly not believe defendants’ knotty theory.
The second inconsistency in the record has to do
with defendants’ communications with Plaintiff
regarding her performance shortcomings. First, when
Plaintiff emailed Harris in November of 2013 stating
her interest in the Senior Product Manager position,
Harris never mentioned the competency issues that
would hinder her possibilities for a promotion. See
Docket No. 130 at p. 37. This was just four (4) months
before the email he sent her about her ineptitude for
promotion. Second, Kim Perez admitted that for the
most part, she communicates with her team through
emails because that is her management style. See

App. 129a
Docket No. 123 at p. 11; Docket No. 155 at p. 58. In
fact, Plaintiff had complained back in 2011 that Kim
Perez sent a lot of emails. See Docket No. 123 at pp.
10-11. But other than Harris’ email of March of 2014,
defendants did not produce one email from Kim Perez
in which she admonished or corrected or reprimanded
Plaintiff for her subpar performance, which
defendants now contend is the real reason for
Plaintiff’s negative evaluation and stasis in a Level 15
position. “The absence of such evidence is a factor that
the jury reasonably could consider in deciding this
issue.” Trainor v. HEI Hosp., LLC, 699 F.3d 19, 28–29
(1st Cir. 2012) (citing Benders v. Bellows & Bellows,
515 F.3d 757, 763–64 (7th Cir.2008)) (defendant not
entitled to judgment as a matter of law where
defendant was unable to produce memorandum,
email, or other internal writing substantiating its
non-retaliatory reason for terminating the plaintiff in
the midst of negotiations). Plaintiff’s formal claim of
discrimination and retaliation preceded the
documentary evidence defendants produced to prove
Plaintiff’s performance shortcomings, and given the
sequence of events, the jury could have reasonably
inferred that the negative performance review was
retaliatory.
Another discrepancy is apparent when one
juxtaposes defendants’ claim that Plaintiff had
competency issues for three consecutive years versus
the fact that Plaintiff was a finalist for promotion at
the very end of 2013, when Kim Perez already knew
that she had partially achieved expectations. And
although Kim Perez denied considering what she
deemed was Plaintiff’s deficient 2013 performance in
the selection process for the Senior Product Manager
position, as stated supra, a jury could have simply

App. 130a
rejected this testimony as inherently implausible or
unbelievable. But having picked Plaintiff as a finalist
out of 114 applicants despite her poor performance is
inconsistent with defendants’ goal to pick the “best
candidate” for the position. In this regard, the court
finds that this incongruency credits Plaintiff’s theory
that her selection as a finalist was a sham intended to
deceive her into thinking she was genuinely being
considered for promotion, only to have her chances for
advancement shattered with a negative performance
evaluation shortly thereafter. See Santiago-Ramos,
217 F.3d at 56 (finding a plaintiff can establish pretext
by showing weaknesses, implausibilities, inconsistencies, incoherencies, or contradictions in the
employer’s proffered legitimate reasons such that a
factfinder could infer that the employer did not act for
the asserted nondiscriminatory reasons).
All told, the court finds that the jury in this case
could have reasonably found that defendants deviated
from the Company’s performance evaluation policy
and that the shifting explanations they offered were
incongruous. Deviations from established Company
policy have been recognized as evidence of pretext. See
Dunn v. Trustees of Boston Univ., 761 F.3d 63, 73 (1st
Cir. 2014) (“[T]his court has recognized that deviation
from established policy or practice may be evidence of
pretext.”). The overall factual picture in this case
could have sensibly led a juror to disbelieve
defendants’ contention that their decision to give
Plaintiff a negative performance review was based
purely on a poor performance record. On the contrary,
the evidence supported the jury’s conclusion that the
performance issues that Kim Perez and Harris
pointed out to Plaintiff in 2014 in her final evaluation
and in one email, respectively, were a pretext to cover

App. 131a
up their real motive: retaliation for having complained
of age discrimination.
In light of the foregoing, the court finds that
Plaintiff presented enough evidence of pretext for a
jury to reasonably conclude that Plaintiff’s negative
performance evaluation was unwarranted and
resulted from defendants’ desire to retaliate against
Plaintiff for having filed claims of age discrimination
and retaliation. Accordingly, defendants’ motion for
judgment as a matter of law is DENIED on these
grounds.
c. SIF Letter
Pursuant to Article 5(a) of the Workers’
Compensation Act, better known as the State
Insurance Fund Corporation Law, Law No. 45, P.R.
Laws Ann. tit. 11, § 7, an employee “who suffers a
work-related injury or accident and reports to the
Fund for treatment, has an absolute right to
reinstatement to her position once she is discharged
from the Fund (i.e., from medical treatment), provided
she seeks reinstatement within twelve months of her
injury or accident.” Rivera-Flores v. Puerto Rico Tel.
Co., 64 F.3d 742, 750 (1st Cir. 1995). See also Martinez
v. EagleGlob. Logistics (CEVA), No. CIV. 09-02265
PG, 2011 WL 3843918, at *20 (D.P.R. Aug. 26, 2011)
(“The Supreme Court of Puerto Rico has found that
Article 5(a) has two components: (1) the obligation to
keep the injured employee’s job available for one year
and, (2) the obligation to reinstate him after the SIF
discharges him, so long as the employee seeks
reinstatement within the one year reserve period and
he meets the three statutory conditions.”) (citing
Grillasca–Pietri v. Portorican American Broadcasting
Co., Inc., 233 F. Supp. 2d 258, 265 (D.P.R.2002)).
“[T]he Puerto Rico Supreme Court has held that

App. 132a
seeking SIF benefits qualifies as protected activity
under Law 115.” Santana-Colon v. Houghton Mifflin
Harcout Pub. Co., 81 F. Supp. 3d 129, 136 (D.P.R.
2014) (citing Feliciano Martes v. Sheraton, 182 P.R.
Dec. 368, 395 (2011)).
Defendants argue that the SIF exhaustion notice
did not constitute retaliation because a threat is not
an adverse employment action “under ADEA” and
because they had a legitimate non-retaliatory reason
for notifying her that she had exhausted her reserve
period. See Docket No. 163 at pp. 10-11. In response,
Plaintiff’s opposing argument is twofold. First, she
argues that the SIFC Law does not “mandate
termination of the employee” after the one-year
reserve period expires and a reasonable jury could
have deemed the letter as an act of retaliation in
violation of Law No. 115 because it contained a threat
of termination.21 See Docket No. 170 at p. 9 n.21.
Second, Plaintiff purports that defendants are
precluded from moving for judgment as a matter of
law on this issue because they did not raise it in their
Rule 50(a) motions. See id. at p. 4 n.8. In their reply,
defendants justify this omission complaining that the
judge cut them short during their oral arguments
“An employee establishes a prima facie case under Law 115
by proving that (1) he engaged in one of the protected activities
set forth in the ... Act and (2) he was subsequently discharged,
threatened or suffered discrimination at work.” MVM Inc. v. Rodriguez, 568 F. Supp. 2d 158, 176–77 (D.P.R. 2008) (emphasis
ours) (citing P.R. Laws Ann. tit. 29 § 194a(a); Irizarry v. Johnson
& Johnson, 150 P.R. Dec. 155, 164 (2000) ). See also Figueroa v.
J.C. Penney Puerto Rico, Inc., No. CIV. 07-1258 JAG, 2010 WL
4861497, at *8 (D.P.R. Nov. 29, 2010) (“Employees must establish
that a protected activity was carried out and that termination,
threats or discrimination were suffered.”).
21

App. 133a
pursuant to Rule 50(a).22 See Docket No. 177 at p. 3
n.1.
After carefully reviewing defendants’ Rule 50(a)
motions, the court agrees with Plaintiff in both of her
arguments. In their preverdict motions, defendants
failed to advance their sufficiency of the evidence
argument regarding Plaintiff’s Law No. 115
retaliation claim for having reported to the SIF. As
previously set forth, a renewed motion for judgment
as a matter of law pursuant to Rule 50(b) “is bounded
by the movant’s earlier Rule 50(a) motion. ... As a
result, the movant cannot use such a motion as a
vehicle to introduce a legal theory not distinctly
articulated in its Rule 50(a) motion.” Cornwell Entm’t,
Inc. v. Anchin, Block & Anchin, LLP, 830 F.3d 18, 25
(1st Cir. 2016) (citing Parker v. Gerrish, 547 F.3d 1,
12 (1st Cir. 2008)) (internal citations and quotation
marks omitted). The court holds that defendants are
procedurally barred from seeking judgment as a
matter of law on this issue. In addition, this particular
retaliation claim was filed pursuant to Law No. 115,23
not ADEA, as defendants argued in their Rule 50(b)
motion. Defendants simply missed the mark, and
thus, their motion for judgment as matter of law as to
Plaintiff’s Law No. 115 retaliation claim for having
reported to the SIF is DENIED.
3. Willful Violation
Defendants argue that “[t]he evidence presented at
trial also does not support a finding of willful
violations of federal law.” Docket No. 163 at p. 23.
As previously discussed, this court has already held that
this argument lacks merit. See supra note 7.
22

23

p. 19.

See “Fifth Cause of Action” in Complaint, Docket No. 1 at

App. 134a
According to them, there was no evidence showing
“knowing or reckless disregard of Plaintiff’s ADEA
rights,” id., and the jury’s finding to that effect is
unsupported “given the lack of strength of her prima
facie case and the absence of pretext.” Id. In response,
Plaintiff stated that Abbott waived or forfeited its
challenge to the sufficiency of the evidence related to
the issue of “willfulness” because it did not raise it in
its Rule 50(a) motions, allowed the court to charge the
jury on the issue, and failed to object its inclusion in
the verdict form. See Docket No. 170 at p. 5. In their
reply, defendants justify their omission by
complaining that the judge cut them short during
their Rule 50(a) motions before the case was
submitted to the jury.24 See Docket No. 177 at p. 3 n.1.
Defendants add that Plaintiff also failed to object to
the waiver.25 See id. at p. 3.
As previously discussed, this court has already held that
this argument lacks merit. See supra note 7.
24

25 In their reply (Docket No. 177), defendants argue that
Plaintiff’s failure to object to defendants’ waiver of this argument
at the Rule 50(a) stage also precludes them from objecting in
their Rule 50(b) opposition memoranda. See Docket No. 177. In
support of their position, defendants cite U.S. v. Taylor, 54 F.3d
967, 972 (1st Cir. 1995) and include an explanatory parenthetical
that states as follows: “(party’s pre-verdict oral Rule 50(a) motion
did not contain facts and law that entitled it to judgment whereas
its post-verdict written Rule 50(a) motion did; because opposing
party failed to object when initially made orally, opposing party
waived right to object on specificity grounds).” Docket No. 177 at
p. 3. But Taylor is a bank robbery criminal case that obviously
does not include a discussion of Rule 50 of the Federal Rules of
Civil Procedure. In addition, the “raise-or-waive rule” discussion
it includes is in the context of an attorney’s duty to object to an
“improper occurrence” or an erroneous ruling by the trial judge.”
Taylor, 54 F.3d at 972. Simply put, the defendants’ “explanatory

App. 135a
Plaintiff’s Second Cause of Action in her complaint
was precisely “Willful Violation Under ADEA.” Docket
No. 1 at pp. 17-18. After carefully reviewing
defendants’ Rule 50(a) motions, the court agrees with
Plaintiff that defendants failed to advance their
sufficiency of the evidence argument in regard to this
claim in their preverdict motions. As previously set
forth, a movant cannot file a Rule 50(b) motion at the
post-trial stage introducing a legal theory not
distinctly articulated in the Rule 50(a) motion. See
Costa-Urena, 590 F.3d at 26 (“It is well-established
that arguments not made in a motion for judgment as
a matter of law under Rule 50(a) cannot then be
advanced in a renewed motion for judgment as a
matter of law under Rule 50(b).”). The court holds
that, as a result, defendants are procedurally barred
from seeking judgment as a matter of law on the issue
of willfulness, and their motion is DENIED on those
grounds.
4. Back Pay and Compensatory Damages
Defendants finally argue that Plaintiff failed to
present evidence from which a jury could award back
pay and compensatory damages. See Docket No. 163
at pp.23-24. Therein, defendants incorporate their
discussion in their Motion for New Trial. See Docket
No. 164. Accordingly, the court will defer the
parenthetical” does not explain any of Taylor’s holdings and can
only be regarded as an exercise of wishful thinking or fictional
creativity on the part of defendants’ counsel. Defendants would
have this court find that opposing counsel is required to raise an
objection in the face of a moving counsel’s careless silence or
omission. But defendants’ logic puts the cart before the horse. At
any rate, the undersigned will not deem defendants’ counsel misquotation as an attempt to intentionally mislead the Court.

App. 136a
discussion of this argument to the opinion adjudging
said motion.
III. CONCLUSION
The court finds that defendants that have failed to
meet their burden in showing that the evidence in the
record, taken in the light most favorable to Gonzalez,
is so overwhelmingly inconsistent with the verdict
that no reasonable jury could come to the same
conclusion. Although the issue of backpay is HELD
IN ABEYANCE, the rest of their renewed motion for
judgment as a matter of law pursuant to Rule 50(b) is
hereby DENIED.
IT IS SO ORDERED.
In San Juan, Puerto Rico, October 30, 2018.
S/ JUAN M. PÉREZ-GIMÉNEZ
JUAN M. PÉREZ-GIMÉNE
SENIOR U.S. DISTRICT JUDGE

